<html>
<title> - AGRICULTURE AND NATIONAL SECURITY: ON-THE-GROUND EXPERIENCES OF FORMER MILITARY LEADERS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 AGRICULTURE AND NATIONAL SECURITY: ON-THE-GROUND EXPERIENCES OF FORMER
                            MILITARY LEADERS

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 7, 2016

                               __________

                           Serial No. 114-55



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov






                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-154 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






















                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     1
    Prepared statement...........................................     2
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     3

                               Witnesses

Sholar, Ph.D., MG James R., (Ret.), U.S. Army; Professor Emeritus 
  of Agronomy, Oklahoma State University, Stillwater, OK.........     4
    Prepared statement...........................................     6
Owens, MG Darren G., (Ret.), Texas Army National Guard; Chief of 
  the Common Management and Price Support, Texas State FSA 
  Office, Bryan, TX..............................................    10
    Prepared statement...........................................    12
Ahlness, COL Eric D., (Ret), U.S. Army; North American Lead for 
  Diversity and Business Impact, Cargill, Incorporated, White 
  Bear Lake, MN..................................................    19
    Prepared statement...........................................    21
 
 AGRICULTURE AND NATIONAL SECURITY: ON-THE-GROUND EXPERIENCES OF FORMER
                            MILITARY LEADERS

                              ----------                              


                         THURSDAY, JULY 7, 2016

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Neugebauer, 
Lucas, Austin Scott of Georgia, Gibson, Hartzler, Benishek, 
LaMalfa, Davis, Yoho, Allen, Moolenaar, Newhouse, Kelly, 
Peterson, David Scott of Georgia, Costa, Walz, McGovern, 
DelBene, Vela, Lujan Grisham, Kuster, Nolan, Bustos, 
Kirkpatrick, Graham, and Ashford.
    Staff present: Bart Fischer, Caleb Crosswhite, John Weber, 
Josh Maxwell, Matt Schertz, Mykel Wedig, Stephanie Addison, 
John Konya, Anne Simmons, Liz Friedlander, Mike Stranz, Nicole 
Scott, and Carly Reedholm.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. Good morning. This hearing of the Committee 
on Agriculture entitled, Agriculture and National Security: On-
the-Ground Experiences of Former Military Leaders, will come to 
order. Rodney, will you open us with a prayer?
    Mr. Davis. Please bow your heads. Lord, thank you for 
giving us this opportunity to gather once again in this great 
institution in this great country. Let us thank all of our 
witnesses, not only for their presence, but for their service, 
and let us all remember those who are still fighting for our 
freedoms, freedom to govern ourselves, in harm's way, who are 
serving our country. Thank them, thank all of us, and thank 
you, Lord, mostly. In your name we pray, amen.
    The Chairman. Thank you, Rodney.
    Good morning, and welcome to today's hearing. This week we 
celebrated America's 240th birthday. As we reflect on the 
freedoms we enjoy at home, it is important that we understand 
the role our military leaders, along with our farmers and 
ranchers, play in ensuring that we are safe and well fed.
    Two of the pillars of our country's national security have 
long been a strong military and sound agricultural policy. For 
decades, the United States has invested in transportation and 
infrastructure, agricultural research and innovation, and risk 
management tools for farmers, all of which have led to a 
vibrant and stable agricultural sector in the United States. 
When you combine that with the might of the U.S. military, the 
United States has long enjoyed relative peace and prosperity 
here at home.
    In our latest hearing on this topic, one veteran-turned-
farmer highlighted that roughly one percent of the nation 
defends the other 99 percent. Similarly, roughly one percent of 
the nation feeds the other 99 percent. In both cases, men and 
women are doing important work that few truly understand or 
fully appreciate. Sitting on the Armed Services Committee and 
now chairing the House Agriculture Committee, I find myself in 
a unique position to highlight their work and to draw attention 
to the fact that a nation's security is inextricably linked to 
its ability to both feed and defend its people.
    While the United States has long invested in both 
agriculture and defense, that is not the case in many parts of 
the world. Today, we will hear from former military leaders who 
served in many places where agricultural development was not a 
priority, and they can speak to the tremendous instability that 
brings. They understand, perhaps better than any of us, how 
important it is for the United States to continue providing the 
tools that are necessary for our nation to be able to feed and 
clothe its people.
    With that, I would like to welcome Major General James 
``Ron'' Sholar, U.S. Army Retired, Stillwater, Oklahoma. Major 
General Sholar served continuously for 39 years as a 
commissioned officer in the United States Army and Army 
Reserve. Additionally he spent 3 decades as a Professor of 
Agronomy and Extension Agronomist at Oklahoma State University. 
Currently, he serves as Executive Director of the Great Plains 
Canola Association and Executive Director of the Oklahoma 
Oilseed Commission.
    Next, I would like to welcome Major General Darren Owens, 
U.S. Texas Army National Guard, Retired, Bryan, Texas. As a 
member of the Texas Army National Guard, General Owens served 
in numerous leadership positions at every level, including 
working to establish Agribusiness Development Teams in 
Afghanistan, where he worked with the National Guard and land-
grant universities in multiple states. He currently serves as 
Chief of the Common Management and Price Support Programs at 
the Texas State FSA Office.
    Our third witness is Colonel Eric Ahlness, retired U.S. 
Army, White Bear Lake, Minnesota. Colonel Ahlness retired in 
February 2014 after having served 28 years. During his service 
he commanded the Minnesota Agribusiness Development Team, which 
was deployed to Afghanistan from October 2011 to September 
2012. He now serves as the North American Lead for Diversity 
and Business Impact for Cargill.
    I want to thank our distinguished witnesses for joining us 
today.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    Good morning, and welcome to today's hearing.
    This week we celebrated America's 240th birthday. As we reflect on 
the freedoms we enjoy at home, it's important that we understand the 
role our military leaders--along with our farmers and ranchers--play in 
ensuring that we are safe and well fed.
    Two of the pillars of our country's national security have long 
been a strong military and sound agricultural policy. For decades, the 
United States has invested in transportation and infrastructure, 
agricultural research and innovation, and risk management tools for 
farmers, all of which have led to a vibrant and stable agricultural 
sector in the United States. When you combine that with the might of 
the U.S. military, the United States has long enjoyed relative peace 
and prosperity here at home.
    In our latest hearing on this topic, one veteran-turned-farmer 
highlighted that roughly one percent of the nation defends the other 99 
percent and, similarly, roughly one percent of the nation feeds the 
other 99 percent. In both cases, men and women are doing important work 
that few truly understand or fully appreciate. Sitting on the Armed 
Services Committee and now chairing the Agriculture Committee, I find 
myself in a unique position to highlight their work and to draw 
attention to the fact that a nation's security is inextricably linked 
to its ability to both feed and defend its people.
    While the United States has long invested in both agriculture and 
defense, that is not the case in many parts of the world. Today, we 
will hear from former military leaders who served in many places where 
agricultural development was not a priority, and they can speak to the 
tremendous instability that brings. They understand, perhaps better 
than any of us, how important it is for the U.S. to continue providing 
the tools that are necessary for our nation to be able to feed and 
clothe its people.
    With that, I'd like to welcome Major General James R. Sholar, U.S. 
Army Retired, Stillwater, OK. General Sholar served continuously for 39 
years as a commissioned officer in the United States Army and Army 
Reserve. Additionally he spent 3 decades as a Professor of Agronomy and 
Extension Agronomist at Oklahoma State University. Currently, he serves 
as Executive Director of the Great Plains Canola Association and 
Executive Director of the Oklahoma Oilseed Commission.
    Next, I would like to welcome Major General Darren G. Owens, Texas 
Army National Guard, Retired, Bryan, TX. As a member of the Texas Army 
National Guard, General Owens served in numerous leadership positions 
at every level, including working to establish Agribusiness Development 
Teams for Afghanistan, where he worked with the National Guard and 
land-grant universities in multiple states. He currently serves as 
Chief of the Common Management and Price Support programs at the Texas 
State FSA Office.
    Our third witness is Colonel Eric D. Ahlness, U.S. Army, Retired, 
White Bear Lake, MN. Colonel Ahlness retired in February 2014 after 
having served 28 years. During his service he commanded the Minnesota 
Agribusiness Development Team, which was deployed to Afghanistan from 
October 2011 to September 2012. He now serves as the North American 
Lead for Diversity and Business Impact for Cargill.
    I want to thank our distinguished panel for joining us today. I now 
recognize the Ranking Member for his opening remarks.

    The Chairman. I now like to turn to the Ranking Member for 
any comments he would like to make.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman, and I would also 
welcome our witnesses, and especially Colonel Ahlness, who I 
have a relationship with. We go back many years when he was in 
the Minnesota National Guard, and we were over in Bosnia in 
1\1/2\ of snow trying to get out to visit one of my guard 
units. Over the years, he has done an outstanding job with the 
guard and the other military aspects. He also works for one of 
our great companies, Cargill, in agriculture, and so it is very 
appropriate that he is here today.
    Food insecurity around the world has an impact on national 
security, as we all understand, which is why this hearing today 
is important. I don't think a lot of people, though, understand 
this, and they don't realize the important role that 
agriculture can play when it comes to our country's national 
security interest.
    A strong ag sector and stable food supply are critical to 
national security. In my view, increasing our focus on economic 
development, particularly in agriculture, could provide some 
stability to some of the world's most volatile regions. 
Agriculture is a primary driver of economic activity in most 
rural areas, and the work and investments we make in food 
security will pay dividends both worldwide and here at home.
    Our witnesses today have firsthand experience on these 
issues. They have served our country by helping to establish 
agriculture education programs, building infrastructure, and 
expanding ag services in places like Afghanistan, Iraq, and 
Kosovo.
    So I thank all of you for your service. I look forward to 
your testimony, and Mr. Chairman, thank you for holding the 
hearing, and I yield back.
    The Chairman. I thank the gentleman. The chair would 
request that other Members submit their opening statements for 
the record so our witnesses may begin their testimony and 
ensure there is ample time for questions.
    With that, I would like to welcome our witnesses to the 
table, and Major General Sholar, if you will begin, 5 minutes.

  STATEMENT OF MG JAMES R. SHOLAR, Ph.D., (RET.), U.S. ARMY; 
  PROFESSOR EMERITUS OF AGRONOMY, OKLAHOMA STATE UNIVERSITY, 
                         STILLWATER, OK

    Dr. Sholar. Good morning, Chairman Conaway, Ranking Member 
Peterson, Members of the Committee, ladies and gentlemen. My 
name is Ron Sholar. I am a retired American soldier and a 
Professor Emeritus at Oklahoma State University. My testimony 
today is a reflection of my own thoughts and experiences. It is 
intended in no way to represent either the Army or the 
university.
    Thank you for the opportunity to speak regarding the 
importance of American agriculture and its relationship to 
national security. I, like many others, believe they are 
inextricably linked.
    Agriculture and the Army have taken me around this country 
and around the world. This has afforded me the opportunity to 
compare and contrast how we feed and defend our citizens here 
at home with how these two most basic requirements are met in 
other parts of the world.
    The safe, abundant, and relatively inexpensive food supply 
that we enjoy in the U.S. is now produced by fewer than ever. 
When the Constitution was signed, 95 percent of our citizens 
were farmers. By 1920, that was 40 percent, and now it stands 
at a little less than two.
    Everyone sees the reasons for the abundance of our food 
supply through their own prism: the natural productivity of our 
land, generally favorable weather, rapid adoption of improved 
technology, and a host of other reasons. One that sets us apart 
is the sophisticated distribution and transportation system 
that moves our agriculture products from one part of the 
country to the other, and around the world. Another, of course, 
is our national farm policy, which includes the farm safety net 
that sustains our farmers through particularly difficult times.
    From my perspective, food security is, first of all, about 
ensuring that the plentiful supply of high quality food and 
agricultural products that we enjoy continues to be available, 
and that means a robust Agricultural Research and Extension 
Program. We can't secure what we don't have.
    Public outlays for agricultural research conducted by USDA 
and our land-grant universities are not a cost, they are an 
investment. An economic analysis consistently shows that these 
expenditures produce a high rate of return. The U.S. 
cooperative extension service is the envy of the world. For a 
century, land-grant universities have, through extension, 
delivered practical information to the farmgate and the front 
door of America.
    As we look globally, it is clear that we will see more food 
insecurity. An exploding world population that will soon be 
nine billion will place even more stress on an already stressed 
system. Food insecurity contributes dramatically to conflict 
and instability.
    I have seen agriculture firsthand in around 20 countries, 
that is including the food-secure countries of Western Europe. 
I have also seen the other side of the world where food 
insecurity is a constant problem. I have seen agriculture in 
Iraq, Afghanistan, Kosovo, Guatemala, El Salvador, and China, 
which is, of course, a special case. I will make a few 
observations about Iraq and Afghanistan.
    Iraq is at once a land of agricultural opportunity, and 
agricultural neglect. Agriculture is Iraq's third largest 
employer. It has about 8 million hectares of arable land, but 
only half of that is being cultivated. In the north and the 
northeast, which is the best land, they grow chiefly wheat and 
barley. These are low value, coarse grains. Even in the Fertile 
Crescent, the Tigris and Euphrates River valleys, agriculture 
under-performs because of the inability to access the water. In 
five trips to Iraq----
    The Chairman. Excuse me. I want to interrupt you for just a 
second. I need the conversation in the back, Mr. Costa, Jim, I 
can hear you guys and you are talking louder than the witness.
    Major General?
    Dr. Sholar. In five trips to Iraq, I saw my Army units, 
along with others, hard at work. Active duty, reserve, National 
Guard units were working in concert with the Iraqis to secure 
the country. Civil Affairs teams and provincial reconstruction 
teams were setting up or reestablishing local governance, 
improving electrical and water services, and other programs. 
Many of the soldiers were using the civilian skill sets that 
they employed back home in their everyday jobs.
    In Afghanistan, more than 50 percent of the population earn 
their living from agriculture. The tribal nature of their 
society, the lack of allegiance to a central government, and an 
entrenched and inflexible bureaucracy all stymied progress. 
Years of neglect have devastated Afghanistan's farmland and 
destroyed much of the country's infrastructure. The lacks in 
irrigation system and in such an area of the country, 
irrigation is the lifeblood of agriculture. This follows a 
simple axiom: no water, no agriculture.
    In Afghanistan, I had a similar experience to Iraq. 
Military hard at work, all components of the Army training, 
working, making progress, but it is very slow progress.
    In summary, I am confident that we in this country will 
meet every challenge for our own food security, and will assist 
our friends and allies around the world with theirs. I believe 
we owe a debt of gratitude to both the military and our 
agriculture, those who rise so early, to this country for what 
they bring.
    Thank you for allowing me to share these thoughts. I will 
be glad to answer any questions.
    [The prepared statement of MG Sholar follows:]

  Prepared Statement of MG James R. Sholar, Ph.D., (Ret.), U.S. Army;
Professor Emeritus of Agronomy, Oklahoma State University, Stillwater, 
                                   OK
    Good morning Chairman Conaway, Vice Chairman Neugebauer, Ranking 
Member Peterson, and Members of the House Committee on Agriculture.
    My name is Ron Sholar. I am a retired Soldier and Professor 
Emeritus of Agronomy at Oklahoma State University. My testimony today 
is a reflection of my own thoughts and experiences and is intended in 
no way to represent either the Army or the university.
    Thank you for the opportunity to speak to you regarding the 
importance of American agriculture or Food Security and its 
relationship to U.S. national security. I, like many others, believe 
they are inextricably linked.
Feeding Ourselves, Aiding the World
    Agriculture and the military have taken me around this country and 
around the world. That has afforded me the opportunity to compare and 
contrast how we feed and defend our citizens here at home with how 
these two most basic requirements are met in other developed as well as 
underdeveloped countries.
    America, unlike many other parts of the world, has met the test of 
both feeding and defending itself without interruption for almost 2\1/
2\ centuries. Of course that isn't the result of chance. This success 
is the direct consequence of our nation's enduring commitment to 
meeting the two most important needs of mankind--subsistence and 
protection.
    As Americans, we have daunting challenges today for which solutions 
are elusive. Much of the world is similarly plagued by profound, 
seemingly intractable problems including how to feed their burgeoning 
populations. When it comes to the ability to feed ourselves and a good 
deal of the rest of the world as well, the U.S. simply has no rival.
    Here at home, most citizens have the opportunity to decide what and 
when they will eat. In too much of the world, people are not trying to 
figure out what or when they will eat but if they will eat at all.
    The safe, abundant, and relatively inexpensive food supply that we 
enjoy is now produced by fewer people than ever before. When the 
Constitution was signed, 95% of the people were farmers, producing food 
primarily for their own families. By 1920, 40% of the population was 
farmers and today it is less than 2%. In 1950, one American farmer fed 
fewer than 30 others but that number now stands at more than 150.
    U.S. agriculture is a big industry . . . a trillion-dollar industry 
with agriculture-related products comprising nearly 10% of all exports 
bringing more than $140 billion (2012) into our economy. The U.S. 
Department of Agriculture reports that the agricultural industry 
supports one in 11 American jobs while providing American consumers 
with more than 80% of the food that they consume.
    We lament the fact that most consumers see no connection between 
the meat and vegetables on their plates and those who produced them. 
American farmers are so efficient and so productive that consumers find 
little need to think about such. None the less, they benefit enormously 
from American farmer skill, commitment, and labor resulting in the fact 
U.S. citizens devote far less of their take-home pay to food than 
almost any other place in the world. Americans spend less than 7% of 
their income on food compared with a global expenditure of 20 to 30%.
    And American farmers do this for a very small share of the total 
cost to the consumer for these goods. For each dollar spent on food, 
the farmer's cut is less than 25. The rest goes to costs beyond this 
control which include production inputs, processing, marketing, 
transportation and distribution.
    Everyone sees the reasons for the abundance of our food supply 
through their own prism--the natural productivity of our land, 
generally favorable weather for production agriculture, rapid adoption 
of improved technology as it becomes available, and a host of other 
reasons. One of those reasons that set us apart from much of the rest 
of the world is the complex transportation and distribution system that 
moves agricultural products from the field to consumer's homes and 
tables. A sophisticated network of trucks, trains, and barges 
efficiently transports grain and other agricultural products across the 
U.S. and around the world. Another is the farm safety net that sustains 
the farmer through difficult times and makes it possible to continue 
their chosen profession.
    These days, the idea of Food Security is very much on the minds of 
many. I submit that there are several ways to define this term one of 
which would include biosecurity. I know that this committed has looked 
at biosecurity and the need for that focus will only increase over 
time. The vulnerability of our food supply to bioterroristic attack is 
well documented but may not be well defended.
    How will we protect our food supply against unprecedented and 
growing threats? Well, something must be produced before there is a 
need for it be secured. From my perspective, food security is first of 
all about ensuring that the plentiful supply of high quality food and 
agricultural products that we enjoy continues to be available.
    Rather than address all or even several of the reasons for this 
abundance and how we will protect it, I'll focus on the area with which 
I am most familiar and then draw comparisons with other areas of the 
world.
Research and Extension
    Since 1950, U.S. agricultural productivity has shown amazing 
growth. There are a number of reasons for this but none more important 
than the contributions of the three component agricultural research 
system that supports this nation. Those components are: the national 
agricultural research system--USDA-ARS, the land-grant university 
system, and private-sector research.
    The economies of many states and our nation as a whole are highly 
dependent on agriculture and associated industries. It's been the role 
of USDA-ARS and the land-grant university system, working in concert 
with private industry, to find solutions to complex problems of 
agriculture.
    State universities are deeply rooted in the national land-grant 
tradition which is dedicated to solving problems for agriculture and 
society as a whole. Their agricultural research programs are spread 
along the continuum from fundamental or basic to those that are more 
applied in nature and have the potential for immediate impact.
    Public outlays for agricultural research conducted by USDA and 
land-grant universities are not a cost--they are an investment and 
economic analysis consistently shows that these expenditures produce a 
high rate of return. Producers gain by implementing practices that 
increase production or lower costs and consumers benefit from having an 
ample supply of high quality food at reasonable prices. Gains in 
productivity generated through research contribute to both agricultural 
and overall economic growth.
    For plant agriculture, recent advances in both basic and applied 
sciences are significantly and positively impacting agricultural 
productivity. These advances include: the utilization of marker 
assisted breeding techniques to generate more productive, disease 
resistant crop varieties; the development of more efficient irrigation 
practices; and innovations in precision agriculture and drone 
technology. New research discoveries are fundamental to: improving 
agricultural productivity and farm sector profitability, increasing 
competitiveness in international trade; and improving human nutrition 
and health.
    Advances in research have made critical contributions to the huge 
agricultural productivity gains seen in the U.S. following World War 
II. But it is not just research that is responsible for these gains. An 
indispensable partner in that success story has been the Cooperative 
Extension Service.
    The U.S. Cooperative Extension System is the envy of the world. For 
a century now, land-grant colleges and universities have through 
extension, delivered practical information to farmers, small business 
owners and others. The Extension service has carried the university to 
the farm gate and the front door of America . . . sharing agricultural 
advances through non-formal education and learning activities so that 
all can partake and all can benefit. The connecting of people to 
information and assistance has enriched family lives and communities 
and created positive changes. The Extension model is being used today 
for programs designed to help our returning veterans whether they are 
entering agriculture or some other endeavor.
    The mission of and need for the Cooperative Extension Service is 
still relevant today, even after 100 years. However, that long and 
successful history cannot relieve the need to adapt to changes in 
society. Evolving technology affords the opportunity to transfer 
information and knowledge in new and exciting ways but the basic 
principle of the Extension Service is the same as it has always been: 
to help solve problems and create opportunities.
    Despite the phenomenal record of achievement of American 
agriculture, there is never a time to take a knee for ourselves and 
certainly not as we meet our responsibilities as citizens of the world. 
We know that we have to be concerned about more than our own food 
security--we must be concerned about global food security.
    An exploding world population with an estimated nine billion mouths 
to feed by 2050 will place even greater demands on an already over 
strained and under producing international agricultural system. It's 
estimated that now there are more than 800 million people who are 
undernourished. With the world's population currently standing at 
almost 7.5 billion, most of the expected 1.6 billion in anticipated 
growth will occur in developing countries. Experts estimate that this 
will require world food production to be increased by 70 to 100%. The 
challenge of producing food for that many people is enormous. How will 
the food requirements for that many people be met when there are 
already shortages and the problems that go with that?
    More than 50 years ago, Dr. Norman Borlaug led the ``Green 
Revolution''. With the expected significant rise in world population 
and food requirements that will accompany the increase, some are asking 
if a similar revolution will be required. That will be an expensive but 
perhaps necessary eventuality.
    The U.S. has long been engaged in assisting the less fortunate in 
the world in their struggle for Food Security. We know that food 
insecurity contributes dramatically to conflict and instability. Peace 
is very much at risk where there are perpetual food shortages or where 
people spend most of their earnings on food. Unrest follows with open 
conflict looming if the shortages continue unabated.
    The U.S. and other G8 countries have called for increased 
investment in agriculture and rural development to combat food 
insecurity, to promote economic growth, and reduce instability in some 
of the most troubled spots of the world. Those are huge needs that will 
be met only with commitment and resources, both of which may be in 
short supply from world partners.
The Other Side of the World
    I've had the opportunity to see agriculture first hand in around 20 
countries. That has included the highly productive agricultural systems 
of Western Europe where there is a commitment not unlike that of the 
U.S. to produce sufficient food for their people. This commitment was 
made decades ago and has endured to ensure that food insecurity will 
never be an issue.
    I've also seen the other side of that situation where food 
insecurity dominates and even here in the 21st century, too much of the 
world's population is still barely eking out a living. I've seen 
agriculture in Iraq, Afghanistan, Kosovo, Guatemala, and El Salvador. 
I've also seen agriculture in China which shares characteristics with 
both developed and underdeveloped nations. Massive production is 
achieved but in some cases, this is done only through primitive 
production techniques including intense labor.
    Iraq--On several military trips to Iraq, I also had the opportunity 
to see Iraqi agriculture. Iraq is at once a land of agricultural 
opportunity and agricultural neglect. Agriculture is Iraq's third 
largest employer and contributor to the economy, following only 
government and the oil sector. Only intermittent government efforts to 
develop agriculture contributes to the fact that the industry makes a 
small contribution to Iraq's economy and the country remains dependent 
on importing a significant portion of its food.
    USAID reports that ``Iraq's agriculture sector declined 
considerably during the last few decades due to the lack of investment, 
isolation from the global economy and counterproductive agricultural 
policies.''
    Iraq has around 8 million hectares (17.6 million acres) of arable 
land which comprises less than 15% of the country's total land area. 
However, only around half of the arable land is being cultivated. Most 
of the arable land is concentrated in the north and northeast, where 
winter crops--chiefly wheat and barley--are grown, and in the Tigris 
and Euphrates river valleys. It would be very difficult to build an 
agricultural economy on these traditionally low value coarse grains.
    The ongoing reliance on subsistence farming causes Iraqi 
agriculture to look remarkably similar to that of a century ago. The 
lack of significant agricultural equipment is an impediment to 
improving food production and that contributes to keeping around 30 
percent of the population actually involved in agriculture.
    The lack of modern irrigation systems limit the opportunity to take 
advantage of abundant water supplies in some regions. Even in the 
Fertile Crescent, agriculture under-performs because of the inability 
to maximize the benefits of water. U.S. and international assistance 
have improved the situation but the problem is enormous and won't be 
solved anytime soon and perhaps never will be.
    Iraq's failure to address agricultural production began decades 
ago. Before the Iran-Iraq War, it was common for Iraq to send some of 
its best students to the U.S. to obtain advanced degrees in agriculture 
but the war stopped that. Having U.S. trained scientists in their 
universities and research facilities was a tremendous benefit to the 
country. A fractured relationship with the U.S. and the redirection of 
finite resources to other areas, including the almost decade long war, 
ended the program. The closing of this program has no doubt contributed 
to the overall decline in the ability of the country to feed itself.
    I saw our U.S. military at work in Iraq. Active duty, Reserve and 
National Guard units were working in concert with the Iraqis to secure 
the country. They were also working to reestablish some fundamental 
services that had been lost and some that had never existed. Civil 
Affairs teams and Provincial Reconstruction Teams were working to help 
set up or reestablish local governance, or to improve electrical 
services, or to improve water availability and many other programs. 
Legal and medical teams were working to help establish a judicial 
system and reliable medical services. Each of these teams brought with 
them the considerable civilian skill sets that they employed on their 
everyday jobs back home and the value of this was on display in many 
ways. These were daunting challenges but our men and women in uniform 
were doing what they always do. They were attacking the problems head 
on and without complaint and while progress was slow, they were 
improving conditions for the people.
    Afghanistan--There are similarities between Iraq and Afghanistan 
but there are also striking differences. Agriculture is of utmost 
importance in Afghanistan and is essential to the country's food 
security. More than 50% of Afghanistan's population earns their 
livelihood from agriculture and agriculture accounts for about 40% of 
Afghanistan's GDP. The tribal nature of the population and commitment 
to maintaining age old disputes combined with a lack of allegiance to a 
central government make it very difficult if not impossible to unify 
the population.
    Prior to decades of conflict, Afghanistan actually enjoyed a 
favorable international reputation for the production of several fruit 
and nut types. Years of neglect have devastated Afghanistan's farmland, 
displacing millions of people, and destroying the country's 
infrastructure. Particularly damaging to Afghanistan is that the 
country lacks agricultural infrastructure such as an adequate 
irrigation system and in such an arid country, irrigation is the 
lifeblood of agriculture. This follows a simple axiom--no water, no 
agriculture.
    During a 2006 trip to Afghanistan, we convoyed across the 
countryside from Kabul to Bagram. As we did, we witnessed far too much 
subsistence farming and essentially no production agriculture. We saw 
mothers cooking over open fires with small children nearby. Children 
who should be in school but for whom that was not an option. This was 
the very essence of poverty with no obvious means for improvement.
    I also saw our U.S. military at work. Active duty and National 
Guard combat units were doing the heavy lifting of securing the country 
and protecting the populace. Reserve units were working to train the 
fledgling Afghan army. Agricultural teams were working there to teach 
and train and improve the ability of the people to self-sustain. These 
were daunting challenges but our men and women were doing what they 
always do and that was to conduct the mission that they had been 
assigned.
    Agriculturally, Afghanistan still lacks the capability to deliver 
the kind of help that farmers need to make enduring changes to what 
they have been doing for generations. Parts of Afghanistan are likely 
ready for such a system while others are not. Agricultural assistance 
provided by the U.S. to Afghanistan has made a difference but it would 
be naive to believe that short-term support, even in millions of 
dollars, can overcome many generations of neglect. Food insecurity is a 
real concern in Afghanistan.
    I believe that several things can be done to improve the situation 
in Afghanistan. Underdeveloped countries lack the equivalent of an 
Extension Service and without that, there is little chance that people 
will find appropriate solutions to the problems on their own. USAID now 
has such a program--the Afghanistan Agriculture Extension Project II 
(AAEP II). This program follows the traditional extension model where 
representative farms are set up and where local farmers can get hands-
on, on-the-ground training.
    USAID, USDA, international partners and the Afghan Government are 
working together to increase the sales of licit farm products, create 
thousands of new jobs and bring fragile land areas under improved 
management. This work must be continued.
    In the 1960s and 1970s, Afghanistan sent outstanding graduate 
students to U.S. land-grant universities to study and train. That 
stopped with the rise in conflicts in the 1980s. Reestablishing this 
program would provide the U.S. trained scientists so desperately 
needed.
    An entrenched and inflexible bureaucracy plagues many 
underdeveloped countries and likely more so in Afghanistan than other 
places. Success will require endurance and diplomacy.
    Kosovo--In 2003, during a short visit to Kosovo, I saw firsthand 
what civil war can do to a country. From the vantage point of a Black 
Hawk helicopter, the land below looked like much of Western Europe 
except that fields which should be green with crops weren't producing 
crops at all. Individuals could be seen guarding one to three sheep and 
others guarding a single cow.
    The reasons were simple--this was to ensure the safety of the 
animals, keeping them away from unexploded ordinance that infested the 
area; and second, to keep the animals from being stolen.
    Rampant unemployment was also an issue. In our own country, we 
recognize just how fundamental it is to have people working and 
contributing to their own success. Cultural differences and long 
standing disputes frequently trump any possibility of that happening in 
other parts of the world.
    Central America--Guatemala and El Salvador--I've had the 
opportunity to be in Guatemala and El Salvador where the U.S. Army 
annually sends Reserve Component units to build modular schools, drill 
water wells, and conduct medical and veterinary missions in a program 
called ``New Horizons''. The program serves the dual purpose of 
providing essential training for the military units and individual 
soldiers while providing critically needed assistance to the local 
population.
    As valuable as these efforts are, they cannot overcome the effects 
of Guatemala's many problems. Almost 80% of the population lives in 
poverty and the country is in the midst of a food crisis. The weak 
domestic economy, ongoing political instability and social inequality 
make for an uncertain future. El Salvador suffers from many similar 
problems including high poverty, low GDP, and poor agricultural sector 
performance.
Summary
    In summary, despite formidable challenges, we will respond as we 
always have, aggressively and appropriately, to all concerns about our 
own food security. With regard to the rest of the world, we will 
continue to embrace our traditional role of assisting the less 
fortunate in dealing with their own food security.
    I would also say that as a nation and as individual citizens, we 
owe a debt of gratitude to those who rise early in the morning, 
laboring throughout the day and frequently into the dark, to produce 
the food and fiber that we rely on for sustenance every single day.
    Similarly, we owe that same debt to those who rise early in the 
day, put on a uniform and the gear of their profession and move out 
smartly to provide the protection and ensure the freedom that we all 
hold so dear and that we need to go about our daily lives.
    I trust that we will forget neither group. Thank you for allowing 
me to share some thoughts on the contributions of both.
    I'll be pleased to respond to your questions.

    The Chairman. Thank you.
    Major General Owens, 5 minutes.

 STATEMENT OF MG DARREN G. OWENS, (RET.), TEXAS ARMY NATIONAL 
GUARD; CHIEF OF THE COMMON MANAGEMENT AND PRICE SUPPORT, TEXAS 
                  STATE FSA OFFICE, BRYAN, TX

    Mr. Owens. Chairman Conaway, Ranking Member Peterson, 
Members of the Committee, staff, and guests, it is a pleasure 
and honor to be invited here today to talk with you about the 
interrelationship of comprehensive farm policy to national food 
security and national security.
    I firmly believe that America's first line of defense is 
our ability to feed and clothe our people. Without American 
agriculture providing adequate supplies of food and fiber at a 
reasonable cost, we would be dependent on other nations, and 
that could place the food security and ultimately the security 
of the nation at risk.
    Food insecurity is caused by either a lack of adequate 
supplies of food or a lack of affordability of food. Regardless 
of the cause, food insecurity can have devastating effects.
    We saw the lack of an available, affordable, sustainable 
food supply result in discontent, which then led to increased 
criminal and anti-government activities in order to supplement 
family income just to afford food. These activities, including 
assisting with smuggling of food and clothing products to avoid 
tariffs, smuggling of weapons and drugs, deforestation of 
hillsides, facilitating attacks on coalition forces, 
facilitating human trafficking, an individual or group of 
individuals would do whatever was required to provide enough 
food for their families, even if those actions were against 
their cultural and personal beliefs. All of the criminal and 
anti-government activities done to improve their own food 
security had adverse effects on the overall stability of the 
regions.
    I believe the comprehensive farm policy and integrated farm 
programs established in the United States that ensure adequate 
supplies of food and fiber, available here at a reasonable 
cost, has allowed us to maintain a healthy people and economy. 
The agricultural development work carried out by the National 
Guard taught us a lot of lessons. What we found was that there 
was an important relationship between a comprehensive farm 
policy and the food security, and ultimately the national 
security of a nation.
    I had the privilege to serve in positions that gave me a 
unique perspective of how policy directly affects both food 
security and national security. An important lesson learned was 
that agriculture development was critical to counter insurgency 
in areas where food security was an issue. We learned that in 
order for agriculture development to be successful, it had to 
be carried out in a comprehensive manner, and that every 
program needed local participation and engagement in order to 
be successful. Utilizing the agriculture expertise within the 
National Guard and taking advantage of their unique reach-back 
capability to the land-grant universities in a comprehensive 
approach that was based on key aspects of U.S. farm policy 
demonstrated that food security had a direct positive impact on 
national security. We learned that the success of agriculture 
in other nations' economies was also critical to U.S. security. 
The ability of partners to commit military resources is 
partially dependent on their economic well-being.
    Today, many of the potential hotspot countries are very 
dependent on agriculture as a core element of their economies.
    I discuss in my written statement how Agribusiness 
Development Teams contributed in Afghanistan, but that part 
doesn't get as much notoriety as how the ADTs helped get women 
into the agriculture workforce. That not only contributed 
economically, but added a broad moral contribution to the 
stability of Afghanistan through the further education and 
involvement of Afghan women at a critical time.
    Our work showed us that a comprehensive farm policy that 
emphasized education, research, extension, market 
stabilization, conservation, watershed management, and improved 
land productivity all carried out in conjunction with rural 
development to improve infrastructure, combined with standards 
and regulations to protect consumers really works. It showed us 
that farm policy can positively impact security, as well as the 
overall security of an area.
    Another valuable lesson we learned is that we cannot 
duplicate the tremendous capability and value that our rural 
communities add to the nation. The strength of our communities 
is what makes us special. You can build a national government. 
You can build a national military. You can even write a 
constitution. But without communities of educated and 
experienced leaders, it never comes together as a nation. A 
nation without food security has only one problem, and it will 
destabilize the entire nation, and that impact can be felt on a 
global scale.
    As you think about the future of farm policy, never forget 
that one of the primary purposes should be to ensure the food 
security of the nation and the sustainability of food and fiber 
production for our grandchildren's grandchildren.
    Thank you for letting me speak today, and I look forward to 
answering your questions.
    [The prepared statement of MG Owens follows:]

 Prepared Statement of MG Darren G. Owens, (Ret.), Texas Army National 
 Guard; Chief of the Common Management and Price Support, Texas State 
                         FSA Office, Bryan, TX
The Interrelationship of a Comprehensive Farm Policy to National Food 
        Security and National Security
    Chairman Conaway, Ranking Member Peterson, Members of the 
Committee, staff and guests, it is a pleasure and an honor to be 
invited here today to testify about the interrelationship of a 
comprehensive Farm Policy to National Food Security and National 
Security.
    My name is Darren G. Owens. I was raised in Pecos, Texas and 
graduated from Texas A&M University with a degree in agriculture 
economics. At the same time, I received my commission in the United 
States Army. I served on active duty then returned to Texas where I 
worked for an agribusiness and joined the Texas Army National Guard. I 
then went to work for the Agriculture Stabilization and Conservation 
Service which is now the Farm Service Agency. In the Farm Service 
Agency I was a county Executive Director, a District Director, a 
Program Specialist, and the Chief Program Specialist. I retired from 
the Army National Guard as a Major General after serving in several key 
leadership positions.
    First, I would like to thank the Members of the Committee for what 
you do, not only on behalf of America's farmers and ranchers but for 
each and every American consumer. I firmly believe that America's first 
line of defense is our ability to feed and clothe the people. Without 
American agriculture providing adequate supplies of food and fiber at a 
reasonable cost we would all be dependent on other nations and that 
could place the food security and ultimately the security of the nation 
at risk.
    Food insecurity is caused by either a lack of adequate supplies of 
food or a lack of affordability of food, and can have devastating 
effects. From my experience, I know a man will sell his soul to do 
whatever it takes to feed his family. We do not want to experience that 
in the United States. I believe the comprehensive farm policy and 
integrated farm programs established in the United States have helped 
to ensure adequate supplies of food and fiber at a reasonable cost. 
This has allowed us to maintain a healthy people and economy.
    I want to visit with you today about lessons we learned while doing 
agriculture development in Kosovo and implementing the Army National 
Guard Agribusiness Development Teams in Afghanistan. What we found was 
a profound importance and relationship between a comprehensive farm 
policy and the food security--and ultimately, the national security of 
the United States.
    Before my retirement from the Army National Guard in August of 2011 
I had the privilege to serve in positions that gave me a unique 
perspective of the need for comprehensive farm policy and how it 
directly affected both National Food Security and National Security. In 
2005, I was serving as the Assistant Division Commander for Maneuver of 
the 36th Infantry Division when the Division Headquarters was mobilized 
for service in Kosovo to conduct peace enforcement operations. I was 
selected to command the Multi-National Task Force East composed of U.S. 
National Guard, U.S. Army Reserve, and active component units from 13 
states and Puerto Rico as well as multi-national units from Poland, the 
Ukraine, Armenia, Romania, Greece, and Lithuania. Our area of 
responsibility was predominantly rural and agricultural areas of 
eastern Kosovo that contained a few mid-sized cities.
    We learned a few very valuable lessons about rural areas and 
communities in foreign countries that enabled us to take advantage of 
unity of effort and to accomplish our mission. What we observed was 
that rural areas and communities in Kosovo functioned basically the 
same as rural communities in the United States. The cultures were 
different, the religions were different, but the communities functioned 
basically the same. Agriculture was the dominate industry and source of 
income in these areas, giving us the opportunity to use our civilian 
skills to implement agriculture and rural development projects. We 
found that the same principles of agriculture extension, education, and 
development applied in Kosovo.
    The United Nations (UN) and the NATO-member countries working in 
Kosovo had established a government for Kosovo very similar to those in 
many European nations, with separate ministries responsible for 
agriculture development, rural development, roads, and electricity. All 
ministries had competing goals and objectives with no overarching 
strategy or policy. We also found that multiple aid agencies from the 
U.S., European Union (EU), UN, and numerous NGOs were working in the 
area, most with competing goals and objectives, and once again with no 
overall cooperation or policy.
    Because most of the units assigned to our Task Force were U.S. Army 
National Guard units and based on previous work we had done with other 
nations and our experience in conducting U.S. domestic operations in 
support of civil authorities, we knew the importance and power the 
civilian skills of National Guard Soldiers brought to the mission. So 
we immediately built a database of all the civilian skills we had in 
our units. Once on the ground in Kosovo we began to use the civilian 
skills of our Solders in conjunction with military operations.
    We identified several challenges that in the end impacted what we 
could do with Agriculture. Unemployment in our area was above 50% with 
more than 50% of the population living in poverty and more than 10% 
living in extreme poverty. Most households spent 40% to 50% of their 
annual income on food. More than 50% of the population in our area 
experienced food insecurity part of the year. There were many small 
agriculture producers and a very high dispersion of land tenure. Most 
farms had low productivity and produced poor-quality products. Most 
sustainable food supplies came from imports that appeared to be 
supported by a combination of dumping policies and foreign-based 
competition. Almost all crops produced in our area were immediately 
sold or consumed at harvest due to a combination of a lack of storage 
or a lack of regulation of warehouses with no means to enforce 
contracts between buyers and sellers. The Kosovo Ministry of 
Agriculture lacked a sufficient local extension service program. Many 
of the agriculture production practices used technology from the 1930s 
with some mechanization using old Soviet equipment. There was a general 
lack of knowledge in production, conservation, and marketing practices.
    The effects of the civil war in Kosovo appeared to primarily impact 
rural areas and their populations. The conflict had adverse effects on 
food production and quality, and appeared to be the major driver of 
food insecurity and malnutrition in the rural populations of Eastern 
Kosovo. The lasting result of the conflict was a disruption of food 
production and food systems. The livestock that remained was of 
relative low quality and the combination of high food prices and low 
family income directly limited the access to food for parts of the 
year. The direct food assistance helped those in situational poverty to 
improve their overall situation. However, we found that direct food 
assistance had little impact on improving long-term food security. 
Populations such as the Roma minorities who had experienced 
generational poverty were not able to overcome the cultural pressures 
to redistribute or trade the food aid for the benefit of others, thus 
never allowing an individual or family to improve their situation.
    The lack of an available, sustainable food supply resulted in 
discontent, which then lead to increased criminal and anti-government 
activities to supplement family income in order to afford food. These 
activities included assisting with the smuggling of food and clothing 
products to avoid tariffs, smuggling of weapons and drugs, 
deforestation of hillsides, and facilitating human trafficking through 
Kosovo to Europe. An individual or groups of individuals would do 
whatever was required to provide enough food for their families, even 
if these actions were against their cultural and personal beliefs. All 
of the criminal activities done to improve their own food security had 
adverse effects on the whole community and the overall stability of the 
region.
    We found we could build resilience and improve the stability of our 
area by conducting comprehensive rural development activities that 
directly contributed to our peace enforcement efforts. By working with 
each group interested in providing assistance to rural Kosovo we begin 
to achieve some unity of effort resulting in unified action that began 
to make a difference in food security. As food security improved we 
began to see improved overall security and peace within the region.
    For example, one area in our sector contained many small dairies 
attempting to sell milk locally. Due to the lack of roads, electricity, 
and milk storage facilities, the dairies had no points of distribution 
that encouraged additional production. Their existing production per 
cow was very low and bacteria counts were uncontrollably high. Every 
community in Kosovo wanted improved roads, access to reliable 
electricity, and a market for their products. With no national food 
policy or rural development plan in place for Kosovo at the time, all 
development efforts went to the loudest voice or to projects that 
looked good in the news regardless of the overall impact. By working 
with the Netherlands Mission to Kosovo we were able to identify a 
company interested in building a processing plant for yogurt. This 
would require a location with good road access, reliable electrical 
service, and a steady supply of milk that met the minimum EU safety 
standards. None of these existed in our region.
    With the aid of National Guard Civil Engineers within our units we 
were able to work with multiple Aid Organizations, NGOs, and the Kosovo 
Government to target road access to a central location and a plan for 
construction and installation of critical infrastructure including 
reliable electrical service. The company began construction while 
National Guard Soldiers with agriculture skills began work with the 
local Kosovo version of an extension service and focused on two 
specific areas that would ensure a dependable supply of milk meeting 
sanitary requirements. First, the teams applied the basic concepts of 
extension education and identified key centers of influence and early 
adapters of technology within communities. Through demonstration and 
education they taught ways to improve feed, reduce parasites, improve 
sanitation in order to reduce bacteria levels, and overall increase the 
volume of milk available that would meet the plant's standards. Some of 
this was done without direct aid; instead, using innovative cost-share 
programs that required individual dedication and community 
participation. Second, the teams worked with local groups USAID, Dutch 
NGOs, and the Kosovo Government to build and develop a livestock market 
in which individuals could work together to improve the quality of 
livestock herds through sale, trade, and the use of artificial 
insemination.
    In less than a year, the security and sustainability of food for 
the area was significantly improved by comprehensive agriculture and 
rural development which resulted in the improved security of the 
region. From this lesson we learned that improving food security of 
individuals through agriculture development at the local level reduced 
the willingness of the citizens to participate in criminal or anti-
government activities, and in turn, gradually improved overall security 
of Kosovo. We were able to expand this model across our area of 
responsibility and improve access to food and fiber through coordinated 
agriculture development activities.
    We learned that food insecurity contributed greatly to the 
continued conflict in rural areas where there was no sustained or 
coordinated commitment to agricultural policy, education, research, or 
development by the nations involved in conflict resolution in the 
Balkans and other areas of conflict. We were not thinking of resolving 
food security for the world, but for specific rural areas in conflict 
where U.S. forces were currently deployed. We learned that these areas 
did not need new or innovative science and technology to improve their 
food security. They only lacked a basic, comprehensive farm policy that 
would provide methods and principles that would help ensure a 
sustainable food supply, a stable agriculture market, soil protection 
measures, improved farm income, and adequate supplies of quality foods 
and fibers. It was quickly evident that much of the farm policy that 
the United States has in place since the establishment of the 
Department of Agriculture would also benefit Kosovo and the Balkans. 
Programs with objectives integrated with the national welfare and 
security of Kosovo were needed.
    We realized that the same principles from Kosovo could be applied 
in Afghanistan. Our efforts in Kosovo and the potential they held for 
Afghanistan were recognized by LTG Clyde Vaughn, Director of the Army 
National Guard. In 2007, Secretary of the Army Pete Geren, LTG Vaughn, 
and Mr. Charles Kruse, President of the Missouri Farm Bureau were able 
to engage Senator Kit Bond of Missouri, Member of the Senate Armed 
Services Committee about the Agribusiness Development Team (ADT) 
concept. With the help of these individuals and support from Congress, 
the American Farm Bureau Federation, the University of Missouri, Texas 
A&M University, the Missouri National Guard, and the Texas National 
Guard, the Army National Guard began developing what became the 
Agribusiness Development Teams deployed to Afghanistan. The Governor of 
Missouri volunteered his state to take the lead with the first team and 
Texas followed with the second team.
    According to the DOD and the CIA, Agriculture had been the mainstay 
of Afghanistan's largely subsistence economy for decades. In periods of 
political stability and economic investment prior to the conflict with 
Russia, Afghan agriculture had flourished as a source of valuable 
agricultural products. The agricultural sector employed more than 80% 
of the Afghan workforce but only generated about 35% of the Afghan GDP. 
It was projected at the time that for the next 20 or more years, 
agriculture would remain the most important part of the Afghan economy 
and that agriculture had tremendous potential for growth. The U.S. 
Embassy in Afghanistan told us that Afghanistan was a chronic food-
insecure nation and that significant food imports were required to 
provide adequate supplies of food and fiber. Factors contributing to 
food insecurity included the lack of warehouses for storing 
commodities, regulations for maintaining quality of a commodity, rules 
of arbitration to settle disputes between buyers and sellers, and the 
lack of sanctity of contracts in general. Food that was produced 
suffered much field loss and was sold immediately. The same food that 
was being produced was purchased later in the year as imports at 
extremely high prices.
    These facts and the knowledge we had gained in Kosovo led to the 
concept of utilizing both the civilian skills of Army National Guard 
Soldiers and the unique reach-back capability of local National Guard 
units to state land-grant universities and state level agriculture 
organizations and commodity groups to provide extensive and unified 
agriculture development through the Agribusiness Development Team 
concept.
    Based on the efforts of LTG Vaughn, the National Guard Bureau 
approved deployment of Agribusiness Development Teams (ADTs) in 
Afghanistan. The ADTs consisted of a core group of agricultural 
advisors that actively supported the furtherance of the U.S. 
Agricultural Strategy goals and objectives. The ADTs focused on 
providing extension services to Afghan farmers, building provincial 
level agriculture government capacities to provide comprehensive 
agriculture programs and to effectively utilize funds for agricultural 
projects.
    The Agribusiness Development Teams were designed to conduct 
counterinsurgency and stability operations by building Government of 
the Islamic Republic of Afghanistan (GIRoA) capacity in agriculture and 
sustained agriculture development. This was done in order to facilitate 
the establishment of a safe and secure environment, enhance the rule of 
law, establish sustained economic development, develop sustained 
governance, and foster social well-being.
    Mohammad Asif Rahimi, Afghan Minister of Agriculture, Irrigation, 
and Livestock probably described best why we believed the ADT concept 
would be successful when he said, ``Agriculture is the dominant factor 
in the Afghan economy, in food security, in livelihoods, sustainable 
resources, and national security. Agriculture will determine whether 
Afghanistan will succeed or fail.'' Our previous experiences taught us 
that a profitable and sustainable Agribusiness Sector was an 
operational Center of Gravity (a source of power that provides moral or 
physical strength, freedom of action or will to act) at the provincial 
level. National Guard Soldiers' civilian skills delivered through ADTs 
could provide critical capabilities that were considered crucial 
enablers for the Center of Gravity to function and that were essential 
to the accomplishment of the objective in areas considered non-
permissive for normal development activities. These capabilities were 
agriculture research, agriculture extension, agriculture credit, 
business and marketing development, and agricultural education.
    ADT effectiveness was based on the development of relationships, 
mentoring, continuity, and predictability. The ADTs were unique in 
their ability to deliver agriculture expertise with autonomy and 
freedom of movement on the battlefield in a non-permissive environment. 
The ADTs partnered with the U.S. Department of Agriculture, the U.S. 
Agency for International Development, the Islamic Republic of 
Afghanistan, the Afghan provincial government of each province where 
teams were deployed, with various Afghan colleges and universities, and 
other government and NGOs in the areas to maximize the use of resources 
and ensure unity of effort with all agriculture development work to 
improve food security.
    The ADT mission supported the core goal of the U.S. mission in 
Afghanistan to ``disrupt, dismantle, and eventually defeat al-Qa`ida in 
the region and to prevent its return''. In addition, the ADT mission 
pursued the U.S. strategy of reversing the Taliban's momentum and 
denying it the ability to overthrow the government. The mission would 
strengthen the capacity of the Afghanistan Security Forces and 
government so they could take the lead responsibility for Afghanistan's 
future. I will say that neither the U.S. Agricultural Strategy for 
Afghanistan nor any subsequent document provided any discussion on how 
to execute the strategy.
    The ADTs focused on meeting the goals of a combination of U.S. 
Agriculture Strategy in Afghanistan, Ministry of Agriculture, 
Irrigation and Livestock (MAIL) priorities, and in building the Afghan 
Agriculture Sector. The technical assistance and institutional capacity 
building done by ADTs was focused on GIRoA capacity building and 
sustainable agricultural development at the provincial and district 
level. Transition and institutional sustainability of all ADT 
activities was clearly emphasized. Each activity was nested into USFORA 
and U.S. mission Afghanistan strategy, the teams identified MAIL 
involvement in each ADT program from planning to completion into 
sustainment, and articulated an end state with transition to Afghan 
responsibility.
    ADT commanders sought opportunities for improvement, including 
continually working to clarify the mission: ADTs served both in the 
conduct of stability operations (which included both counter insurgency 
and counter narcotics) and the carrying out of agriculture development 
focused on improving food security in order to improve overall security 
in their area of responsibility. An understanding of the expected 
outcomes needed to be assessed and reaffirmed on a regular basis in 
order to better direct the ADT efforts. The teams focused on functional 
coordination: there were multiple actors and activities with 
significant opportunity for functional coordination which when working 
together multiplied the effects of our ADT efforts; ADT Commanders were 
encouraged to maximize these opportunities.
    The ADTs had two major goals and six objectives to achieve those 
goals, all nested within U.S. Agriculture Strategy for Afghanistan. 
These goals and objectives include the following:

          Goal 1: Increase agriculture sector jobs and income:

                  Obj. 1.1: Establish food security by ensuring 
                adequate supplies of food and fiber.
                  Obj. 1.2: Increase agriculture productivity.
                  Obj. 1.3: Regenerate agribusiness.
                  Obj. 1.4: Rehabilitate watersheds and improve 
                irrigation infrastructure.

          Goal 2: Increase confidence of Afghan's in their government 
        through the MAIL:

                  Obj. 2.1: Increase MAIL capacity to deliver services 
                to rural farmers and herders.
                  Obj. 2.2: Promote the private-sector and farmer 
                associations through the MAIL.

    We accomplished this by establishing specific ADT Lines of 
Operation. These lines of operation came from a review of U.S. farm 
policy that had been implemented over many years. We looked at what 
enabled the U.S. to have a stable and affordable supply of food and 
fiber that maintained a healthy people and economy.
    The following lines of operation were developed and implemented by 
the ADTs:

  1.  Agriculture Extension: Develop and empower provincial and 
            district level GIRoA Director Agriculture Irrigation 
            Livestock (DAILs) and Agriculture Extension Agents (AEA) in 
            order to build capacity of government, connect the people 
            with government, and enhance the MAILs ability to deliver 
            basic agriculture extension services while using projects 
            to reduce corruption and further legitimize the GIRoA.

  2.  Agriculture Economics: Establish food security by ensuring 
            adequate supplies of food and fiber, achieve sustained 
            agriculture economic development, regenerate agribusiness, 
            rehabilitate watersheds, and improve agricultural 
            infrastructure.

  3.  Agriculture Education: Ensure effective and sustainable transfer 
            of technology through the DAIL, AEAs and regional 
            universities as well as ensure continuous long-term 
            improvement in the agriculture sector.

  4.  Agriculture Administration: Increase capacity of Director 
            Agriculture Irrigation Livestock (DAIL) and Agriculture 
            Extension Agents (AEA) to deliver basic agricultural 
            services to increase trust of the people in GIRoA by 
            improved MAIL administrative functions and reduced 
            corruption.

  5.  Information Operations: Integrate Agriculture messaging and 
            programming into Provisional Reconstruction Teams (PRTs) 
            and battle space owner's information operations in order to 
            connect government with the people.

    Each ADT was required to work and conduct actions with Battle Space 
Owners. This focused on carrying out unified actions and assisting all 
groups in the area to coordinate agriculture activities. In addition to 
delivering agriculture expertise, the ADTs assisted the battle space 
owners in preparing the battle space for sustained agriculture 
development by:

  1.  Assisting battle space owners in identifying key districts and 
            prioritizing the need for agriculture assessments.

  2.  Identifying agriculture development requirements and priorities 
            by doing provincial and district agriculture assessments.

  3.  Assessing the staffing of DAIL and AEA positions and prioritize 
            the fill of vacancies.

  4.  Assessing the status of USAID, USDA, USACE, PRT, and NGO 
            agriculture activities within each key district, including 
            the current level of coordination and collaboration.

  5.  Assessing the willingness of and requesting the battle space 
            owner to commit resources to agriculture development (i.e., 
            weather, contracting, legal, engineer, security force, and 
            IT personnel).

  6.  Establishing priorities for and beginning engagement with 
            regional universities and agriculture high schools.

  7.  Establishing priorities for watershed rehabilitation and 
            engineering projects.

  8.  Coordinating agricultural public affairs activities and assess 
            local media resources for delivery of agricultural themes 
            and messages.

    ADT Commanders were directed to use established criteria to set 
conditions in transitioning agriculture related activities to DAILs and 
other civilian personnel as deemed necessary. Scorecards were used to 
constantly measure and demonstrate progress toward meeting U.S. goals, 
objectives and the desired end state. Each ADT did this by measuring 
the following:

  1.  Improved agriculture productivity.

  2.  Increased commercial viability of small and medium farms and 
            agribusinesses.

  3.  Improved stability in insecure areas.

  4.  Improved integrated water management.

  5.  Improved agriculture education.

  6.  Improved GIRoA agriculture research and agriculture extension 
            services.

  7.  Improved MAIL/DAIL/AEA core administrative functions.

    The ADT concept required a comprehensive approach to improving food 
security which resulted in overall improved security in each province. 
ADTs were doing good work; however, their full impact on Afghan 
agriculture and meeting the goals of U.S. Agriculture Strategy required 
the Whole of Government. Deployed and forming teams had to work 
tirelessly to bring essential elements to bear in reaching the desired 
End State. Integrating elements here in the U.S. helped the ADTs 
accomplish much more sustainable results than if they had been working 
individually.
    Each ADTs work with the land-grant university of their state and 
the cooperation of each cooperative extension service was instrumental 
in the training of each team and in the execution of their mission. 
Each land-grant university helped us develop a training model that was 
used for each team and that enabled sustained follow up and support for 
the teams. For example, both the Texas AgriLife Extension and the 
Borlaug Institute of Texas A&M University worked with the Texas ADT 
teams to train for deployment and coordinate activities for development 
in the teams' areas of responsibility. This included adding an 
Afghanistan County to the AgriLife intranet giving the teams the same 
access to agriculture experts as any county extension agent had and 
working together with the Borlaug Institute on range land surveys in 
the ADTs area of operation where the security environment prohibited 
the movement of civilians. The Borlaug Institute worked with the Texas 
ADT to host training for a group of provincial and district extension 
agents here in the U.S. The land-grant universities were great partners 
who all worked together to deliver the best possible products. For 
example, we never fielded a team from New Mexico, yet New Mexico State 
University eagerly worked with the other land-grant universities and 
provided advice and help to the teams on solving irrigation problems 
with canal systems similar to those used in New Mexico. While North 
Dakota did not field a team North Dakota State University assisted in 
training the Minnesota ADT. UC Davis, Purdue University, Washington 
State University, University of Maryland, and Texas A&M carried out 
extension training programs for USAID and worked with the ADTs.
    The ability to meet the ADT goals and objectives would not have 
been possible without the help of our entire United States Agriculture 
community. It is difficult to explain all the assistance provided to 
ADTs from every part of the American agriculture sector and how this 
support enabled the teams to begin the development of comprehensive 
farm policy at the provincial and district level. USDA's Commodity 
Office provided copies of warehouse storage agreements, warehouse 
inspector handbooks, Texas Department of Agriculture provided copies of 
warehouse regulations, Texas Grain and Feed Association provided rules 
of arbitration between buyers and warehouses, and the University of 
Nebraska had the documents translated into Pashto and Dari. Private 
agriculture business firms eagerly contributed advice and equipment to 
the teams. State producer and commodity groups helped the teams with 
recommendations for crops, practices, and solutions for storage and 
handling. For example, the Lamesa Cotton Growers and the AMS Classing 
offices assisted in establishing a system to have Afghan cotton classed 
and graded, the National Grain Sorghum Producers Association connected 
the teams with private seed companies who provided recommended 
varieties of grain sorghum for the altitude and climate of Afghanistan 
that could be used in demonstration plots. I do not know of any group 
that ever turned down a team's request for assistance. The ADTs were 
able to coordinate their activities on the ground with the USDA, USAID, 
Department of State (DOS) and many NGOs.
    I believe the work of the ADTs was effective at denying recruits to 
the insurgency by increasing employment, improving effective public-
sector services in agriculture that increased Afghans' food security by 
improving sustainable and affordable supplies of food, and increasing 
the confidence in and connectedness of the people with their 
government. I also believe that the experience of the ADTs reminds us 
that food security is critical to national security and that the best 
way to ensure food security is to have a comprehensive farm policy that 
ensures adequate, sustainable supplies of food and fiber are available 
at a reasonable cost, now and in the future.
    The ADT mission was in place from March, 2008 to January, 2014. 
There were 52 separate teams totaling 3,025 Army and Air National Guard 
personnel. The teams came from 17 supporting states including: 
Missouri, Texas, Indiana, Kentucky, Nebraska, Kansas, South Carolina, 
Georgia, Oklahoma, Wisconsin, Arkansas, Nevada, Minnesota, Mississippi, 
Illinois, California, and Iowa. The teams deployed into 16 supported 
Provinces in Afghanistan including: Nangarhar, Kunar, Khowst, Paktika, 
Paktya, Laghman, Kapisa, Parwan, Bamyan, Ghazni, Zabul, Kandahar, 
Hilmand, Wardak, Logar, and Panjshir. The teams executed over 700 
projects totaling more than $45 million. It was a dangerous mission 
even though we knew of no ADT team that was attacked while conducting 
an actual ADT mission. However, movement to the field to conduct their 
ADT missions or in support of other missions was dangerous and the 
teams suffered several vehicles destroyed, Soldiers injured, and three 
Soldiers killed in action while providing support. In 2009, the Texas 
team lost two Soldiers: Sergeant Christopher Staats of Fredericksburg, 
a Texas A&M graduate and an environmental scientist, and Sergeant 
Anthony Green, a farmer and specialist in animal husbandry from 
Yorktown, Texas. In 2011, Missouri ADT4 lost one Soldier: Sgt. 1st 
Class Robert Wayne Pharris, of Seymour, Missouri.
    A primary lesson learned from the agriculture development work we 
did in Kosovo and Afghanistan was that agriculture development was 
critical to counter the insurgency in areas where food security was an 
issue. We also learned that in order for agriculture development to be 
successful it had to be carried out in a comprehensive manner. We 
learned that piecemeal large-scale agriculture development resulted in 
failure. For example, the first wheat projects conducted by USAID 
produced the wrong variety of wheat. The teams also learned that large 
projects and unbridled spending contributed to increased corruption and 
cost of materials and labor. The teams also demonstrated that even 
small-scale projects given to individuals or groups can create 
dependence rather than self-reliance. Every project needed local 
participation in order to be sustainable.
    Utilizing ADT expertise with their unique reach-back capability in 
a comprehensive approach based on key aspects of U.S. farm policy 
demonstrated that food security has a directly positive impact on 
national security. The projects emphasized education, research, 
extension, market stabilization, resources conservation, watershed 
management, and improved land productivity. The coordination of rural 
development to improve infrastructure for storage and processing of 
commodities, road networks to facilities, and marketing of commodities, 
combined with standards and regulations to protect consumers showed us 
that farm policy can positively impact food security as well as the 
overall security of an area.
    At the onset of the ADT collaborative process we learned that a 
comprehensive framework for collaboration was needed between the ADTs, 
USAID and other USAID programs, USDA, DOS, International Community (IC) 
agriculture programs, and GIRoA ministries before we started the 
mission. This framework needed to be integrated with agriculture 
programs linked to our national security interest with a top/down/
bottom-up focus. From the beginning, the continuity of effort (or the 
lack of it) was a real struggle. The ADTs followed agriculture 
development programs that appeared to have been a series of 1 year 
development programs rather than one long-term program focused on 
continuity, sustainability, and unity of effort.
    As the ADT mission progressed, the comprehensive framework, 
continuity, sustainability, and unity of effort continued to improve.
    The true success of the ADTs was due to the hard work of the 
National Guard Agribusiness Development Team Coordination Office. This 
team, first lead by Colonel (U.S. Army, Retired) Marty Leppert, a 
Wisconsin National Guard Solider, and then by Colonel Howard Schauer, a 
Nebraska National Guard Soldier, who transferred to the Texas Army 
National Guard after the end of the ADT mission, who is now serving 
with the 36th Infantry Division Headquarters in Afghanistan. They were 
both supported by Chief Warrant Officer (U.S. Army, Retired) Anthony 
Romano. This team was responsible for coordinating with the individual 
state National Guards, the land-grant universities to ensure each team 
was trained, equipped, mobilized, deployed, returned home safely, and 
ensure the continuity and unity ADT efforts. This team and the members 
of each of the ADT missions are true heroes and we are blessed to have 
great Americans like these willing to make a difference.
    The ADT mission showed us it takes a lot of coordination with many 
groups and agencies to improve the food security, and ultimately the 
entire security of a region. The ADT mission provided renewed evidence 
that comprehensive farm policy ensuring adequate supplies of food and 
fiber at a reasonable cost carried out by the Federal Government, the 
individual states, and the land-grant universities working together for 
a common goal can ensure food security and significantly add to the 
national security of the United States. A nation without food security 
has only one problem. That one problem has proven that it will escalate 
into many other problems destabilizing every aspect of an entire 
nation, and that impact can be felt on a global scale.
    Chairman Conaway, Members of the Committee, thank you again for the 
opportunity to share with you today, my experiences and lessons learned 
from my many years of service. There are a few things I would like each 
of you to think about for the future. First, never forget the 
importance of agriculture. The Operations Officer of the first Texas 
ADT said it best, he said ``Agriculture crosses all social, ethnic, and 
religious divides, it truly is an international language.'' This 
reminds us that food security is important to all people. As you think 
about the future of farm policy never forget that one of the primary 
purposes of all programs should be to ensure the food security of the 
nation and the sustainability of food and fiber for our grandchildren's 
grandchildren. Then one last thing, there are times when I watch the 
news and I worry about the future of the United States, but when I 
spend just a few minutes around the individuals serving in our Armed 
Forces or those engaged in American agriculture I am reminded we have a 
solid foundation and that our future is in good hands.

    The Chairman. I thank the gentleman.
    Colonel Ahlness, 5 minutes.

   STATEMENT OF COL ERIC D. AHLNESS, (RET), U.S. ARMY; NORTH 
            AMERICAN LEAD FOR DIVERSITY AND BUSINESS
       IMPACT, CARGILL, INCORPORATED, WHITE BEAR LAKE, MN

    Mr. Ahlness. Chairman Conaway, Congressman Peterson, 
distinguished Members of the House Agriculture Committee, thank 
you for the privilege and honor of sharing my story and 
answering questions today. I especially thank Congressmen 
Peterson, Walz, and Nolan for their stalwart support of the 
Minnesota National Guard over the years.
    In 2008, the National Guard implemented the Agribusiness 
Development Team strategy to engage the largely rural 
population of Afghanistan to increase farmer prosperity and 
ultimately greater security, as villages connected to valued 
government extension services, making a lasting and sustainable 
difference.
    Five years ago, I led an ADT for a year-long deployment to 
Zabul, Afghanistan. Zabul is northeast of Kandahar, and is a 
high desert plateau bisected by the Tarnak River. Zabul is very 
rural, very poor, illiterate, and very traditional. Local 
villages lack access to government agricultural services and 
knowledge of good agricultural practices.
    Our ADT had three main missions. First, was to increase 
farm production and farmer livelihoods. Second, was to build 
government agricultural extension capacity at the provincial 
level; and third, was to improve market access for farmers and 
spur further value chain development.
    To accomplish these missions, we developed an interagency 
approach, worked with U.S. Embassy platform in Kandahar, and 
held regular meetings with the USDA in Kabul.
    The ADT gained the trust and access where others faced 
stoic or armed resistance. Arghandab is a remote rural district 
in Zabul province. The villagers are conservative members of 
the Pashto Tribe. Our military had tried to extend governance 
to this remote area, but locals resisted, not seeing the 
benefit against probable Taliban retribution. However, when 
offered veterinary services and farmer training, the elders of 
the community rapidly accepted the invitation and veterinarians 
and agronomists flew to Arghandab to provide livestock 
inoculations and training to the locals. This mission 
facilitated an opening of doors that were previously closed to 
us and our partners.
    Another very successful program trained widows to operate 
an egg business by providing them five hens, feed, and training 
to run a business which provided them food and income for their 
families. One of our graduates returned to tell us that she had 
62 hens and made $6.75 per day, which is almost $3 more than an 
average day-worker makes in Zabul. This is a prime example that 
a small investment in hens, feed and training creates a 
sustainable, value-based, growth business that is scalable and 
repeatable.
    We also increased farm crop production by using bees to 
pollinate crops more effectively. Numerous efforts to introduce 
European bees failed, as the bees fell prey to wasps, were 
vulnerable to mites, and had a difficult time foraging on the 
local fauna. The hives collapsed as a result. We re-introduced 
Asian bees to the province for non-commercial pollination which 
increased local crop yields. The positive results prompted 
broader use of Asian bees and our partners in the USDA spread 
the technique to other provinces.
    Of special note is the work that was Afghan inspired and 
led, was the development of a provincial chapter of the Afghan 
Chamber of Commerce. This cooperative brought together 270 
traders and business leaders to set business priorities and 
goals for the province. This signaled a successful transition 
from U.S.-led to Afghan-inspired leadership and strengthening 
of the agricultural value chains of the province. This 
initiative supported efforts to reduce post-harvest loss by 
converting excess shipping containers for grain storage in 
remote areas and efforts to create a greater Kandahar trade 
zone where high value goods, such as pomegranates, were 
exported to the Mideast.
    The ADT strategy was a success because it took the approach 
that we can prevent the seeds of conflict, by planting seeds of 
hope and prosperity. It took the ADT at the point of the spear, 
and virtually all my soldiers qualified for combat badges. It 
took interagency partners to array the many aspects of power, 
knowledge and influence, and Afghans willing to risk their 
lives to implement the programs. This collaboration led to an 
outcome where farmers were empowered with knowledge, local 
agricultural extension capabilities were enhanced, and 
infrastructure developed so locals could own a sustainable 
approach to rural development. Our deployment was captured in a 
documentary produced by Minnesota Public Television and the 
link to the video has been submitted as part of my written 
testimony. This documentary of our deployment was aptly named, 
Bridging War and Hope. This is what we did. Thank you.
    [The prepared statement of COL Ahlness follows:]

   Prepared Statement of COL Eric D. Ahlness, (Ret), U.S. Army; North
American Lead for Diversity and Business Impact, Cargill, Incorporated, 
                          White Bear Lake, MN
    Chairman Conaway, Congressman Peterson, and distinguished Members 
of the House Agriculture Committee, thank you for the privilege and 
honor of sharing my story and answering questions today. I especially 
thank Congressm[e]n Peterson and Walz for their stalwart support of the 
Minnesota National Guard over the years.
    In 2008, the National Guard implemented the Agribusiness 
Development Team, or ADT, strategy to engage the largely rural 
population in Afghanistan to increase farmer prosperity and ultimately 
greater security as villages connected to valued government extension 
services make lasting and sustainable difference. Five years ago, I led 
ADT for a year-long deployment to Zabul, Afghanistan. Zabul is 
northeast of Kandahar and is a high desert plateau bisected by the 
Tarnak River. Zabul is very rural, very poor, illiterate, and very 
traditional. Local villages lack access to government agricultural 
services and knowledge of good agricultural practices.
    Our ADT had three main missions--First, was to increase crop 
production and farmer livelihoods. Second, was to build government 
agricultural extension capacity at the provincial level. And, third, 
was to improve market access for farmers and spur further value chain 
development. To accomplish these missions we developed an inter-agency 
approach, worked with the U.S. Embassy platform in Kandahar, and held 
regular meetings with USDA in Kabul.
    The ADT gained the trust and access where others faced stoic or 
armed resistance. Arghandab is a remote, rural district in Zabul 
province. The villagers are conservative members of the Pashto Tribe. 
Our military had tried to extend governance in this remote area but 
locals resisted, not seeing the benefit against probable Taliban 
retributions. However, when offered veterinary services and farmer 
training, the elders of the community rapidly accepted the invitation 
and veterinarians and agronomists flew to Arghandab to provide 
livestock inoculations and training to the locals. This mission 
facilitated an opening of doors that were previously closed to us and 
our partners.
    Another very successful program trained widows to operate an egg 
business by providing them five hens, feed, and training to run a 
business which provided them food and income for their families. One of 
our graduates returned to tell us that she had 62 hens and made $6.75 
per day which is almost $3 more than average day-worker makes in Zabul. 
This is a prime example that a small investment in hens, feed and 
training creates a sustainable, value-based, growth business that is 
scalable and repeatable.
    We also increased crop production by using bees to pollinate crops 
more effectively. Numerous efforts to introduce European bees failed as 
the bees fell prey to wasps, were vulnerable to mites, and had a 
difficult time foraging on the local fauna. The hives collapsed as a 
result. We re-introduced Asian bees in the province for non-commercial 
pollination which increased local crop yields. The positive results 
prompted broader use of Asian bees and our partners in the USDA spread 
the technique to other provinces.
    Of special note is the work that was Afghan inspired and led, was 
the development of a provincial chapter of the Afghan Chamber of 
Commerce. This cooperative brought together 270 traders and business 
leaders to set business priorities and goals for the province. This 
signaled the successful transition from U.S. lead to Afghan inspired 
leadership and strengthening of the agricultural value chains in the 
province. This initiative supported efforts to reduce post-harvest loss 
by converting excess shipping containers for grain storage in remote 
areas and efforts to create a greater Kandahar trade zone where high 
value goods, such as pomegranates, were exported to the Mideast.
    The ADT strategy was a success because it took the approach that we 
can prevent the seeds of conflict, by planting seeds of hope and 
prosperity. It took the ADT at the point of the spear, virtually all my 
soldiers qualified for combat badges, it took inter-agency partners to 
array the many aspects of power, knowledge and influence, and Afghans 
willing to risk their lives to implement the programs. This 
collaboration led to an outcome where farmers were empowered with 
knowledge, local agricultural extension capabilities were enhanced, and 
infrastructure developed so locals could own a sustainable approach to 
rural development. Our deployment was captured in a documentary 
produced by Minnesota Public Television and the link to the video has 
been submitted as part of my written testimony. This documentary of our 
deployment was aptly named, Bridging War and Hope. That is what we did. 
Thank you.
Extended Remarks
Introduction
    Chairman Conaway, Congressman Peterson, and distinguished Members 
of the House Agriculture Committee--Thank you for privilege and honor 
of sharing my story and answering questions today. I especially thank 
Congressm[e]n Peterson and Walz for their stalwart support of the 
Minnesota National Guard over the years. I had the pleasure of working 
with the Minnesota Delegation for more than 5 years as the Government 
Relations Officer for the Minnesota National Guard and was continually 
impressed how the delegation balanced the needs of the country 
alongside the priorities of the state.
Background
    The Reserve Component of the U.S. Military has a unique capability 
that the Active Component is unable to replicate. That is the set of 
civilian skills that reservists develop as a part of their civilian 
career. For example, I had soldiers who were also value chain experts, 
beekeepers, and agronomy experts. The National Guard Bureau recognized 
the critical role that agribusiness skills could contribute to 
increased security in Afghanistan and in 2008 implemented the 
Agribusiness Development Team concept. This is strategic as 80% of the 
Afghan economy is dependent on agriculture and more prosperous farmers 
and villages tend to be less extreme. This is especially true if the 
village has positive connections with the government. The ADT concept 
includes fielding 58 person teams with a core of a dozen agricultural 
experts to serve in sequential year-long deployments over a 5 year 
period within a specific province. The agricultural experts could be 
selected from the Army or Air National Guard or through an intra-
component support process to include members from the U.S. Army 
Reserve. The positions were rank--immaterial as our focus was on 
securing uniformed members that would use their civilian acquired 
expertise to impact the mission.
    The teams initially established relationship with the DAIL, the 
Ministry of Agriculture, Livestock and Irrigation provincial leader, to 
build government capability, and started providing training to local 
villages to increase the prosperity of the farmers. One of the 
provinces selected for this training was Zabul.
    Zabul is northeast of Kandahar and is a high desert plateau with a 
range of mountain to the south on the border with Pakistan and to the 
north with the Hindu Kush range which dominates central Afghanistan. 
The Afghan ring road, the main communications artery of the country 
runs along the Tarnak River which is fed from the snow run-off of the 
Hindu Kush and serves as the irrigation source for the peoples of 
Zabul. Zabul is very rural, very poor, illiterate, and very 
traditional. The population is between 250,000 and 750,000. The high 
school graduating class in 2011 was 255 for the province. My team was 
the third ADT team in the province. The first teams established the 
relationships, provided training to the DAIL and villages; whereas, our 
role was to start transitioning lead to the DAIL and strengthen 
relationships with USDA, DOS, and NGOs as the military mission was 
reduced. The mission was successful and the fourth ADT team closed the 
mission in 2013 recognizing that the provincial capability, civilian 
agency oversight, and NGO partnerships were adequate to maintain 
momentum and success.
Afghanistan: International Security Assistance Force (ISAF)--Provincial 
        Reconstruction Teams (PRTs) 
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        
        
        
          Source: http://www.exploretheworldmaps.com/zabul.html.
Mission Goals
    Our ADT had three main missions--First, was to increase crop 
production increasing prosperity of the farmers, Second was to build 
government training capabilities at the provincial level and we assumed 
a third mission to improve the value chain to help increased crop 
production made it to markets. Our reasoning was that if you increase 
production without a corresponding improvement in the value chain and 
markets the benefit to the producers would be minimal.
[Agribusiness Development Teams in Afghanistan]
[Center for Army Lessons Learned]
[Chapter 2]
[Unity of Effort]
      U.S. Agriculture Assistance Strategy for Afghanistan

          According to the U.S. Department of Agriculture (USDA), the 
        U.S. agriculture strategy for Afghanistan mobilizes support for 
        the Afghan Government, MAIL, and the private-sector to 
        revitalize Afghanistan's agriculture economy and increase 
        income and jobs. Shared objectives of MAIL and the U.S. 
        Government (USDA, U.S. Agency for International Development 
        [USAID], ADTs, and the U.S. Army Corps of Engineers) within the 
        context of national agriculture development framework include 
        the following:

    <bullet> Goal 1: Increase agriculture sector jobs and income.

      <ctr-circle> Increase agriculture productivity by increasing 
            farmers' access to inputs
              and effective extension services.

      <ctr-circle> Invigorate agribusiness by increasing linkages 
            between farmers, markets,
              credit, and trade corridors.

      <ctr-circle> Rehabilitate watersheds and improve irrigation 
            infrastructure.

    <bullet> Goal 2: Increase Afghans' confidence in their government.

      <ctr-circle> Increase MAIL's capacity to deliver services and 
            promote the private-sector
              and farmer associations through direct budget and 
            technical assistance.

      <ctr-circle> Promote Afghan agricultural commodities via 
            intranational and inter-
              national commerce.

    <bullet> Guiding principles:

      <ctr-circle> The Afghan Government leads.

      <ctr-circle> Agriculture assistance will have a strong focus on 
            counterinsurgency objec-
              tives and investment in sustainable agriculture growth 
            throughout Afghani-
              stan.

      <ctr-circle> Government involvement in markets should focus on 
            regulation and ena-
              bling the private-sector.

      <ctr-circle> Projects should be linked to key value chains where 
            possible and to com-
              munities, with technical guidance from provincial 
            agriculture working
              groups.

          Source: Center of Army Lessons Learned, Handbook No. 10-10, 
        dated November 2009, Agribusiness Development Teams in 
        Afghanistan: Tactics, Techniques, and Procedures. http://
        usacac.army.mil/sites/default/files/publications/10-10.pdf.
Agribusiness Development Team (ADT) Engagements
    To accomplish these missions we developed an inter-agency approach 
where we worked closely with the military Provincial Reconstruction 
Team, The Department of State, USAID, and the Department of 
Agriculture. We conducted weekly working group sessions and daily 
coordination to insure our efforts were synchronized, sustainable, and 
as time progressed increasingly Afghan inspired and led. We also worked 
with the Embassy platform in Kandahar and had regular engagements with 
the USDA in Kabul. We moderated our expectations based on what was 
sustainable in a province where the literacy rate was less than 10%, 
life expectancy was 47 years, and the only publicly generated power was 
funded by the U.S. Government for part of the provincial capital of 
Qalat.
    The ADT gained the trust and access where others faced stoic or 
armed resistance. Arghandab is a remote, rural district in Zabul 
province. The villagers are conservative members of the Pashto Tribe. 
Our military had tried to extend governance in this remote area but 
locals resisted, not seeing the benefit against probable Taliban 
retributions. However, when offered veterinary services and farmer 
training, the elders of the community rapidly accepted the invitation 
and veterinarians and agronomists flew to Arghandab to provide 
livestock inoculations and training to the locals. This mission 
facilitated an opening of doors that were previously closed to us and 
our partners.
    This mission was conducted early in our deployment so we served as 
the lead element for the mission with the veterinarian and agricultural 
staff for the Department of Agriculture Irrigation and livestock (DAIL) 
working in support. As became increasing common throughout our 
deployment we partnered with the local military forces to provide the 
majority of the security during the mission. The ADT had the capability 
to conduct independent missions with our organic security platoon (34 
soldiers). However, we found we could conduct more missions and build 
stronger relationships with the locals if we deployed small teams of 
agricultural generalists with a small personal security team in forward 
areas. We then flew our agricultural experts (i.e., vet, beekeeper) to 
the areas when we wanted to provide the capability. This also reduced 
our vulnerability to the most dangerous threat during the first half of 
our deployment--the Improvised Explosive Device (IED).
    The DAIL staff served as the lead team for delivery of training to 
the local villages. The ADT staff observed and used interpreters to 
monitor the sessions and peak with elders and local farmers about the 
issues that they faced in their area so we could better plan future 
engagements and work with the district governor to develop policies and 
deliver services to the locals. The veterinarian team inoculated 
animals that local farmers and nomads brought to the area. We also 
enlisted the aid of the local paravet (a trained individual who 
provided animal care in remote areas) to administer the inoculations. 
The DAIL charged a nominal fee for each shot so to insure the locals 
were personally invested in the effort and gave the proceeds to the 
local paravet to compensate him for his efforts and to avoid an 
unintended consequence that our efforts cause `unemployment' or loss of 
work for the paravet.
    Over time, the DAIL increasingly took the lead in delivery of 
training and providing resources to the farmers for these events. By 
the end of our deployment the DAIL had conducted 17 independent 
agricultural seminars supported by Afghan military and police.
    A very successful program conducted by ADTs and partners involved 
training widows to care for egg laying hens, provide them five hens and 
feed, and encourage them to run a business to provide them food and 
income for their families. One of our graduates returned to a follow on 
training to inform us that she now had 62 hens and made about $6.75 per 
day which is more than average day-worker in Zabul. This is a prime 
example that a small investment in hens, feed and training creates a 
sustainable, value based, growth business that is scalable and 
repeatable.
    We were also very interested in increasing production by using bees 
to pollinate crops more effectively. Numerous efforts to introduce 
European bees failed when implemented on a small scale as the bees were 
prey to wasps, were vulnerable to disease and mites, and had a 
difficult time foraging on the local fauna. The hives often collapsed 
as a result. We re-introduced Asian bees to the province for non-
commercial pollination which increased yield and resisted the other 
threats to the hive. The initial positive results prompted broader use 
of Asian bees. Our partners in the USDA were key in spreading lessons 
learned to other provinces.
    Of special note is the work that was Afghan inspired and led, was 
the development of a provincial chapter of the Afghan Chamber of 
Commerce. This cooperative brought together 270 traders and business 
leaders to serve as a lead in business priorities and goals for the 
province. This Afghan initiative signaled the successful transition 
from U.S. lead to Afghan inspired leadership and strengthening of the 
value chain in the province. It also created a new and positive 
connection between a poor, remote province to the national capital and 
its business community.
    Finally we worked daily with the USDA to increase the capability of 
the Afghan agricultural staff. Training spanned the spectrum of 
agriculture and extended onto cooperative design, budget planning, and 
office productivity. During the year we were in Zabul, we shifted from 
leading agricultural training, to facilitating and enabling training, 
to promoting the efforts of the afghan staff. We partnered especially 
closely with the Department of State in ensuring that funds funneled 
through the central government would be available to the provincial 
staff to insure their ongoing viability and vitality after conclusion 
of the ADT mission. During Ramadan, in recognition of the shortened 
work days, we conducted office productivity training ranging from e-
mail protocols to work group dynamics.
Unclassified
ZADT Mission 010 Veterinarian & Marketing Seminar--Arghandab
    Who: Zabul ADT, DAIL Staff, and Zabul Civil Affairs (CA)
    What: Zabul ADT members in conjunction with DAIL Staff, and Zabul 
    CA conduct Vet Sem., Animal Vaccinations, and Marketing Sem. in the 
    Arghandab District from 28 Nov to 02 Dec. 11.
    Where: Arghandab District
    When: 28 November to 02 December 2011

      Result/BLUF:

    <bullet> DAIL staff trained local villagers on animal disease, 
            vaccination, marketing, and identified a Collection Center 
            site in conjunction with Zabul ADT.

      Summary:

    <bullet> One day each of vet and marketing seminars and 3 days of 
            vaccinations.

    <bullet> DAIL Para Vet trained 71 villagers about animal disease 
            and vaccination benefits.

    <bullet> DAIL Para Vet and Assistant vaccinated approximately 392 
            sheep, goats, and cattle for enterotoxaemia, anthrax, FMD, 
            & de-worming.

    <bullet> DAIL staff conducted marketing and collection center 
            training. Worked with local Key Leaders to identify a 
            potential site for the center.

      Going forward:

    <bullet> Coordinate another trip with DAIL and CA for additional 
            veterinary seminars.

    <bullet> Work with DAIL to station an Extension Agent in Arghandab 
            district.

    <bullet> Coordinate trip with DAIL to further develop collection 
            center and co-op concept.

    <bullet> Coordinate trip with DAIL for agriculture seminar to plant 
            disease and pest control.

    <bullet> Trip scheduled to assess water issues in January 2012.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
 
 
    DAIL Para Vet delivers animal        DAIL staff and local farmer
 disease information to local         vaccinating sheep.
 livestock owners and explains the
 benefit of vaccination.
 

          [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                      

 
 
 
    DAIL Agriculture Specialist          Local farm and orchard.
 providing marketing training to
 local farmers and merchants.
 

Unclassified
Zabul ADT; DAIL Women's Poultry Training Qalat; Zabul Province
DTG for Event 180900JUN12 to 191200JUN12 Zabul ADT MISSION 198
    Who: Akram Nayab (Provincial Management Specialist); Dr. Abrahim 
    (DAIL Livestock Manager), and 25 Afghan poor women
    What: Women's poultry training
    When: 180900JUN12 to 191200JUN12
    Where: DAIL nursery
    Why: Provide poultry training and supplies to widows and women

      Summary:

    <bullet> On the first day of training, Dr. Abrahim instructed 
            participants on poultry diseases and vaccinations. On the 
            second day, he discussed poultry hen rations. Hens and feed 
            were distributed to class participants following the 
            completion of training. Akram Nayab served as the monitor 
            and evaluator for both days.

    <bullet> Twenty-five (25) women participated. Widows and other poor 
            women were selected to be participants. At the end of the 
            training, each trainee received five laying hens and 25 kg 
            of feed. This is the equivalent of 5,300 Afghanis 
            (approximately $110) in value. The women were pleased to 
            receive the hens and feed.

    <bullet> Participants said there are many women in need in Zabul, 
            and that the poultry training provides them a sustainable 
            means to generate food and income for their families. One 
            woman attendee who had participated in a training last 
            year, stated she had received twelve hens and 50 kg of 
            feed. She now has 62 hens and gets 50 to 57 eggs every day. 
            This provides income for her family. By Akram's 
            calculation, the income generated is 321 Afghanis per day 
            (approximately $6.68), which is more than the average wage 
            of a day-worker in Zabul.

      Context:

    <bullet> This is the second poultry training conducted by the DAIL 
            in Qalat this spring/summer. The DAIL is particularly 
            dedicated to providing programming and resources to women 
            of the province. In 2010, the DAIL, with ISAF partners, 
            implemented a garden project at the Qalat Girls High 
            School. The DAIL has also been active in the garden project 
            at the Directorate of Women's Affairs compound.

    <bullet> Program is currently supported by CERP but as the DAIL 
            budget improves the program will shift to on-budget 
            funding.

      Commander's Assessment:

    <bullet> This was a completely DAIL-planned, led and implemented 
            event. The DAIL staff recognize the need to be proactive in 
            planning seminars to reach their intended target audiences. 
            They have successfully planned a number of seminars and 
            have often been using the Qalat DAIL nursery as a seminar 
            location. This allows for seminars for farmers and other 
            constituents from areas without a current extension agent.

    <bullet> Anecdotal evidence suggests providing training and the 
            initial resources of laying hens and feed can provide a 
            sustainable source of food and income for women.

    <bullet> The importance of classes such as is reported here to the 
            residents of Zabul is further evidence of the importance of 
            filling DAIL tashkil positions throughout the province, 
            budgeting, and accessing funds for trainings.
            
            
            
            
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            

 
 
 
    Dr. Abrahim teaches the poultry      A boy helps his mother with her
 class.                               chickens.
 

           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                      

 
 
 
    42S UA 03497 54959.                  A woman prepares to leave
                                      [w]ith her chickens and feed.
 

Unclassified
Zabul ADT; Beekeeping Training; Foladgay, TWJ; Zabul Province
DTG for Event 290900JUN2012 Zabul ADT MISSION 201
    Who: Zabul ADT
    What: Beekeeping training for Asian honeybee demonstration project
    When: 291000JUN12
    Where: Foladgay, Tarnak wa Jaldak District, Zabul Province, 
    Afghanistan
    Why: To enhance agricultural production

      Summary:

    <bullet> Conducted mounted movement to Foladgay.

    <bullet> Provided follow-on beekeeping training on hive 
            inspections, swarm management, pests and diseases, how to 
            move hives, and honey collection.

    <bullet> The villagers stated that the bees were killing the wasps 
            that tried to enter the hives. This pest has destroyed 
            previous bee keeping efforts using the European bee.

    <bullet> Hive inspection found healthy hives actively storing new 
            pollen and honey. No sign of Varroa mite infestation noted.

    <bullet> Queens either spotted or their presence indicated through 
            new larva.

    <bullet> One hive was full of dead bees. The hive was apparently 
            delivered with a dead colony. The cause of the deaths 
            appears to be stress from moving. It will be replaced by a 
            colony from the demonstration farm.

      Context:

    <bullet> Foladgay is the first village to receive colonies of the 
            native Asian honeybee (Apis Cerana). Previous beekeeping 
            projects used the imported European bee (Apis Mellifera).

    <bullet> DAIL extension agent identified the demonstration location 
            but lacked expertise to conduct the training, he is not 
            interested in further development of these skills.

    <bullet> The goal of this project is to demonstrate the 
            sustainability of the native Asian honeybee and restore 
            traditional Afghan beekeeping practices. Previous village-
            level European bee projects in Afghanistan usually fail due 
            to Varroa mites and wasps. The native Asian honeybee has 
            evolved active defenses against local pests.

      Commander's Assessment:

    <bullet> The Asian honeybees are better suited for village level 
            projects than their European counterpart. The European 
            honeybee is better suited for large-scale, commercial, 
            mobile beekeeping operations.

    <bullet> The Asian honeybee is tolerant of local environmental 
            conditions that destroy European colonies without active 
            intervention.

    <bullet> The Asian bee project will increase production and improve 
            quality of key agricultural products in the village such as 
            almonds, pomegranates, and apricots. It will improve food 
            security by increasing garden and forage yields.
           
           
           
           [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            

 
 
 
    ZADT apiculturalist explaining       Learning to use smoker to enter
 brood cell types.                    hive.
 

            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                      

 
 
 
    42R TA 64807 31525.                  European bee (left) Asian bee
                                      (right).
 

Unclassified
Zabul ADT; Zabul Trader's Association; Qalat District; Zabul Province
DTG for Event 291500AUG12 Zabul ADT MISSION 242
    Who: ZADT, USDA (Robert Eaton), Zabul Provincial Advisor (Aziz 
    Jamilzai), Director of the Zabul Trader's Association (Abdul 
    Akbary) and his Deputy Director (Abdul Ali)
    What: KLE with Zabul Trader's Association Leadership
    When: 29 August 2012
    Where: Governor's Compound, Qalat, Zabul Province, Afghanistan
    Why: Determine current status of Zabul Trader's Association 
    application package, and discuss trader's plans

      Summary:

    <bullet> The team met with Abdul Hay Akbary, the Director of the 
            Zabul Trader's Association, who owns a market in Qalat. 
            Also present for the meeting was his deputy director Abdul 
            Ali, who also manages a cooperative in Qalat. Abdul Ali 
            stated that the cooperative has 1,300 members, but that 
            they are uneducated and the cooperative does not receive 
            GIRoA support. Membership investment funds have thus far 
            only been used to trade almonds. Farmers and traders are 
            open to mentoring. Abdul Ali stated, ``we will push the 
            direction if we are shown the way.''

    <bullet> Currently the men, acting as individual traders, work with 
            farmers throughout Zabul province who sometimes transport 
            their farm products to Qalat cooperatively (e.g., farmers 
            from one village jointly hire a transport). There is no 
            plan to begin a farmer's organization in Dey Chopan as has 
            been reported.

    <bullet> Both men expressed an interest in credit access. Abdul Ali 
            said he had creditors interested in investing with him 
            until they discovered that his property (collateral) was 
            owned jointly by multiple brothers.

    <bullet> Both men expressed a very strong desire for cold storage 
            and initiated a discussion on this topic. They stated there 
            are significant price gains within a month of harvest. 
            Roots of Peace was introduced as a potential facilitator to 
            link Zabul traders and owners of existing cold storage 
            facilities in Kandahar. The traders agreed to meet with 
            Roots of Peace and try and set up a visit to cold storage 
            facilities in Kandahar.

      Context:

    <bullet> Sayed Aziz Jamalzal and Mohammad Daoud Popal (Zabul 
            Agricultural Advisor) originated the concept of introducing 
            a trader's association in Zabul province. They worked with 
            GIRoA officials, ZADT, ZPRT, USDA and traders to gauge 
            interest and develop a plan. Association leadership was 
            selected, application materials have been submitted and 
            signed by the Zabul Director of the Economy and currently 
            await a letter of support from the provincial governor. The 
            documents will be submitted by applicants to ACCI (Afghan 
            Chamber of Commerce and Industries). See the storyboards 
            for ZADT missions 102, 107, 115, and 133.

      Commander's Assessment:

    <bullet> The Zabul Trader's Association has a strong team of 
            leaders although they report that individual members do not 
            have a history of working collaboratively. Support and 
            mentorship from the provincial government and ACCI will 
            help them learn the value of working cooperatively and how 
            to do so to gain value in the marketing channel.

    <bullet> Farmers and traders maintain a strong interest in cold 
            storage. Roots of Peace has helped grow cold storage 
            facilities within RC-5. NGO experience and potential 
            support, nearby facilities to visit, and the ability for 
            lessons learned from existing cold storage managers in 
            Kandahar have potential to help direct those in Zabul.
            
            
            
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            

 
 
 
    Robert Eaton and Aziz Jamilzai       Abdul Ali makes a point while
 listen to the director and deputy    Abdul Hay Akbary listens.
 director.
 

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                      

 
 
 
    42SUA0311454151.                     Documents about marketing
                                      channel success in Kandahar
                                      brought for further review.
 

Unclassified
Zabul ADT; Professional E-Mail Writing Workshop; Qalat; Zabul Province
DTG for Event 020900AUG12 Zabul ADT MISSION 230
    Who: ZADT, TF-21 CIMIC, 9 DAIL staff members
    What: Professional E-mail Writing Workshop
    When: 02 August 2012
    Where: DAIL compound, Qalat, Zabul Province, Afghanistan
    Why: To instruct the DAIL staff on effective and professional E-
    mail procedures, format, and functions

      Summary:

    <bullet> A workshop on Professional E-mail writing was conducted 
            with nine DAIL staff members on 02 Aug. 2012 (0900-1100). 
            Major Jonathan Pike was the instructor along with the 
            assistance of an interpreter.

    <bullet> A PowerPoint presentation as well as student handouts, 
            greatly enhanced the learning process. ZADT provided 
            notebooks to organize the training materials, and also 
            supplied pencils and paper for note taking.

    <bullet> Various topics were covered in the workshop, to include: 
            Etiquette, E-mail format, subject, address, greetings, 
            opening sentences, body, closing, and signatures. A 
            discussion on why E-mail is important and how it relates to 
            them as DAIL staff employees were also objectives of the 
            lesson. Practical exercises were given to reinforce the 
            lesson by using blank e-mail worksheets reviewing their new 
            skills.

    <bullet> At the conclusion of the workshop, ADT issued certificates 
            of training to each of the participants. These documents 
            were very much appreciated by the staff

    <bullet> The students were attentive and participated in many of 
            the discussions. Out of the nine students, three had 
            limited E-mail knowledge prior to the class.

      Context:

    <bullet> The Professional E-mail workshop continues to build and 
            scaffold the series of business related topics offered by 
            Zabul ADT.

    <bullet> The intent of the Ramazan courses is to continue positive 
            mentorship of the DAIL staff and provide examples of 
            effective management tools for the future. The classe[s] 
            were requested by DAIL to increase the professionalism of 
            his staff.

      Commander's Assessment:

    <bullet> Professional E-mail writing is essential in any 
            organization. This skill will continue to promote good 
            practices and professionalism among the DAIL staff, 
            developing a sense of pride and job validation.

    <bullet> The end result is the development of a more effective 
            government network and an increased opportunity to provide 
            services to the people of Zabul Province.
            
            
            
            
            
            
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            

 
 
 
    DAIL staff listening intently        ZADT instructor listening to
 and taking notes.                    questions.
 

         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                      

 
 
 
    Zabul DAIL compound.                 Students in discussion about a
                                      plant disease.
 

    The five examples above highlight the 249 agricultural mission 
reports that the Zabul ADT files during the year-long deployment. The 
Zabul ADT completed more than 800 distinct missions outside the gate 
throughout the province, in the Kandahar region and to Kabul. By 
projecting a forward presence, building strong relationships with local 
government, elders, farmers, and business leaders, and implementing 
pragmatic force protection measures, the Zabul ADT was able to excel at 
its mission while setting the conditions to return to the U.S. without 
casualties.
    The Zabul ADT comprised of a command, staff and agricultural 
experts from the Minnesota Army National Guard, a security platoon from 
the Mississippi Army National Guard, and veterinarians from the Army 
Reserve in Missouri and Washington states. We also received a mid-tour 
replacement from the California Army National Guard. The maturity, 
competency and integrity of the individuals allowed us to successfully 
deploy small teams to accomplish the mission. Several examples of 
excellence are:

  <bullet> Sergeant First Class Hunter from the Minnesota National 
        Guard (Value Chain development expert at Cargill, Inc.) lead 
        the effort to turn over control of our southern demonstration 
        farm to Afghan officials while insuring its continued 
        sustainability and viability with local resources. He also 
        supervised the evaluation and mentoring of a new cooperative 
        and served as the NCOIC (NCO In Charge) of our southern team.

  <bullet> Sergeant First Class Banta and Specialist Crutchfield from 
        the Mississippi (Security Platoon Sergeant and designated 
        marksman) lead an immediate response to a `blue on green' 
        (Afghan Army member attack on U.S. service members) which 
        secured our base and eliminated the threat without further loss 
        or injury to U.S. or coalition members.

  <bullet> Master Sergeant Doten from the Minnesota National Guard 
        (Geologist, Hydrologist, Beekeeper) studied and analyzed the 
        soils of the province and determined that the textbooks were 
        incorrect about the formation of the soils in the province. 
        Rather than being composed by the rocks breaking down over 
        millennia he found that the soils were actually blown up from 
        the deserts of Kandahar over tens of thousands of years. This 
        greatly influenced our advice on use of water and crop inputs 
        for farmers. His introduction of Asian bees in Zabul was also a 
        ADT best practice.

  <bullet> Major Wachenheim from the Minnesota National Guard 
        (Agricultural Economics Professor) served as the daily liaison 
        with the Department of Agriculture Irrigation and Livestock, 
        The inter-agency team, and lead our female engagement team 
        effort in the provincial capital.

  <bullet> First Lieutenant Robertson from the Minnesota National Guard 
        (Laboratory Technician) emerged as one of our most effective 
        leaders to engage local Afghan leaders, elders, and farmers. 
        She pioneered the effort to provide agricultural (garden) 
        training to a girls school and lead engagements in two of our 
        most remote and dangerous areas.

  <bullet> The Mississippi Army National Guard Security Force as a 
        whole. The nature of the work demanded that the leadership and 
        agricultural experts meet with and conduct training without 
        their protective gear and focusing on the agricultural message. 
        The security team provided or managed personal, inner security 
        and external security for more than 800 missions. Despite 
        operating in a combat environment, we never had a casualty from 
        enemy action.

    Training for Mission. The following article was written to 
highlight the experiential learning conducted to prepare the ADT for 
its mission in Zabul, Afghanistan. (Source: Prepublication article for 
NACTA Journal)
  Experiential Learning for a Combat Deployment
  Cheryl J. Wachenheim,
  Department of Agribusiness and Applied Economics,
  North Dakota State University Fargo, North Dakota;

  Eric Ahlness,
  North American Diversity and Business Impact Lead,
  Cargill,
  Wayzata, Minnesota.

  Abstract
          Traditional military pre-deployment training for the Zabul 
        Agribusiness Development Team was supplemented with externally-
        led training specific to their assigned agriculture mission. A 
        training plan was developed using Dewey's Experimental Learning 
        Theory. The Team fostered partnerships within academia, with an 
        Amish community and with both a small technology firm and the 
        nation's largest agricultural cooperative to provide this 
        training. Academic training at North Dakota State University 
        included lessons on and hands-on experience with livestock, 
        plants and the associated production considerations such as 
        plant pathology, use of chemicals, soils, and beekeeping. 
        Faculty offering training focused on the environment and 
        agriculture common to Zabul, the province to which the team 
        would deploy. This training was supplemented by regional 
        partners. Viticulture and tree crops, both common in Zabul 
        Province, were covered in training offered by the Agricultural 
        Development for Afghanistan Pre-Deployment Training Program in 
        California where the soil and climate are similar to those 
        found in Southeastern Afghanistan. To help the team adapt to 
        differences in technology, lessons were sourced from an Amish 
        Community and Adaptive Technologies, Inc. Cooperatives training 
        was offered by CHS, Inc.
  Introduction
          The Zabul Agribusiness Development Team (ZADT) of the 
        Minnesota Army National Guard received orders for a 1 year 
        deployment to southeastern Afghanistan. The team consisted of 
        twelve agricultural experts as defined from their education 
        and/or their civilian work experience. They were augmented by a 
        support team of twelve including the commander and his staff, 
        and by a security force from the Mississippi National Guard 
        comprised of thirty-four soldiers. The assigned mission was to 
        mentor the Director of Agriculture, Irrigation and Livestock 
        (DAIL), his staff and extension personnel, cooperative 
        leadership, farmers, and agribusiness entrepreneurs and to 
        otherwise assist the province in growing their agricultural 
        capacity. Irrespective of the combat environment, this 
        mentoring would take place in a region without supporting 
        infrastructure such as adequate roads, electricity, or credit 
        and without technologies commonly used in countries with a 
        developed agriculture to include machinery and equipment, 
        irrigation, improved seed varieties, commercial pesticides, and 
        artificial insemination. Adding to the challenge was that the 
        presence of familial education where agricultural techniques 
        are passed down from generation to generation was reduced by 
        thirty years of war.
          The team was to be deployed to a location with a different 
        history, culture, and especially climate than their home 
        region. While team-members were collectively familiar with a 
        multitude of crops as well as commercial cow/calf, cattle, hog, 
        sheep, and poultry operations, they were unfamiliar with many 
        of the crops grown in Zabul, including pomegranates, almonds, 
        and grapes for raisins. The team also had no experience with 
        livestock breeds common to the region or with technologies 
        currently employed including hand tillage, hand seeding, trench 
        water holding combined with drip irrigation, and hand milking 
        and slaughter. With the resources of the military and team-
        member networks, and under the noted challenges and 
        constraints, the team was directed to leverage all available 
        resources so as to ensure they were mission capable and mission 
        ready. This paper describes the comprehensive education and 
        training plan developed and implemented towards this end 
        following the Dewey Model of Experimental Learning (Dewey, 
        1938) in which the social environment serves as the background 
        within which learning occurs. The plan included training, 
        networking, and building reach-back capability. Key partners 
        included industry, nonprofits, 60 government agencies, and 
        universities.
  Objectives for Training
          Two overarching decisions drove development of the training 
        plan. The first was the scope and depth of training. The 
        question was which of two approaches would be more mission-
        supporting: a broad training approach which would expose team 
        members to the wide array of conditions, products grown, and 
        technologies utilized in Afghan agriculture, or a more narrow 
        training focus that would provide the team and perhaps 
        individual team members in-depth training on specific products, 
        markets and technologies with promise in the region.
          The second decision was to what extent to involve external 
        parties. Generally soldiers are trained for deployment by 
        military personnel or those directly contracted by the military 
        for that purpose. This includes military-designed training for 
        those who will work with local-nationals on development-related 
        projects either because of their Military Occupational 
        Specialty (e.g., combat engineer, civil affairs) or because of 
        their specific mission (e.g., Provincial Reconstruction Teams). 
        There is, however, not a training designed for teams assigned 
        agricultural development, which is an important reason the 
        military sought agriculture expertise based on civilian 
        experience among National Guard soldiers. Expertise has its 
        limits, however, especially given the difference in agriculture 
        between the Midwestern United States and Afghanistan. The 
        leadership therefore concluded the team would need to resource 
        outside expertise; expertise that could greatly leverage the 
        military's training and team members' knowledge and experience. 
        Concerns associated with external involvement in training 
        included creating a dependence on others who may not be 
        accessible when needed or who may not have the on-ground 
        information necessary to make the right recommendation, and the 
        time, expense and social capital involved with recruiting 
        external consultants for one unique mission.
          The leadership decided on a hybrid model that would empower 
        the team with a broad brush of knowledge as well as provide 
        them an understanding of the in-country environment prior to 
        leaving the United States. Military training was supplemented 
        by committed partners willing and able to share their time and 
        expertise both prior to and during the deployment. The intended 
        training outcome was a practical understanding of agriculture 
        in Afghanistan and how additional knowledge, know-how, or 
        technologies could be actively employed and sustained within 
        Zabul Province.
          The plan was comprised of multiple individual training 
        missions conducted outside of and in addition to the required 
        warrior training associated with moving and working in a combat 
        environment.
          Regimented pre-deployment training was provided by the 
        Minnesota National Guard and the U.S. Army, including, but not 
        limited to, individual and group warrior tasks, language and 
        cultural training, and maintenance and operations training for 
        a range of vehicles, weapons and equipment. This paper focuses 
        on the external training designed and implemented by the ZADT 
        leadership specifically for this mission. In planning the 
        training, the key objectives were to obtain:

  <bullet> Exposure to the agriculture and supporting infrastructure in 
            Zabul province;

  <bullet> A developed understanding of the evolutionary path of and 
            constraints facing the same;

  <bullet> Knowledge of tools, machinery and equipment, and physical 
            and operational technologies appropriate for the existing 
            infrastructure;

  <bullet> Experience in developing plans for sustainable agricultural 
            production systems employing these assets in conditions 
            found in Zabul Province; and in educating and training 
            farmers, agribusiness entrepreneurs, and supporting 
            government and non-government organization participants to 
            implement them; and

  <bullet> Access to outside expert assistance throughout the 
            deployment.

  Theoretical Background
          Experiential learning can be broadly defined as a pedagogical 
        process that includes an action by a learner that has 
        consequences (Dellaportas and Hassall, 2013). The ZADT training 
        was designed to focus on experiential learning and, in planning 
        the training, leaders adopted the framework proposed by Dewey 
        (1938). Experiential learning guidance has been refined and 
        expanded since formally being introduced by Dewey in the 1920s 
        and outlined in his book entitled ``Experience and Education'' 
        (Dewey, 1938). Specific contributions by Kolb (1984) and Lave 
        and Wenger (1991) were incorporated into the plan.
          Dewey's work identifies four key learning environment 
        attributes: (1) learning takes place within a social 
        environment; (2) knowledge and content of organization should 
        put students in an environment that allows them to develop 
        social relationships, learn, and solve problems; (3) learning 
        should include a relevant experience that reflects the intended 
        pedagogical objective and should occur in an environment 
        including a well-defined teacher's role and a framework of 
        student learning; and (4) learning outcomes should include 
        reflection and represent that the student is better able to 
        acquire knowledge because of the learning process.
          Kolb's model defines the pedagogical process to include the 
        following four key elements: (1) concrete, personal 
        experiences; (2) reflective observation; (3) abstract 
        conceptualization, wherein students are expected to think 
        logically and make decisions or draw conclusions from the 
        learning process itself; and (4) active experimentation, 
        wherein students are able to apply the concepts learned from 
        one experience to a different experience. Kolb's contribution 
        of explicitly defining the role of active experimentation is 
        important because soldiers would be applying concepts learned 
        during training to a variety of situations in Afghanistan. 
        Situated Learning more explicitly includes the social 
        interaction and collaboration components of Dewey's initial 
        model. In Situated Learning, the social process is a key 
        element of the process of acquiring knowledge in one situation 
        and transferring it to other situations (Dellaportas and 
        Hassall, 2013).
          Situated Learning shares the definitional component and 
        philosophy of other experiential learning models that learning 
        is best when the student is actively engaged in the process, 
        and, although less thoroughly stressed, when students 
        thereafter reflect on the process.
          Added to the framework provided by the aforementioned models 
        of experiential learning was consideration of the unique 
        culture of the military learning environment. Characteristics 
        of military education result from the nature of the military 
        structure and culture and the mission-focus of most military 
        exercises. The special nature of the soldier-student has 
        implications for the relative effectiveness of training (Moon 
        and Schma, 2011). Smucny and Stover (2013) identify the unique 
        characteristics of military learners to be their focus on the 
        mission and an assumption of duty inherently associated with 
        this mission (``mission first''); their comfort with a well-
        defined hierarchy; adherence to discipline; an expectation of 
        hard-work and team-work by all members; and an advanced level 
        of comfort with a high-stress, uncertain environment. We argue 
        that this makes less important the need to make students 
        interested in the learning process as presented by Efstratia 
        (2014) and others. If it is being taught; military members are 
        trained to assume it is important and what they need to know 
        about why or how it is important will be shared if and when 
        dictated by their higher commands.
  The Training
          With the theory of experiential learning at its core, and 
        keeping in mind the unique culture of the military, the 
        supplemental training program for the ZADT was defined. The 
        plan consisted of academic, university-led training; low-
        technology agriculture hands-on learning; cooperatives 
        training; and additional cultural training to augment that 
        provided by the military. Each of the components is discussed 
        in turn including resource needs and how the training 
        contributed to individual training objectives and the overall 
        goal of access to the knowledge, experience and resources 
        necessary to train and mentor the team's Afghan partners.
  University Training and Reach-Back Support
          A week-long training session focused on agriculture of 
        importance in Afghanistan was held at North Dakota State 
        University (NDSU). [A detailed training schedule for this and 
        other training can be obtained from the corresponding author.] 
        The training was led by NDSU professors and extension 
        specialists and included 1 to 4 hour blocks of instruction on 
        alfalfa production, wheat production, vegetable production, 
        soils, water, plant pathology, beef production, animal health, 
        entomology, beekeeping, chemicals and fertilizers, and 
        machinery and equipment. As none of the faculty and staff 
        leading the instruction was an expert in Afghan agriculture, 
        providing this selfless contribution required considerable 
        learning on their part in preparation to teach us.
          Examples of the resulting training included livestock 
        specialists in beef and sheep covering the animal husbandry 
        techniques appropriate for important breeds in Southeast 
        Afghanistan. An alfalfa specialist covered the historical 
        varieties used in the target region of Afghanistan and 
        discussed how thirty years of war had changed this crop (and 
        others, especially perennials). A 4 hour block of instruction 
        on evaluating and working with different soil types, including 
        a 2 hour laboratory, helped put in context the soil-dependent 
        instructions from the plant science experts instructing the 
        team.
          The added advantage from the university training was that the 
        subject matter experts agreed to serve as reach-back resources 
        for the team, and did so. For example, the instructor on 
        beekeeping was able to evaluate and come up with a solution to 
        problems in beehive establishment and in controlling pests 
        (wasps) once the team faced these challenges while in-country. 
        A plant-sciences instructor was able to identify a fungal 
        infection in a vineyard using close-up pictures and a detailed 
        explanation of the environment and the infestation and its 
        evolution.
          Dewey's model and the predicates of the Situated Learning 
        Model stressed the importance of building this social 
        environment. Doing so was a unique challenge for this military 
        unit. While there are a number of extensive operations that 
        involve collaboration with outside entities in planning and 
        mission implementation, and these increasingly and more 
        formally include civilian partners, including external civilian 
        expertise as a pivotal resource for a specialized mission is 
        still unique for military units at the level of the company-
        sized element. In this case, part of the training plan was for 
        the unit to become somewhat dependent on a group of voluntary 
        civilian experts. The experts became part of the soldiers' 
        social environment and remained as such during the deployment 
        period.
          Because North Dakota has little poultry production and no 
        known working camels, NDSU did not have experts in these 
        species. To supplement the NDSU training, the team therefore 
        reached out to others in the region. The Red River Valley Zoo 
        (also in Fargo) provided instruction on camels. And, a large 
        local egg layer provided instruction on poultry care. The added 
        advantage of the latter is that the family also owned a winery 
        and grew a wide variety of grapes, another key crop in 
        Afghanistan.
          As there is also a notable lack of orchard crops such as 
        almonds, walnuts and pomegranates, and of vineyards in the 
        Midwest, the team also participated in an a revised version of 
        the Agriculture Development for Afghanistan Pre-deployment 
        Training (ADAPT) offered by a consortium of universities led by 
        the California State University system, and offered on a 
        regular basis on or near two CSU campuses. ADAPT includes both 
        classroom and field training and demonstration. Details 
        regarding the history, objectives and offerings of the program 
        are presented in Groninger, et al. (2013).
          Briefly, ADAPT is led by field-experienced researchers, 
        extension specialists and those with in-country time, many of 
        whom are available during deployment for technical assistance 
        and advice. The training considers the wide diversity of 
        environments in Afghanistan including heterogeneity created by 
        vast differences in altitude, water availability and kinetic 
        activity. The program goes beyond teaching and demonstrating 
        appropriate agricultural practices to include lessons about 
        interacting with and assisting Afghan farmers and officials 
        such as extension specialists. While the program is designed 
        for 40 hours over 5 days, the team's training requests were 
        specifically designed towards those crops common in the 
        deployment province and for which technical specialists were 
        not available at NDSU. The team asked that the training focus 
        on tree crops and grape production. They spent 3 full days in 
        with subject matter experts. Training included classroom 
        lessons as well as hands-on tours of and experience at regional 
        farms and vineyards and discussions with farmers about the 
        nuances of production, storage, and logistics of specialty 
        crops. Details are shown in Table 1.
  Amish Farms Visit and Support from Compatible Technologies, Inc.
          A second training focus was on agriculture without modern 
        technology; without tractors, combines, sprayers, and the like; 
        something for which team members had no frame of reference. 
        They found such an environment in a local Amish community near 
        Utica, Minnesota. The team spent 3 days with the Amish learning 
        about animal and crop production without modern diesel-powered 
        machinery and equipment, and about generator powered 
        technologies necessary as a means to operate tools and machines 
        without electricity. This training proved invaluable, and it 
        was not just the know-how the team took away. Working with the 
        Amish reminded team members that there remains an incredible 
        innovative spirit among farmers and that there are solutions to 
        nearly every challenge if one is willing to flex their mind a 
        bit. For example, a visit to an Amish harness shop demonstrated 
        that electricity is not required to power an industrial 
        strength sewing machine; a generator will do. This later proved 
        to be an important lesson when the team was faced with a lack 
        of and inconsistent electricity once in-country. Another 
        example was the demonstrated lesson that automatic sprinklers 
        are unnecessary in a greenhouse when elaborate drip irrigation 
        systems with water moving by gravity can be developed using 
        simple plastic piping.
          Some other tricks of the trade were introduced prior to the 
        deployment by another training partner, Compatible Technology 
        International. This nonprofit organization develops 
        technologies for use in developing countries; and other 
        situations without supporting infrastructure. They provided the 
        team with a durable, manually operated hand-grinder and other 
        simple yet very effective technologies. They also reminded the 
        team that technology is not always required. Afghans learn how 
        to sow seed so accurately that the resulting planting 
        populations mimic seeds planted using air seeders.
          Following the experiential learning models, this component of 
        the training program was comprised of ``real-world'' learning 
        exercises where student-soldiers not only would learn by doing, 
        but would be expected to apply the learning to decision-making 
        in other situations. The training specifically included a step 
        that required learners to identify known situations in the 
        Afghanistan agricultural and agribusiness environment, and to 
        apply what was learned during the training to their forthcoming 
        environment. Specifically, learners developed plans on how to 
        improve production efficiency in an environment with a low 
        level of technology adoption and little infrastructure. 
        Finally, including the Amish and Compatible Technology 
        International further expanded the community of partners (i.e., 
        the social environment).
  Cooperative Training
          The final component of the agriculture and agribusiness 
        training was on the role of cooperatives. Cooperatives were 
        present only in name in Zabul province, but they had 
        considerable potential. CHS, Inc. graciously provided the ZADT 
        with 3 days of education and practical exercises on the 
        structure and operation of cooperatives, including lessons in 
        strategy development and program implementation. This uniquely 
        designed training was held at their corporate headquarters in 
        Inver Grove Heights, Minnesota. CHS brought in a team including 
        members who had worked on agricultural development in 
        Afghanistan and those who had spent time in Afghanistan working 
        with local entrepreneurs. The focus was on developing a plan 
        for cooperative development, securing and utilizing resources, 
        and implementing a plan for continual assessment. The training 
        content followed closely training objectives, provided here. 
        Training objectives were that the team:

  <bullet> Learn the structure, function, services offered and history 
            of agricultural cooperatives with a focus on application to 
            Zabul Province and other Pashtun regions of Afghanistan.

  <bullet> Become familiar with the unique governance of western 
            cooperatives, and the roles and responsibilities of members 
            and the Board of Directors and be able to compare and 
            contrast such with the formation and operation of 
            cooperatives in developing countries.

  <bullet> Become familiar with community development in Afghanistan 
            including the interface between civilian agencies and the 
            military.

  <bullet> Understand the legal environment in Afghanistan, cooperative 
            law and corporate law and how one can influence legislative 
            change.

  <bullet> Learn from examples of cooperatives in the Developing World 
            including those in Armenia, Niger, Afghanistan, Central and 
            Eastern Europe, Russia, and Mongolia.

  <bullet> Gain an understanding of Afghan cooperatives and cultural/
            environmental issues.

  <bullet> Be able to advise Afghan entrepreneurs on starting 
            cooperatives or revising their existing cooperative 
            structures.

  <bullet> Understand and be able to identify means to overcome 
            challenges associated with starting agricultural 
            cooperatives in Afghanistan.

  <bullet> Embrace the role as a technical advisor including defining 
            responsibilities in development and gaining producer buy-
            in.

  <bullet> Know where to find information while on assignment including 
            Cooperative Education Resources, E-Extension demonstration, 
            and Cooperative Network.

  <bullet> Develop relationships with the training experts to 
            facilitate reach-back efforts during deployment.
  Cultural Training Supplemental to U.S. Army Training
          Finally, the team supplemented the army's language and 
        cultural training with additional training focused on the 
        Pashtun region taught by Afghan-nationals. These individuals 
        shared a traditional Afghan meal with the team; using 
        experiential learning to make sure student-soldiers had a solid 
        grasp on the cultural nuances. The team spent this time with a 
        former Afghan Minister of Agriculture and his family. He was 
        able to evaluate the agricultural training and provide an 
        assessment of the development plans created during the 
        training. As with the other partners, he stayed in regular 
        contact with the team during the deployment, providing a 
        sounding board and adding advice and interpretation as the 
        mission evolved. Again, the learning objectives well articulate 
        the training content. The learning objectives were to:

  <bullet> Improve the team's understanding of Afghanistan and its 
            people including the various ethnic groups and the nomadic 
            population.

  <bullet> Develop an acute understanding of the Pashtun people 
            including the role of the village, the extended family, 
            tribal structure, and Code of Conduct (Pashtunwali), 
            dispute reconciliation, and the role of women.

  <bullet> Expand the team's knowledge of Afghanistan's geo-strategic 
            importance as well as its history, culture and ethnic make-
            up.

  <bullet> Increase understanding of the social, economic, political 
            institutions, and laws in present-day Afghanistan.

  <bullet> Assist to build awareness, knowledge and understanding of 
            critical situations resulting from communicating and 
            interacting with Pashtun Farmers.

  <bullet> Enable team members to observe, understand, and participate 
            in personal, cultural and situational behaviors including, 
            cooking and eating, dress, holidays, religion, education, 
            and health care.

  <bullet> Upgrade knowledge about how to manage across cultures, how 
            to observe and act in particular cross-cultural situations, 
            and how to prevent cross-cultural conflicts while working 
            in various rural Afghan communities.

  <bullet> Understand cultural dilemma and barriers and identify steps 
            to break down barriers including recognizing communication 
            norms in a tribal society.

  <bullet> Be familiar with the rural economy in Zabul including the 
            agricultural processing industry.
  Role of Partnerships
          Much of the training developed was built or otherwise 
        supported by partners from outside of the Department of 
        Defense; partners not generally compensated financially for 
        their contribution. As defined by Dewey (1938) and others, 
        explicitly recognizing the role of partners and the social 
        environment defining the relationship with them and others is 
        an important component of a successful learning environment. 
        The team asked a lot of their partners and they exceeded even 
        the team's lofty expectations.
          One of the important contributions of this paper is its 
        presentation of a successful attempt to leverage limited 
        resources. The team found the most successful strategy to 
        compel partners to provide their time, knowledge, experience 
        and resources and to maintain their support throughout the 
        deployment to be appealing to the value of their contribution. 
        Given that it was a military mission, it was natural to appeal 
        to their patriotism; many individuals and firms want to help 
        serve even if they cannot be directly involved on the ground 
        and in-country. Team leadership and members spent considerable 
        time and effort articulating to their partners the value they 
        brought to the mission and to the lives, not just of the 
        involved soldiers, but of the farmers of Afghanistan. Putting a 
        face on the people that would benefit was effective. While they 
        could and did put a face on the individual soldiers, it was 
        more challenging to personify those Afghans with whom they 
        would work closely. One common marketing strategy employed by 
        charitable organizations operating throughout the world is to 
        allow donors to adopt individual children, animals and even 
        villages. A simple Internet search provides an overwhelming 
        number of such opportunities. However, the team was not looking 
        for individual sponsors or even monetary contributions; they 
        were rather searching for partnerships in knowledge. Because of 
        the specificity of need: training and reach-back technical 
        assistance, it was natural for the team to appeal to their 
        partners by being transparent in the belief that few could 
        match their ability to help the team help Afghans; to let them 
        know that the team sought them out because they placed great 
        value on their expertise. All the partners stepped forward as 
        citizens of the world.
  Discussion
          The components of Dewey's Experiential Learning Model were 
        adopted during planning and implementation of training for the 
        Agribusiness Development Team mission. First, the roles of the 
        unit leaders, soldiers, and civilian partners were carefully 
        and precisely defined. Specifically, the hierarchically defined 
        structure of the unit was challenged and revised so that the 
        student-soldier accepted more responsibility for their own 
        learning and the learning of their peers. The unit also worked 
        to foster partnerships and other relationships.
          Second, the knowledge and content organization of the 
        learning was specifically designed to put students in a real-
        life environment where they could learn and to try out ideas 
        generated during that learning process. For example, the plan 
        designed for students to learn the process, use, and 
        application of soil assessment included multiple steps. 
        Students were first asked to identify soil-related challenges 
        they would encounter in Afghanistan. They then worked to 
        identify solutions to overcome these challenges. The design of 
        these learning exercises also helped the team build 
        relationships with one-another, their reach-back team and 
        others comprising the social environment.
          Third, was the actual application of experiential learning. 
        This was an adaptation of the mission training and preparation 
        style used by the military and informally termed ``crawl, walk, 
        run''. In this model, the basic design of a mission is planned 
        and described without much participation by the learners 
        (crawl). It is akin to the lecture style of teaching, and 
        generally includes a diagram or model elements involved in the 
        mission to demonstrate the plan (e.g., rocks used to represent 
        vehicles). The second phase involves a trial run of the mission 
        so actively engaged learners can practice and the leadership 
        becomes aware of what works and what may not work (walk). 
        Finally, the mission is implemented. One of the most notable 
        learning-by-doing experiences focused on how to conduct a Shura 
        (meeting) with village elders through an interpreter. The 
        exercise resulted in students not just ``practicing'' applying 
        the techniques they had previously learned, but itself resulted 
        in a set of sequential practice exercises to help the learner 
        define the situation (e.g., importance of meeting participants 
        in the village; dynamic between participants; need for an 
        interpreter), identify the appropriate strategies to conduct 
        the Shura according to the encountered situation; and complete 
        a reflective exercise that was then used by follow-on teams and 
        in subsequent hypothetical Shuras conducted by the student 
        teams.
          The final principal in Dewey's model is reflection. It is 
        doctrinal in the military that, after a mission, whether it is 
        an all-day movement across rough terrain to engage the enemy or 
        a 2 hour class on risk analysis, learners, teachers, and any 
        other participants or observers conduct an After Action Review 
        (AAR). This group form of reflection consists of restating the 
        mission; identifying what went right and what could use 
        improvement; and specifying alternatives for any follow-on 
        missions. These are later filed for consideration by others who 
        will conduct a like mission or compiled with AARs from other 
        missions and units so as to become ``lessons learned''. In the 
        case of the ZADT training, the use of experiential learning 
        theory moved an AAR from ``how did it go and how might it be 
        improved?'' to ``what did we learn from this activity and how 
        can we apply this learning as we plan for and implement 
        missions in Afghanistan?''
  Summary and Conclusions
          Traditional military pre-deployment training for the ZADT was 
        supplemented through external to Department of Defense 
        partnerships offering training specific to the team's 
        agribusiness development mission. Training was offered through 
        academic partnerships including broad training by staff and 
        faculty at NDSU on agriculture common in Zabul and supplemented 
        by regional partners to cover animal agriculture not specific 
        to North Dakota. Viniculture and tree crops, common in Zabul, 
        were covered in training offered by the ADAPT program. Training 
        and experience adapting to low-technology agriculture was 
        received through visits to Amish farms and the support of 
        Adaptive Technologies International. Finally, training was 
        offered by CHS and their partners on the cooperative structure, 
        including intensive and hands-on application in developing 
        countries where the cooperative concept is new and the benefits 
        are not yet fully realized. CHS employees and partners shared 
        their Afghan-specific experiences within the context of how the 
        ZADT might help Afghan farmers and officials grow cooperatives 
        to overcome challenges with lack of infrastructure.
          The training proved invaluable. The team went on to complete 
        over 800 missions, many joint with the International Security 
        Assistance Force and Afghan military partners as well as with 
        leadership and staff of the Directorate of Agriculture, 
        Irrigation and Livestock and other ministry entities and with 
        cooperative leaders. There were successes including the 
        development of a province-level trading organization and the 
        building of a community slaughterhouse as a public-private 
        partnership, introduction of bee hives as a means to increase 
        yields, repair and redesign of irrigation systems, and 
        introduction of value-added activities such as drying fruit 
        crops and de-shelling nuts. The team worked with local 
        entrepreneurs on projects such as yogurt production from goat 
        milk and an egg hatching facility. And, they worked with 
        farmers who adopted low-technology practices to improve their 
        productive efficiency.
          The ZADT agricultural experts were split among Kandahar 
        Airfield, five forward operating bases, and a combat outpost. 
        Three of the forward operating bases were adjacent to 
        demonstration farms set up in partnership with the DAIL. The 
        team met weekly by secure Internet connection to discuss 
        progress, identify challenges, and share successes and ideas. 
        Team members also had and used reach-back capability, 
        consulting with stateside experts on everything from tree fungi 
        to killing wasps that were depopulating bee hives. They 
        efficiently exploited the social environment they had 
        established during the training period.
          Aside from the logistical and security needs due to the 
        combat environment, one of the most pervasive challenges was 
        reluctance among Afghan farmers to make changes in what they 
        raise or how they raise it including livestock, crops, vines, 
        or orchards. Myths had been passed down through hundreds of 
        years that may have at one time in one environment been valid 
        such as not to water trees or plants when they are flowering. 
        Many of their ways of farming were solidly ingrained and used 
        even when they were no longer well adapted to current 
        conditions. For example, farmers continued to use trench 
        irrigation even after irrigation system improvements provided a 
        consistent water source for their gardens. The team also 
        quickly learned that when farmers are raising a subsistence 
        level of food, regardless of the potential of a new and simple 
        to resource and use technology, the known system in place 
        easily trumps the risk associated with change. The cost of 
        failure is very high in a subsistence environment. Finally, 
        most farmers had not been formally educated. So, while the team 
        expected it to work reasonably well to explain in considerable 
        detail how adopting certain production practices would increase 
        yield, their inexperience at formal learning made this method 
        less than effective. If the team could not convince them to try 
        a practice while still in-country, there wasn't much promise 
        for their ability to sustain it once we left.
          Key lessons from planning, implementing and assessing the 
        result of this training plan extended beyond what worked to 
        increase the technical expertise of the team. Experiential 
        learning served as an unmatched method to teach and observe the 
        effectiveness of the lesson when there is a short window for 
        learning. This was true as the team learned from their experts 
        and as they taught their Afghan partners. From the training, 
        the team also learned that there are plenty of ways to gain 
        knowledge and experience if you think creatively. The process 
        reinforced the belief that including partners provides multiple 
        benefits including leveraging expertise and knowledge and 
        gaining additional resources, including those not previously 
        considered. That is, that the social environment that exists 
        during the learning phase can be extraordinarily important when 
        the knowledge and experience is later put to test. Obtaining 
        buy-in to the project among the trainers and therefore their 
        willingness to support the ZADT through the training and while 
        deployed involved selling them on the idea that they can help 
        the team, and its individual members, like no one else can and 
        otherwise emphasizing the importance of their participation to 
        the mission. The team quickly realized that the concept that 
        success has to be a team effort extended beyond the unit, and 
        found it not only important, but natural to regularly 
        acknowledge their contributions, not only immediately following 
        the training, but during and especially after they witnessed 
        achievements brought about in part due to their direct 
        involvement. That is, the social environment existing during 
        the training needs to be fostered to be retained.
          While this project was unique to training and support meant 
        to augment that provided by the Department of Defense, the 
        planning and implementation process reinforced the reality that 
        external partners not only have an incredible level of 
        expertise and experience to share, but that they generally want 
        to do so; all it takes is a simple request. And, this 
        reinforcement has paid dividends in the college classroom. A 
        member of the ZADT brought back her experiences in leveraging 
        external partnerships to bring her existing partnerships with 
        industry to a whole new level at NDSU. She redesigned her sales 
        class so as to include repeated, direct, and meaningful 
        interaction between students and professionals; professionals 
        who will actively and with true compassion mentor students 
        through the application of lecture- and book-learned tools and 
        skills, and who are willing to serve as a life-long resource.
  Literature Cited
          Bower, Glenna. 2014. Theory and Practice: Utilizing Dewey's 
        Experiential Learning Theory to Implement a 5k Road Race. 
        Journal of Hospitality, Leisure, Sport and Tourism Education 
        495 15: 61-67.
          Dellaportas, Steven and Trevor Hassall. 2013. Experiential 
        Learning in Accounting Education: A Prison visit. The British 
        Accounting Review 45: 24-36.
          Efstratia, Douladeli. 2014. Experiential Learning Through 
        Project Based Learning. Procedia--Social and Behavioral 
        Sciences 152: 1256-1260.
          Groninger, John, Charles Ruffner, Ryan Brewster and Paul 
        Sommers. 2013. ADAPT: Training for Agriculture's Seminal Role 
        in Stability Operations for Afghanistan and Beyond. Small Wars 
        Journal 9(8).
          Lave, Jean and Etienne Wenger. 1991. Situated Learning. 
        Legitimate Peripheral Participation, Cambridge: University of 
        Cambridge Press.
          Moon, Tracey and Geraldine Schma. 2011. A Proactive Approach 
        to Serving Military and Veteran Students. New Directions for 
        Higher Education, no. 153. Wiley periodicals, Inc.

Table 1. Zabul Agribusiness Development Team Training with ADAPT Program
                                Personnel
------------------------------------------------------------------------
        Day                  Location                   Training
------------------------------------------------------------------------
1                    Rominger Farms,           Almond orchard
                      Arbuckle, California      development and
                                                maintenance, low-volume
                                                irrigation, and basics
                                                of supporting soil
2, a.m.              UC Davis campus           e-Afghanz; soil
                                                properties and grapes;
                                                structure and function
                                                of roots; and grapevine
                                                training and pruning
2, p.m.              UC Davis vineyard, El     Training and pruning,
                      Dorado County,            head, vertical cordon,
                      California                cane, application to
                                                Afghanistan
3, a.m.              CSU Fresno                Viticulture and Enology:
                                                the grapevine and
                                                cultivar, vineyard
                                                establishment, and
                                                cultural practices and
                                                harvest
3, p.m.              CSU vineyard              Field observation and
                                                pruning, raisin
                                                processing
------------------------------------------------------------------------

  The Use of Asian Honeybees for Sustainable Apiculture in Afghanistan
Zabul ADT, MSG James Doten, July 10, 2012 



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Editor's note: The submitted document by COL Ahlness did not 
        contain the referenced graphics. The graphics herein are from 
        the UC Davis article.*
---------------------------------------------------------------------------
    * The article is available at: http://afghanag.ucdavis.edu/
c_livestock/bees/Rep_Bees_Apis_Cerana_in_Afghanistan_James_Doten.pdf.
---------------------------------------------------------------------------
  Background
          The use of honeybees in agriculture (apiculture) is a well-
        known technique to improve crop production. In Zabul Province 
        the main agricultural products are almonds, pomegranates, and 
        grapes. Farmers also grow significant quantities of apricots 
        and figs. Pollination is critical for crops such as almonds 
        which require cross-pollination. Natural pollinators exist but 
        successful apiculture can result in a 40% increase in almond 
        yield. Apiculture also significantly increases yields for 
        pomegranates, apricots, and figs. Grapes are self-pollinating 
        and do not benefit from apiculture.
          In addition to increased yield, the quality of the product 
        will improve as a result of fully pollinating the flower. An 
        apple requires up to five trips before becoming fully 
        fertilized. Bees are efficient pollinators because of their 
        behavior, known as foraging consistency, in only working one 
        plant species per trip. A bee will visit hundreds of flowers 
        each trip, each bee makes about ten trips a day. If placed near 
        an orchard the bees will consistently pollinate the orchard 
        during its specific bloom. Growers in the United States take 
        advantage of this behavior by moving hives into an orchard near 
        bloom season. As long as the food source is near the bees will 
        pollinate only the desired plants in the orchard. The bees are 
        then moved to another location to match different bloom times.
          Apiculture in the United States uses the European honeybee 
        (Apis Mellifera). This species is suited for moving across the 
        country and is known for its prolific honey production. Hobby 
        beekeepers maintain small stationary apiaries (where bees and 
        hives are kept) containing the European honeybee. The equipment 
        and practices have been standardized in both commercial and 
        hobby beekeeping.
  Problem Statement
          Attempts to introduce small-scale beekeeping for rural 
        development in Afghanistan have failed. Environmental threats 
        destroyed previous projects using the imported European 
        honeybee. Using the native Asian honeybee (Apis Cerana) shows 
        promise in developing sustainable apiculture by restoring 
        traditional Afghan beekeeping techniques.
  Threats
  Colony Collapse Disorder
          Within the past 10 years beekeeping in the United States has 
        been threatened by colony collapse disorder (CCD) and Varroa 
        mite infestation (Figure 1). CCD has been associated with 
        commercial beekeeping and resulting tendency to concentrate 
        colonies from across the country in one location. It has not 
        impacted isolated apiaries of the hobby beekeeper. One of the 
        theories behind CCD affecting commercial operations is their 
        use of high-fructose corn syrup and an associated pesticide 
        found in the syrup. Hobby beekeepers do not use the corn syrup 
        and thus did not experience CCD to a significant degree.
  Varroa Mite
          Varroa mites plague bee colonies and can devastate a colony 
        within months. The mite attacks both adult bees and developing 
        larvae. After feeding on the pupa during development, the 
        emergent bee is infested with as many as six new mites, 
        starting the cycle over. The Varroa mite problem is growing.
          First encountered in Florida in the late 1980's the 
        infestation soon spread. The Varroa mite is the greatest threat 
        to apiculture using Apis Mellifera (European). It weakens the 
        bee and also carries the deformed wing virus (DWV). With the 
        mites present, the virus concentrations increase a million-
        fold. The Varroa mite is devastating to European honeybee 
        colonies. The mite wiped out all feral European honeybee 
        colonies in the United States. Since the emergence of the mite 
        problem in the United States, beekeeping as a hobby has been 
        reduced by 50%.
          The mite infestation requires active intervention to prevent 
        a colony from being destroyed within months. In the United 
        States, efforts are being directed towards developing a strain 
        of bees that exhibit hygienic behavior in removing infected 
        pupae from the hive. These varieties are not well distributed 
        and are unavailable in Afghanistan. Miticides can control 
        infestation, but these are not a cure and are not available to 
        small scale beekeepers in Afghanistan. Essential oils can also 
        reduce infestation levels but are not available to farmers in 
        Afghanistan. The Varroa mite is native to Afghanistan; its 
        presence makes it hard to develop sustainable small-scale 
        apiculture projects.
  [Figure 1. Mite Infested Bee]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Previous attempts to develop apiculture in Afghanistan 
        followed the U.S. model. Imported European honeybee colonies 
        were used to start small-scale operations that emulate hobbyist 
        beekeeping in the United States. If infected, the Varroa mite 
        will destroy these hives within months of infestation.
          The Varroa mite is native to Afghanistan. It is a pest to its 
        natural host, the Asian honeybee, Apis Cerana (Figure 2). Apis 
        Cerana is one of four honeybee species native to Afghanistan, 
        but the only one capable of being kept in hives. The Asian 
        honeybee coevolved with Varroa mite and developed a grooming 
        behavior that reduces it from a threat to a nuisance. The Asian 
        honeybee lifecycle, when compared to European honeybee, also 
        does not allow as many mites to develop in the egg-laying stage 
        during pupation.
  [Figure 2. Apis Mellifera (left) and Apis Cerana (right)]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Wasps
          Another threat to European honeybee projects in Afghanistan 
        is the presence of large wasps (hornets) native to the region. 
        The wasps (Figure 3) overwhelm the bees' defenses, kill the 
        bees defending the hive, and then steal the larvae and honey. 
        When attacking, the wasps can destroy a European honeybee 
        colony within 4 hours.
          Previous U.S. Army European honeybee projects in Zabul were 
        destroyed by wasps before the Varroa mite could have an effect. 
        Interviews with local farmers show that the wasps are prevalent 
        throughout the province. ZADT developed local wasp traps, but 
        they are not 100% effective in preventing hive loss from wasp 
        predation. The wasps are aggressive and make it difficult for 
        farmers to work in their orchards.
[Figure 3. Wasp]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          The wasp is a natural predator of the bees. The imported 
        European honeybee does not have defense against the wasp. They 
        attempt to sting the intruder; however, their stinger cannot 
        penetrate the thick skin of the wasp. The Department of 
        Agriculture, Irrigation, and Livestock (DAIL) employees 
        reported the wasps destroyed their European honeybee colonies 
        soon after starting the project. None of the DAIL apiculture 
        projects using European honeybee lasted more than 3 months. The 
        native Asian honeybee coevolved with the wasp and has developed 
        an effective defense despite being \1/3\ smaller than European 
        honeybee. The Asian honeybee surrounds the wasp in a ball with 
        100 to 150 bees. The bees beat their wings to increase the 
        temperature inside the cluster in a defense known as thermal-
        balling (Figure 4). The temperature is raised above a lethal 
        level for the wasp but below that of the Asian honeybee. The 
        wasp will kill solitary foragers of the Asian honeybee without 
        triggering the defense mechanism. However, when the wasp tries 
        to enter the hive, the Asian honeybee actively defends the 
        entrance. Villagers with colonies of the Asian honeybee 
        reported the bees successfully defeated wasp attacks. ZADT 
        members witnessed this defense at a demonstration project.
  [Figure 4. Thermal-balling]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          The Asian honeybee has coexisted with these wasps throughout 
        its territory. The Japanese are actively restoring their 
        traditional beekeeping traditions using Apis Cerana in Japan. 
        Part of the reason for switching from the European honeybee is 
        the large Japanese hornet. Japanese scientists studied the 
        thermal-ball defense and were the ones to discover how it 
        works. In Japan the Asian honeybee honey commands a price four 
        times as high as the European honeybee honey. Sustainable 
        apiculture using the Asian honeybee is wide-spread throughout 
        southern and southeastern Asia.
  Comparison
          Table 1 summarizes The International Centre for Integrated 
        Mountain Development's (ICIMOD) comparative study for small-
        scale rural apiculture development projects.

            Table 1. ICIMOD Apis Cerana versus Apis Mellifera
------------------------------------------------------------------------
                                                      Apis Mellifera
        Parameter          Apis Cerana (Asian)          (European)
------------------------------------------------------------------------
Initial investment        Very low               High
Colony management costs   Negligible             High
Risk involved             Low                    High
Potential for stationary  Suitable               Not suitable
 beekeeping
Susceptible to mites and  Resistant              Susceptible
 predators
Eco-services              High                   Low
------------------------------------------------------------------------

          The University of California--Davis (UC-Davis) developed an 
        economic analysis of honeybee business in Afghanistan. The 
        results of the UC-Davis study found that stationary beekeeping 
        with the Asian honeybee is profitable even at small scales. 
        They found it well-suited for small stationary beekeeping 
        projects. They also concluded that the European honeybee 
        requires at least 100 colonies before it is economical. In 
        addition, the UC-Davis study found that the European honeybee 
        was well suited for migratory beekeeping. It tolerates movement 
        around the province to follow key crop blooms.
          Once established, the Asian honeybee does not tolerate moving 
        the hive. The Asian honeybee is only for stationary beekeeping. 
        Studies show the Asian honeybee is a more efficient pollinator 
        than the European honeybee. Crop yields are higher using the 
        Asian honeybee. The Asian honeybee operates at lower 
        temperatures, so they begin pollinating earlier than the 
        European honeybee. This is critical in Zabul Province's almond 
        production which begins to bloom in March. The Asian honeybee 
        is more effective in pollinating key crops and can pollinate a 
        higher variety of plants. With smaller hives and colonies, the 
        Asian honeybee requires less forage for survival.
          The European honeybee colonies are larger and produce a large 
        quantity of surplus honey. Asian honeybee colonies are smaller, 
        producing less honey. The foraging range of the Asian honeybee 
        is \1/2\ that of the European honeybee. This means it covers 
        only a quarter of the area. However, the range of the European 
        honeybee exceeds the requirements of most villages. The Asian 
        honeybee adequately covers a village and surrounding areas.
  Strengths
  Apis Mellifera
          The European honeybee is well suited for large scale, 
        commercial operations of at least 100 hives. At this scale 
        equipment and maintenance costs are covered by honey 
        production. The species works well for migratory beekeeping. It 
        works best in monoculture environments such as an almond 
        orchard. They have a larger foraging area than the Asian 
        honeybee and produce more honey per hive. Migratory beekeeping 
        on a large scale returns $2 for every $1 invested. The high 
        initial investment and low returns make it unprofitable at 
        smaller scales.
  Apis Cerana
          The Asian honeybee is well-suited for small scale stationary 
        operation. It is economical at any scale because of the small 
        initial investment, simple equipment requirements, and 
        negligible operating costs. Asian honeybee projects return $4.5 
        for every $1 invested. The Asian honeybee is a more efficient 
        pollinator resulting in greater increases in village income 
        through pollination services more than the European honeybee. 
        One estimate cited by UC-Davis claims $14 benefit for every $1 
        invested due to increased production. The Asian honeybee is 
        native to the region and tolerant of pests and diseases such as 
        mites and wasps that destroy imported the European honeybee.
          The equipment is simpler, smaller, and less expensive than 
        that for the European honeybee. By using simple designs such as 
        the Japanese box pile hive, villagers can locally reproduce the 
        hives easier than standard European bee equipment. The Asian 
        honeybee can sustain itself even when orchard crops are not 
        blooming by foraging in the surrounding area for desert 
        flowering plants. The Asian honeybee is known for its ability 
        to survive and thrive in harsh, marginal conditions.
  Weaknesses
  European Honeybee
          The European honeybee is an exotic, imported species that is 
        vulnerable to environmental threats such as mites and wasps. It 
        is more expensive than the Asian honeybee to set up and 
        complicated to maintain. It requires a minimum of 100 hives 
        before breaking even. The high initial investment and low 
        returns make it unprofitable at smaller scales. The European 
        honeybee requires migration, intensive management, standardized 
        equipment, and a larger foraging area with a monoculture-based 
        agriculture. European honeybee projects usually fail in 
        Afghanistan despite extensive intervention.
  Apis Cerana
          The Asian honeybees have a smaller foraging range and are 
        ill-suited for migratory beekeeping. They produce less honey 
        per hive but the honey is considered more valuable in overseas 
        markets. The Asian honeybees cannot be raised near areas where 
        European honeybees are used as they will raid honey from the 
        European hives.
  Analysis
          Army sponsored apiculture projects previously focused on the 
        European honeybee for several reasons. Past projects 
        concentrated on honey production rather than pollination as the 
        primary desired result. European honeybees are superior honey 
        producers with its larger hives. Also, practices in the U.S. 
        solely use the European honeybee as our techniques were adopted 
        from Europe. The European honeybee is well suited for the type 
        of agricultural practices in the United States. Army 
        practitioners from the United States are only familiar with the 
        European honeybee and are unaware of the Asian honeybee as an 
        alternative.
          The Asian honeybee is the traditional honeybee used by Afghan 
        beekeepers, particularly in the mountainous, border areas of 
        Pakistan. Prior to the Soviet invasion, large-scale commercial 
        beekeeping was practiced using the European honeybee similar to 
        the United States. This capability was destroyed in the 
        resulting occupation. Our attempts to rebuild apiculture mimic 
        how we do it in the United States. The focus is on small-scale, 
        income-building for vulnerable populations. Given the high 
        initial costs, these were largely subsidized operations. Given 
        the intensive management requirements of the European honeybee 
        in this environment, the project success rate is likely very 
        low, if not near zero.
  Recommendation
          Using the Asian honeybee as an alternative provides the Army 
        a sustainable apiculture option that is economical. It restores 
        traditional Afghan practices and is well suited for the 
        environment. The Asian honeybee provides more efficient 
        pollination. This will significantly improve rural income 
        through better yields and improved quality of key agricultural 
        products. It will require additional training of Army personnel 
        to learn about the Asian honeybee and how it differs from the 
        European beekeeping. The Asian honeybee is well suited for 
        small-scale, village level rural development. The European 
        honeybee is still relevant. However, it use should be 
        concentrated on developing large-scale, migratory commercial or 
        cooperative operations.
Conclusion
    The ADT strategy was a success because it took the approach that we 
can prevent the seeds of conflict, by planting seeds of hope and 
prosperity. It took the ADT at the point of the spear, virtually all my 
soldiers qualified for combat badges, it took inter-agency partners to 
array the many aspects of power, knowledge and influence, and Afghans 
willing to risk their lives to implement the programs. This 
collaboration led to an outcome where farmers were empowered with 
knowledge, local agricultural extension capabilities were enhanced, and 
infrastructure developed so locals could own a sustainable approach to 
rural development. Our deployment was captured in a documentary 
produced by Minnesota Public Television and the link to the video has 
been submitted as part of my written testimony. This documentary of our 
deployment was aptly named, Bridging War and Hope. http://
www.mnvideovault.org/mvvPlayer/
customPlaylist2.php?id=23789&select_index=0&
popup=yes *
---------------------------------------------------------------------------
    * Editor's note: the video referred to is retained in Committee 
file.
---------------------------------------------------------------------------
    That is what we did. Thank you.

    The Chairman. I want to thank the gentlemen for your 
testimony this morning. The chair would remind Members that 
they will be recognized for questioning in the order of 
seniority for Members who were here at the start of the 
hearing. After that, Members will be recognized in order of 
arrival.
    With that, I recognize myself for 5 minutes.
    General Owens, in your testimony you connected farm policy 
directly to the consumer. Affordable food and fiber is often 
taken for granted. Each of you, highlighted some of the key 
elements that allow U.S. agriculture to thrive. Infrastructure, 
fertilizers, irrigation, GE seeds, research, extension, risk 
management tools created so that we will have a stable system. 
What happens if we stop supporting the very things that have 
allowed our country to have the safest, most affordable, and 
the most abundant food supply? And in your years of service, 
how quickly can a country correct course if they become food-
insecure due to poor national policies?
    Major General Sholar, we will start with you.
    Dr. Sholar. Well, there is a direct link, sir, where we are 
the most food-secure nation in the world, but we really have a 
very limited supply when we start using it up. We have an 
oversupply of all of our grains right now, but that can go 
quickly. We have to stay focused on what got us to this point, 
and that is the working in concert of research extension, our 
farm communities, Congress, all of it tied together has gotten 
us to this point and we have to continue to invest. We cannot 
take a knee. We can't take a time out. That is our challenge, 
to find those dollars, because as everyone knows, there is 
fierce competition for resources, but our two most basic needs 
as people are defense and sustenance.
    And so that is our challenge. That is everyone's challenge, 
to find how we are going to support all of that in the future.
    The Chairman. Major General Owens?
    Mr. Owens. Mr. Chairman, the food security of the nation is 
very dependent upon our critical infrastructure and the way we 
have used our farm policies. What we have seen is that without 
infrastructure, you cannot sustain agriculture production, and 
the hardest part to rebuild is the infrastructure itself, the 
road networks, the electrical networks, the storage facilities, 
the warehouses, the processing plants. Those are all difficult 
and take a very long time to replace. We have been blessed in 
this nation with farm policy that has ensured we have 
maintained that infrastructure and our ability to produce food.
    The other part of that is our ability to maintain the 
productivity of the land. Once the land is destroyed by poor 
farming practices--we see what happened in the United States in 
the 1930s with the Dust Bowl. It takes a long time to recover 
from that, and so it is important that we keep those policies 
and principles in place that maintain the productivity of the 
land for future generations. We believe that farm policy is a 
big key to making that happen. That has to be a comprehensive 
approach between the Federal Government, the state governments, 
the land-grant universities, all put into one place. I think 
that would help us continue for the future.
    The Chairman. Colonel Ahlness?
    Mr. Ahlness. Thank you, sir. What is incredibly powerful as 
I trained for my mission was seeing the diversity of 
agriculture in the U.S. and the strength it showed. When we 
started looking at the crops that grew in Zabul Province, 
pomegranates, almonds, grapes primarily as raisins, we found 
experts in the U.S. who were able to help us out locally on 
some of the crops, but we went to California for learning about 
crops such as almonds and so forth. So that really helped us 
move. And then looking at the strength of the extension 
service, which we tried to grow within Afghanistan was 
incredibly important, because we saw how that lent great 
support to making sure that our agricultural processes and 
skills were upheld.
    And then finally, too, that there is a place for even non-
traditional aspects as well. For example, we went to Utica, 
Minnesota, to an Amish community to find out how farmers 
produce modern agriculture without electricity, and we found 
how they produced a very rich strawberry crop by using 
traditional practices and drip irrigation, which we are able to 
transfer then overseas as part of the rural development 
program.
    And then finally, most importantly, just a rich diversity 
of skills that my team brought, based on their different 
experiences within the agribusiness system allowed us really to 
leverage that overseas in an effective manner.
    The Chairman. Well I thank each of you for your long years 
of service to our country. I watched in Afghanistan and Iraq 
the impact of the ag-centric work that went on. We squandered 
an opportunity in Iraq early on to not better reengage their 
agricultural industry to try to stabilize that country. I 
appreciate your testimony this morning, and with that, I will 
turn to the Ranking Member for 5 minutes. Collin?
    Mr. Peterson. Thank you, Mr. Chairman.
    Colonel Ahlness, can you tell us more about the Chamber of 
Commerce group, currently your agribusiness development team? 
It must have been successful in that they decided to go ahead 
and do this, so can you tell us how that all developed?
    And the other thing I would like to have you expound on is 
when I was over visiting our Guard folks when they were 
deployed in Iraq and Afghanistan, the commanders always 
commented about how the Guard people had these folks that 
understood agriculture, understood rural situations and 
actually did a better job than the regular Army because they 
brought people that had these skills to the table. How big of 
an impact do you think that had in our overall situation?
    Mr. Ahlness. Thank you, Congressman Peterson.
    Regarding the Afghan Chamber of Commerce, before we 
deployed, we worked closely with Cenex Harvest States. As the 
largest cooperative in the U.S., we said, ``Hey, can you train 
us how to develop cooperatives?'' They provided us 3 days of 
training with bringing in experts to help us really understand 
how can we help formulate these cooperatives to help move 
Afghanistan ahead. When we got there, we started looking 
through, and in fact, one of our partners who is an Afghan 
local who is contracted by the U.S. Government, he said there 
is a desire to form an association of traders, which really 
addressed one of our key missions, which was developing the 
value chain. We allowed him to move forward with this 
initiative and provided him guidance and support so he could be 
successful. By the end of our deployment, the organization was 
formed. There were 270 members, which gave greater access to 
farmers to choose who they sell to, so they are able to sell 
their increased production for a greater amount of money, 
decreasing the food insecurity for themselves, their family, 
and their villages.
    Since that time, that has continued. I was in contact with 
people in Afghanistan, and now since that time, that has 
expanded to four other provinces nearby in Ghazni Province and 
an a couple of other areas, because of the successful nature of 
that, and the other provinces saying, ``Hey, this is working 
well for Zabul and it is bringing greater prosperity, so we 
want to expand it.'' And that was done through our partnership 
with USDA.
    Mr. Peterson. How many co-ops were formed? Did you actually 
help form co-ops within the area that are still operating?
    Mr. Ahlness. Congressman Peterson, yes. That one, the 
Afghan Chamber of Commerce, the Zabul chapter, that is still 
continuing. We started several other ones. We did one in the 
southern region, which is by demonstration farm. We were trying 
to get local farmers together so they could produce more of a 
traditional co-op, and that was slow in starting because it is 
really hard to get people to understand how can you do it where 
you buy it in and you have to sell it at a profit to the 
members so you can re-buy and continue along and pay minimal 
overhead, but make sure it is done properly. In fact, Tony 
Hunter was my guy who was doing that down there, spending time 
with them, and it was a long growth process. I don't know if 
that is still continuing, but a lot of it is how can we plant 
the seeds and get them started, and it may not take at that 
place, but it may take at another location.
    Mr. Peterson. So they didn't have any concept of a co-op? 
Nothing like that had ever existed there before?
    Mr. Ahlness. There is a concept of co-ops and they have 
used it. Unfortunately, a lot of times people are looking at it 
as how could they use it as money infusion to what they are 
doing, and what we want to do is say we will invest money to 
get it started, but understanding that the military is short-
term, ADTs were for 5 years. How are you going to sustain it 
after that? We really helped them develop their business plans 
and think about the long-term, rather than just the immediate 
money that maybe we could provide.
    Mr. Peterson. And so that was part of what you did to train 
their leadership, whatever leadership they had, to understand 
how to go about this? Is that part of what you were doing?
    Mr. Ahlness. Yes, Congressman. We would work with the 
village elders and then also with the business leaders to make 
sure it was something that they wanted. We would really find 
where is the intersection of the main crops that they are 
producing, what were the needs, as far as crop inputs, and then 
trying to make sure that if we pull together a cooperative, 
that they get quality materials. A lot of times in these 
undeveloped areas, the quality of crop inputs is suspect, so we 
are always trying to help them figure out how do you get the 
right amounts, make sure the quality of the pesticides, for 
instance, are adequate, so that way they would apply them in 
the proper way. Otherwise, what happens sometimes is those 
things get cut by the distribution people and so they just 
think more is better, and that is not what we wanted to 
achieve.
    Mr. Peterson. Thank you. Thank you, Mr. Chairman.
    The Chairman. Mr. Gibson, 5 minutes.
    Mr. Gibson. Thanks, Mr. Chairman. I want to thank you and 
the Ranking Member. This is an outstanding hearing today, and I 
want to thank the panelists. I appreciate your strong 
leadership for our nation, and now continuing in such a noble, 
important calling for all of us.
    And I noted at the outset of this hearing, both the 
Chairman and some of the panelists were making the point that 
at the founding of our country, we had about 95 percent of 
Americans involved in agricultural pursuits of one kind or 
another, and there was also a time that we had a small standing 
force, and really, most Americans were involved in protecting 
and securing our country. And now, as we note, less than one 
percent actually are farmers, are involved in agricultural 
pursuits, narrowly defined, and really less than one percent 
are involved in securing our nation. And so that makes for an 
important and interesting observation and analysis with regards 
to civil military relations, and civil farmer relations. And 
this Committee is indebted to you for taking time out of your 
schedules to be here today.
    My questions really are based on those prefacing remarks, 
and that is this: As you go about your busy daily lives, how 
much interaction do you have with the next generation who we 
are hoping to inspire to become farmers? We know that, 
according to the USDA, we need about 100,000 new farmers in the 
next 10 to 15 years, given the fact that as proud as we are of 
farmers, the average age is just shy of 60 now. And given that, 
I am interested to know what advice you can give this Committee 
as we look to help formulate Federal policies, work with state 
and local policies to help inspire those to come to the 
calling.
    And as you respond to that, I would be interested to know 
that Colonel Boswell, before he left this Committee, myself and 
Sergeant Major Walz, we sponsored an amendment in the last farm 
bill that created a liaison at the USDA. I am interested to 
know, are you having any interaction at all with that liaison, 
and if so, how is that going and what insight you might have 
for us?
    Dr. Sholar. Congressman, I would just start by saying at 
the university, we have a similar problem in getting students 
coming from ag backgrounds, so we are proactively recruiting 
city kids, if you will, to enter the ag profession. 
Unfortunately, most of them want to, or maybe fortunately, want 
to go into industry or adjunct parts of agriculture. Very few 
of them are focused on going back to the farm or going to the 
farm since that is a much harder thing for them to visualize. 
We probably are at the point in our country where we need to 
talk about incentivizing those who don't have ag backgrounds to 
more proactively look at careers in agriculture that involve 
production agriculture, not just the ancillary pieces. That is 
probably something we have not done. I know this Committee and 
others are very focused on helping our veterans get into 
farming and I am aware of that, and I know we are having some 
success there, but we probably should be looking at other 
pieces as well.
    Mr. Gibson. Thank you, Major General. Other panelists?
    Mr. Owens. Mr. Gibson, first, thank you for your many years 
of service. We appreciate that very much.
    One of the areas that we have been able to work with is we 
have seen that a lot of our agriculture commodity groups and 
producer groups have been very proactive in reaching out to the 
next generation. And that any emphasis we can give to help them 
reach out and the programs that they sponsor to encourage 
people to come into production agriculture will be very 
beneficial.
    It is very difficult when you reach out and try to think 
about the cost of beginning to farm. That is what makes most of 
it prohibitive, and it is just unbelievable what it would take, 
and so many of us, rather than staying in rural communities, 
begin to take other careers that are related to production 
agriculture, but not directly in production agriculture. And 
the continued emphasis and ability to get into production 
agriculture would be very beneficial.
    Mr. Ahlness. Thank you for the question, Congressman. It is 
interesting, when I was graduating from high school I wanted to 
go into agriculture and go in the Army, but I knew I wasn't 
able to start a farm, so I went in the Army. I didn't 
understand the rich variety of jobs that are available in the 
agribusiness sector. Now I am beginning to appreciate that, as 
I am working at Cargill, what we do is we work with the 
universities. And it is kind of nice to go in and say, ``Hey, 
you need to provide us a rich variety, a diverse group of 
people to come in,'' and I see some universities really have 
good outreach programs. They also do good partnership with us 
at different times, and so we just continue to encourage that 
and invest in that to make sure we can get the best quality 
people in the future.
    Mr. Gibson. Thank you, gentlemen. Thank you for those 
responses. My time has expired. Thank you, Mr. Chairman.
    The Chairman. Thank you, gentleman. David Scott, for 5 
minutes.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman. I 
would like to continue because Congressman Gibson has really 
hit the nail on the head, because we have a national security 
crisis right in this country, and that is the average age of 
our farmers now at 60 years of age. That is a national crisis, 
and Major General Sholar, is that right, you also hit the nail 
on the head because we have to use our land-grant institutions 
to solve this national crisis. And I certainly agree with your 
comments, and all of your comments, but we have to tackle this 
issue of getting a new generation of beginning farmers out 
there. We have no choice in this matter, or else our own 
national security will go down if the age of our average farmer 
continues to climb and we are not doing anything to address the 
issues as to why and how to solve it. And I believe firmly that 
you also hit the nail, Major General in the middle there, 
because this is an economics issue. It is an issue of 
marketing. It is also an issue of information, and more than 
anything, it is an issue of utilizing our land-grant 
institutions for the reason we put them there. The land-grant 
institutions were the salvation of the South after the Civil 
War that formed the foundation that raised the South to be 
competitive. That was why they were established.
    Now we have this crisis. If we were able to increase the 
area of giving funding to our land-grant schools, as you 
mentioned, Dr. Sholar, it is research, it is teaching, it is 
extension. Why not create an additional area of funding we can 
give to offer those young people loan forgiveness for their 
student loans and scholarships if they go into farming? Because 
we did the same thing when we had a shortage of veterinarians. 
We answered that because we took up the loan forgiveness and 
scholarship aid to those, and we had more veterinarians in.
    Because first, when these young people, as you pointed out, 
the Major General there in the middle, I can't see your name, 
the cost of an acre of land just to even start a farm is 
$8,000. To get a tractor is $75,000. These are things that we 
address, and then they have to face paying these student loans, 
not having those things in them. I just wanted to get y'all's 
opinion on that, because this is something that several of us 
on this Committee are working towards in hopes that we can 
create this additional avenue of funding to address helping our 
young people. We want to help them to take that economic burden 
off, at least through scholarships and loans, with a 
requirement that they go into farming. Then they have an 
inducement to do so.
    Major General Sholar, am I making sense on this?
    Dr. Sholar. Yes, sir, you certainly are.
    We have selectively incentivized different groups of 
individuals throughout our history to do those things that we 
thought were most important for society as a whole. As a person 
who has had a foot in each of these worlds for more than 40 
years each, I have a vested interest. As I travel the 
countryside, both in my home state and around the rest of the 
southern Great Plains, and even the South, it is not uncommon 
to see a piece of equipment sitting in a farm equipment yard 
that has one or two times the value of the house that that farm 
family is living in. That is a very difficult proposition for 
someone to visualize themselves going into that profession, 
knowing that that might be the case.
    If we could, at the minimum, offer some assistance to those 
who are contemplating going back to the farm, a lot of this 
won't be new individuals who are unfamiliar with farming, but 
those who cannot go back to the farm. Whatever we can to do 
incentivize those individuals, I would say we really should be 
taking a hard look at that, sir.
    Mr. David Scott of Georgia. All right, thank you, Mr. 
Chairman.
    The Chairman. Thank you, Mr. Scott. Mr. Benishek, for 5 
minutes.
    Mr. Benishek. Thank you, Mr. Chairman. Thank you, 
gentlemen, for being here this morning with us.
    We talked about a lot of the things that we have in this 
country as far as infrastructure and support for our farmers. I 
had the privilege of going to Africa with the Chairman, and the 
most profound thing that I thought about when I visited a 
couple of these countries was the fact that there was no 
private property or rule of law, so that it was very hard for, 
Ethiopia comes to mind. It was hard for a farmer to invest in 
the land when it wasn't theirs. They had to lease the land from 
the government, and they weren't sure if they were going to 
have that land in the future.
    So in your experience going around the world, to me, that 
is the rule of law and property rights before you are going to 
start investing in agriculture. Can you tell me your 
experiences in that regard with the places that you all have 
served as it relates to my question? Are there things that 
America could do to improve those rights or encourage 
governments? Can you name some places where that is an issue? 
Major General Owens, maybe you could start.
    Mr. Owens. Yes, sir, and I will tell you that wherever we 
went, two of their biggest problems, one is the rule of law. 
Without the rule of law, you have no sanctity of contracts, you 
have no arbitration between buyers and sellers of commodities. 
You just are not able to conduct normal, routine business that 
allows them to build an economy of any scale at all. Property 
rights, what we found was there was really broken down with no 
individual property rights. We think about these places that 
have been taken over and in conflict for multiple years. One of 
the first things they do is each group comes in and confiscates 
and takes over the ownership of the land, and there are lost 
records and there are disagreements. Some of those land records 
and disagreements went back hundreds of years, trying to argue 
who owned the property in Kosovo or who owned the land in 
Afghanistan, and whether it is under control of the village and 
the culture and the tribe or whether it is under the control of 
an individual.
    And so if we can find a way to continue and establish 
property rights and resolve differences in land disputes, and 
then be able to enforce the rule of law, which personally, I 
believe that in those cases we found that the first rule of law 
had to be enforcing contracts, and being able to have an 
agreement between buyers and sellers of commodities, or you 
were not able to build an economy at all.
    Mr. Benishek. Colonel, do you have any input?
    Mr. Ahlness. Thank you, Congressman. Yes, I would add 
education. Education is critically important to what is going 
on in developing countries, and applying that not only to the 
males, but the female population.
    One of the things that we did deliberately is when I was 
building my team is I made sure I was aiming for six to eight 
females on my team, because in Afghanistan, it is a very 
traditional environment, as a man I was not able to speak to 
women. That would be considered an insult or it would be not 
the proper cultural way to act. But with having women on my 
team, I was able to engage the 50 percent of the population I 
was unable to otherwise, and we were able to make differences 
in the lives of the people, improving the quality of life of 
the village overall, to make it be successful. And a lot of it 
came down to basic education. Absolutely, rule of law, 
education, you need to have a balanced approach trying to get 
things moving up together in collaboration with one another so 
people can be successful.
    Mr. Benishek. Major General Sholar, do you have anything 
you would like to say?
    Dr. Sholar. Interestingly enough, if you look at France and 
Germany, and I have looked at agriculture there a number of 
times, they don't own the land but they have a vested interest. 
They are incentivized to do well with that land. They don't 
live on the farms. You won't find a French farmer living on the 
land, and yet in many cases, their yields will be twice as much 
as ours. They are being incentivized in other ways.
    I was in China a number of years ago, and they had gone 
from the community or collective farms to allowing individual 
farmers to own certain parts of fields.
    Mr. Benishek. Well who owns the land in France?
    Dr. Sholar. Pardon me?
    Mr. Benishek. Who owns the land in France if not the 
farmer?
    Dr. Sholar. The government. Same for Germany, and yet, the 
agriculture production is just spectacular. Some that we only 
wish we could emulate in some cases.
    But in China, a farm family owns eight rows. Another family 
owns eight rows. Another family owns eight rows. But this was a 
great improvement from where they had been before where 
everything was consolidated and pooled and no one owned 
anything.
    So there are probably various models that can be used. Yes, 
in particularly these underdeveloped countries, they need to 
have more say in what comes out of their labor. They don't now, 
and so whatever we can do to advance that cause would be very 
helpful.
    Mr. Benishek. Thank you.
    The Chairman. The gentleman's time has expired. Mr. Costa, 
5 minutes.
    Mr. Costa. Thank you very much, Mr. Chairman, for holding 
this hearing. I think it is very important. Those of us here on 
the Committee understand the critical nature of agriculture's 
importance, its productivity, as well as to our national 
security, and world security. And so I am glad that you are 
holding this hearing, and frankly, we ought to do more to tell 
that story, because obviously, our ability to be successful 
over the last 200 years began with an agricultural nation that 
became very successful at it. Our reliable food supply is part 
of our national security. It gets taken for granted, but in my 
home State of California, we produce \1/2\ the nation's fruits 
and vegetables, and it is such a diverse cornucopia. My family, 
like a lot of the families here and Members of the Committee, 
have been involved in farming and agriculture for generations.
    But Major General Sholar, in your comment earlier in 
Afghanistan, and I have made multiple trips to Afghanistan as 
well as Iraq and other parts of southeast Asia and the Middle 
East and China, that whole area. When you said, ``No water, no 
agriculture,'' that is just as applicable in California. We 
say, ``Where water flows, food grows,'' which is the counter to 
your comment. And clearly, with the planet having seven billion 
people, it clicked about 18 months ago and by the middle of 
this century, another two billion, or nine billion people, 
imagine going from seven billion to nine billion in a period of 
50 years. More demands, the importance of a food supply, are 
just obvious and critical. Our ability to provide water to 
ensure that not only for in every region of America, but in 
other parts of the world with climate change, it is going to be 
absolutely essential. Our weather patterns have changed 
dramatically in California, and we have a broken water system. 
There are a lot of factors that go into that, but if in one of 
the richest states in the nation and the richest nation in the 
world with the technology and the know-how to manage and plan 
for the future, we can't get past the politics, and that is our 
problem in California primarily, the politics of water. God 
help the rest of the world where, as you noted, subsistence 
farming is where many of these countries are stuck in. And if 
they are hand-to-mouth on subsistence farming without the 
ability to have the reliability, the rule of law, all of the 
aspects of security in those nations but in a global sense is 
going to determine whether or not nation states can live 
together amicably or not in this century. Frankly without 
water, I believe water will become, as we continue to see 
changes in weather patterns, one of the major resource issues, 
like energy, as to whether or not nation states can get along 
together amicably or not. And we see those dynamics already 
taking place. In Kashmir and India and Pakistan, disputes on 
water are absolutely critical.
    So I look at this security issue with agriculture, not only 
in terms of, well, you have served our nation and you tried to 
provide solutions to problems in those areas that we have all 
witnessed, but it is also our own national security. And it is 
complicated because the majority of Americans believe their 
food comes from a grocery store. According to the American Farm 
Bureau that two percent of America's population is directly 
involved in the production of food and fiber, when you look at 
farmers, ranchers, and dairymen. And in California, it is less 
than two percent, but yet, we produced $56 billion of 
agricultural products at the farmgate last year in California.
    So it is amazing that such a small percentage of the 
population of the United States and in every region of America 
can do so much, and there are a lot of reasons for that. Our 
land-grant universities that have distinguished themselves over 
100 years, new technologies, new science, new ability to 
produce these products.
    Mr. Chairman, my time has expired, but this is an issue 
that we have to stay on for all the right reasons, because it 
is not just the world's security and food supply, but it is 
America's security, and it makes it difficult for all of us to 
do our job when the majority of Americans think their food 
comes from a grocery store.
    The Chairman. I appreciate the gentleman's comments. The 
gentleman's time has expired. Austin Scott, for 5 minutes.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman, and 
gentlemen, thank you for your service to the country. In so 
many ways, this very issue that we are talking about hit home 
with me when I was in South and Central America looking at 
their agricultural capabilities, and the bottom line is, they 
can grow a lot of crops, but they can't get them to a market 
and they can't export them, and that means that their people, 
because of the lack of infrastructure, have been unable to 
capitalize on that, both at the local level and at the national 
level.
    One of the things that I am concerned about, I mention this 
before I get into the question, would be: who is going to be 
farming 10 years from now? As both sides of my grandparents 
farmed and none of the grandchildren farm anymore, and certain 
taxes, like the Federal Estate Tax that are just absolutely 
devastating to our family farms, and something that I wish that 
we could find a way to resolve.
    You have spoken on this issue before, but I just want to 
reiterate on this. The crop is successfully harvested in so 
many of the countries out there, the storage and transportation 
issues still pose a major threat to the food security. One of 
the things that is important in that storage is the energy 
supply and the ability to refrigerate that product. What low-
cost alternatives or innovative ways to store and transport 
food have you seen that can be applied overseas while still 
maintaining the quality and the safety of the food, and what 
can other countries learn from the United States to help 
alleviate these problems?
    Mr. Owens. Mr. Scott, the infrastructure and our ability to 
store and market and move those foods, as you said, is 
critical. What we learned in places like Afghanistan and Kosovo 
was they did not have the electrical networks to have reliable 
electricity in order to have cold storage, for instance, the 
way we are used to cold storage, and that is where we asked 
each of the ag development teams and the land-grant 
universities to develop innovative ideas and going back to cool 
storage, and in some cases, utilizing solar energy where there 
was no electrical energy. Innovative ways to utilize storage 
connexes, buried to create underground cool storage, and ways 
that they could maintain the quality of commodities for an 
extended period of time. It may not be for the period that we 
could store it here in the United States, but we could store it 
for an extended period, extending their marketing period and 
the period of which they could then generate income for their 
families.
    The other thing we saw is that there had to be a 
comprehensive look at all development. You had to look at 
roads, you had to look at where to put electricity. It is like 
where did you want to process a commodity? That is where the 
roads had to go to, that is where the electricity had to go to 
first. We have a lot of individuals that want to do a lot of 
good, and everybody wants electricity. Everybody wants good 
water. Everybody wants good roads. But you had to come in with 
a comprehensive policy and target that in order to enhance the 
agricultural ability to store, process, and market those 
commodities.
    Mr. Ahlness. And if I could just add to Major General 
Owens' comments, it is really key to look at, as he said, the 
cool chain, because a cold chain just isn't possible. It is not 
economically feasible or practical in places like Afghanistan, 
rural Afghanistan. What we did is we looked at how could they 
be transporting things at night, rather than just doing 
transportation in the day to help keep it cool. But also, 
changing how they approach trade. Instead of trying to sell 
grapes, they sold raisins. We used their traditional practices 
and leveraged that so that they could sell their product 
regionally instead of trying to rush something that is not 
sustainable, that is relying on dollars that won't be there in 
the long run to set up for them. And then limiting to the 
extreme high value crops, like pomegranates, trying to get them 
out and using the cool value chain type of process.
    Mr. Austin Scott of Georgia. Did you look at a dehydration 
and then rehydration, you can carry a lot less when you are 
carrying water.
    Mr. Ahlness. Right, Congressman. No, we did not. We were 
looking at how could we use traditional practice as much as 
possible, things that were culturally acceptable to them, 
rather than trying to introduce something brand new into the 
process.
    Mr. Austin Scott of Georgia. Thank you for your service in 
many ways, and this is one of the things that America sometimes 
takes for granted in this country, that every time we walk in 
the grocery store, there is going to be food on the shelves, 
and thank you for being a part of the solution.
    The Chairman. The gentleman's time has expired. Mr. Walz, 5 
minutes.
    Mr. Walz. Well thank you, Mr. Chairman, and I would like to 
stress, and thank you personally. This series of hearings on 
agriculture and national security and the broader global food 
insecurity issue is smart policy. Your intersection of 
leadership here and in the Armed Services Committee, like my 
colleagues, Mr. Gibson and Mr. Scott, that we care about this 
really makes a difference, so thank you for that. And to each 
of you for so many reasons, but it is important that you are 
living proof of the incredible asset and the dynamic nature of 
our National Guard, which you make it very easy to advocate as 
the one force of how we get at this. And you are making a point 
that all of us are stressing the idea of how do we bring all of 
America's smart power tools to the fight in making sure that 
these countries do not become havens of the destabilized, and 
each of you have stressed it in such clear terms that food 
insecurity: we can spend a lot of money training rebels and 
equipping them, but if you have a hungry population with no 
stability, that is not going to do us any good. And it is 
really interesting that we brought it here, because the 
policies we make here really matter. Recently, General 
Rodriguez, the commander of AFRICOM, asked Congress to change a 
policy to allow him to transfer DOD funds over to USAID in 
support of his mission for the very things that you are doing. 
He gets it, but that money is siloed up. The policies are 
siloed up, and we are not able to get at these success stories 
that you are showing. I appreciate each and every one of you 
for what you are doing.
    Just a couple specific or maybe questions you can help me 
understand. This one, Major General Sholar, to you. Dovetailing 
off this USAID piece, USAID was asking for some of these funds. 
They have some or whatever. They are setting up an extension 
service type of program in Afghanistan. I would like you to 
talk a little bit about that, because the challenge for many of 
us is we know you can do the good work. I know Colonel Ahlness 
will do the work and his team will do the work, which I 
encourage all of you to watch the documentary he is talking 
about, if you want to see this in practice. Our concern is 
long-term sustainability when we hand it over to the Afghanis, 
and if you could speak on that maybe?
    Dr. Sholar. Thank you, Congressman, for the question. I was 
in Afghanistan one time, 2006. I was in Iraq several times. I 
would like to say that my knowledge and information about 
Afghanistan is dated; however, when things don't change over 
centuries in a country like that, a decade is a blink of an 
eye. It is interesting to hear my colleagues here talk about 
the success they had, and I am impressed with that. They did 
get a lot of traction, but it is still a very, very difficult 
place to operate.
    I am heartened by the fact that USAID is setting up or has 
set up an extension service there. It is the age old question, 
do you give the man the fish or do you teach him to fish?
    Mr. Walz. Yes, correct.
    Dr. Sholar. And in this case, and in all the cases, it has 
to be some of both. We will get no traction in those countries 
unless we lead them to some success, and we are doing that, but 
it is going to be a long haul.
    And I would kind of close my comment on this by thinking 
about something that a colleague from Afghanistan told me many 
years ago about his country, and he was talking about the 
bureaucracy, but in today's vernacular, what he was describing 
is bureaucracy on steroids. It is very difficult for those 
leaders to have the best interest of their population at heart 
when they have their own issues, and we see that in all the 
countries we are working on of that nature.
    Mr. Walz. I agree, and I thank you for that.
    Colonel Ahlness, I will go to you. We talk in the 
theoretical here of stabilizing nations. Well that is great, 
and that is our ultimate goal, but the strategy in the day-to-
day stuff is those micro projects. You talked a little bit in 
your written testimony, Colonel Ahlness, in the Women's Poultry 
Training Program, small program, small investment. How big an 
impact and how can we duplicate that and make that spread?
    Mr. Ahlness. Well, in fact, that did spread because as we 
work these programs, we shared it amongst the ADTs, and we had 
monthly teleconference meetings that we shared amongst a 
country and would share these ideas about how it worked, how to 
make it effective, what were the best practices so it could be 
put in other areas. And that program was run specifically for 
widows, the most vulnerable population, and helping them to 
reach their own success to be successful for themselves. But 
also, there are other similar programs we could run and other 
types of training programs for the other farmers, help them be 
successful as well.
    Mr. Walz. The continuation of your program, it has been 4 
years, Colonel Ahlness, since you were there. Are you getting 
feedback and what are you hearing about the seeds, literally 
and figuratively, that you planted there? What is happening 
today without you there and your team there?
    Mr. Ahlness. Well, and that was a key thing, Congressman, 
of the ADT was to make sure we had a 5 year program, so as a 
third, we were trying to transition the Afghans to lead. The 
first couple teams developed the program, got things going, 
transitioning, the fourth and fifth teams turned it over and 
supervised to our government agencies or the NGOs who had 
helped make sure things would be successful, and then also 
would try to make sure the Afghan Government budget system 
works so that they would get the money to implement the 
programs, rather than having it come from us.
    Mr. Walz. Smart stuff. Thank you, Mr Chairman.
    The Chairman. Thank you. The gentleman's time has expired. 
Mr. Davis, for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman, and thank you again to 
our witnesses for being here. I apologize for having to leave, 
but I do want to let my colleagues know, I talked to one of our 
colleagues, Mr. Bost, who is at home holding his 11th 
grandchild, so when you see him, offer him congratulations.
    Major General Sholar, you mentioned the expected population 
growth in your opening comments, and I can remember sitting in 
Decatur, Illinois, 20+ years ago listening to Paul Erlich 
talking about the population explosion and how we weren't going 
to be able to feed the world. Some of the biotechnology 
advancements that we have seen in American agriculture have 
allowed us to do that.
    With both of those instances, with the expected population 
growth and biotechnology, how important of a role do you think 
biotechnology is going to play in developing countries that you 
talked about and the rest of the panel has talked about?
    Dr. Sholar. Well thank you, Congressman. If you look at a 
continuum of agricultural innovation and development, maybe you 
start with the turning plow, the cotton gin, somewhere in 
there, hybrid corn, and then maybe GE crops, genetically 
engineered crops, have made a dramatic impact on our country. 
They are making some impact in the rest of the world. Let's say 
they are not as embraced as maybe they are in our country.
    Mr. Davis. Do you agree with that?
    Dr. Sholar. No, I don't, Congressman, because if you look 
at the study that was just released by the National Academy of 
Sciences, 900 studies that they took a fresh look at, 50 
scientists over a 20 year collection of studies and they have 
declared that GE crops are safe. This is something we have long 
believed to be true. It is really good to have someone else say 
that, someone with some credibility and authority.
    And this gives us the opportunity to move ahead to the next 
generation. It won't stop all the naysayers certainly, but it 
is a huge success story. But there is a whole generation of GE 
crops waiting to be discovered. The technology is still in the 
lab. But they are going to cost money. They are going to cost 
money for the producer to grow them. The seed is going to cost 
more, and we are going to need to sell those crops. Whether 
that could be immediately available to those developing 
countries remains to be seen. We may need something in 
parallel. Norman Borlaug, the green revolution. It is 
abundantly clear we are not going to feed those nine billion 
people with current policy, current growth.
    Mr. Davis. Thank you, Major General, and Colonel, thank you 
again for your service, too. You mentioned your time in 
Afghanistan recently, and can you talk a little, in that 
aspect, about storage and transportation issues, and what may 
be happening here in America that we can then translate over 
into societies like in Afghanistan that you are trying to help 
become self-sustaining, and how can we then market those 
advancements that we have here that may or may not work in a 
country like that?
    Mr. Ahlness. Thank you, Congressman. Well, looking at 
Afghanistan, there is virtually nothing there right now, so you 
have to look across a border and come up with practical, 
reasonable ways for them to move forward. That is why we 
selected pomegranates as one of the crops for them to try to 
export regionally, because it is a high value crop that 
tolerates a cold value chain well. We were able to do that well 
and move it forward, but we had to be cautious with other crops 
like grapes that just didn't have the cold value chain to move 
forward. We help at the local level by, first of all, 
increasing production. That was one of our base missions. 
Second, developing a co-op so that there is an association of 
traders so there is choice to buy it, and when production does 
increase, it gets off the farm, and then working with the 
Department of State, USDA to build some of these regional 
partnerships so that they have a place to export it to. It is a 
slow growth and trying to get it to where you raise the water 
and all the ships raise at the same time is what our objectives 
were, but it has to be modest and very sustainable, 
acknowledging their poor infrastructure.
    Mr. Davis. Major General Owens, do you have any comments on 
either of the subjects in the last remaining seconds I have?
    Mr. Owens. Well, the two things that we would look at, one 
is what Colonel Ahlness has talked about was we had 52 separate 
Agribusiness Development Teams deployed in Afghanistan that all 
tried different tactics with this, and each region had its own 
problems with different commodities that needed to be grown, 
which created value, and there was no storage or ability to 
move and market those commodities, and the need to grow 
commodities to actually feed the people, such as wheat, and 
those interacted together. So our critical infrastructure is so 
important to maintain and keep for the future.
    Mr. Davis. Thank you all. My time has expired.
    The Chairman. The gentleman's time has expired. Mr. Nolan, 
for 5 minutes.
    Mr. Nolan. I want to thank you, Mr. Chairman, for 
conducting this hearing, and thank our witnesses here for your 
distinguished services, particularly in such a dangerous place 
as Afghanistan has become. I would be remiss if I didn't point 
out how proud we are of the National Guard in particular, but 
Minnesota National Guard in particular has performed so 
brilliantly in all of its deployments throughout Iraq and 
Afghanistan and other places like Kuwait. We are so very proud 
of all of you.
    I, for one, am particularly proud of the Minnesota Guard's 
effort on agriculture in Afghanistan. Some 40 years ago, this 
Committee established a bipartisan presidential commission on 
world hunger, and determined that food first was the foundation 
of security in the world. And it wasn't producing ornamental 
flowers and fat cattle for export back to the United States, it 
was showing widows how they could put together a little 
henhouse with eggs and some grain, and to be able to make a 
living. And so we are so very proud of that effort, and 
clearly, that is the key. That is the key to securing peace in 
this world.
    So that is a compelling story I found with interest your 
story. We have joked about it, but it is the God's truth and 
other Members here have talked about it. You thought about 
going into farming or getting a job, and those of us from the 
farming country know that if you want to be a farmer, you still 
have to figure out how to make a living. And you found a 
brilliant way to combine both, and nice work at it.
    I wish we had more time. I have so many questions here I 
wanted to ask. I have looked through some of the Inspector 
General's reports on Afghanistan, and because it is such a 
dangerous place, because you can't inspect, because you can't 
audit. My question: how dangerous is it? If you can't inspect, 
you can't audit, we get reports that a lot of the money, 
whether it be USDA, USAID, non-governmental, governmental, so 
much of it ends up in the wrong places. How corrupt is it, and 
how much progress have we made in steering people away from the 
poppy seed production into food production?
    You talked about the importance of the co-ops, and you read 
stories where they had a brilliant crop and just an abundant 
production, and it ends up rotten because they don't have a way 
to get it to the market. There are kind of some broad 
questions. If I could, I would like to start with you, Colonel 
Ahlness. How dangerous was it? How corrupt is it? We hear it is 
the number one narco-state in the world. Business communities 
say it is the most corrupt nation in the world. I can't imagine 
what it must be like to have to work in that kind of an 
environment, because of its importance and because of its 
danger, but thank you. Please respond.
    Mr. Ahlness. Thank you, Congressman, and Afghanistan is an 
incredibly corrupt place, and it is very difficult. That is why 
when I went in, I said money is not going to be a metric for 
us, so we are not going to measure our success on how much 
money we spent. We want to build it based on how successful we 
are.
    For example, one project, we wanted to build a 10 acre 
perimeter for stockyard, and when we first started and the 
first bid went out, it came in at $2.1 million for that wall, 
and I said no. But the Afghanis' culture is to come in with a 
wildly high bid and then negotiate down, but we had to work on 
10 U.S.C. rules, which is take the lowest acceptable bid. As a 
commander, I said all those bids aren't acceptable. We had to 
do that four times until about 8 months into our deployment we 
finally built it for $60,000. But that is just the way it is, 
and unfortunately, people don't have the cultural 
understanding, so a lot of times, we way overpaid and the 
Afghans actually looked at us as corrupt because we way 
overpaid for things and we didn't negotiate. But we have to 
follow our own laws as well, so sometimes our laws get in the 
way of what we need to do well.
    Just one other thing is the way to beat poppies, there 
wasn't a lot of poppies in our area, it was an Afghan issue and 
the Afghans addressed it, and they addressed it as a value 
decision. We could not out pay for farm produce if someone 
chose to produce poppies, but we talked to them and the Afghans 
talked to them, and said do you want your sons to get hooked on 
this and they would say no, and as a result then people won't 
do it. And that is what has to be a valued decision.
    Mr. Nolan. Thank you so much. My time is up.
    The Chairman. The gentleman's time has expired. Mr. Kelly, 
5 minutes.
    Mr. Kelly. Thank you, Mr. Chairman, for talking on two of 
my favorite topics in the world, which is agriculture and the 
military. I have spent about 30 years and I have served with 
Colonel Briorf. If you knew him, I went to war college with 
him, have worked with the 36. I have also worked with the Red 
Bulls and a war fighter a couple of years ago, so I understand 
the importance of our National Guard.
    Colonel, you had a comment, money is not a metric or not 
the metric to use when you are dealing with them. And having 
been in Iraq, but Afghanistan, I know the cultures are similar 
in a way.
    We have had many hearings on whether or not to use bags of 
rice with USAID written on them or vouchers or money. Which do 
you think is less likely to be used in a way that we intended 
it to be used?
    Mr. Ahlness. I think you are right, Congressman. It is best 
if we can bring in the services, and better yet, if we can 
align our resources so we can monitor and track it going 
through their government systems so we can help train them to 
do it the right way and supervise it, and hopefully catch them 
doing the right way and keep them doing it the right way so we 
can be successful.
    Mr. Kelly. But it is very easy for money or vouchers or 
other things to be misappropriated in these countries which are 
still forming and where corruption is a little different. They 
have different cultural values than what we have, correct?
    Mr. Ahlness. Absolutely, Congressman, and it is well known 
that a lot of U.S. money ended up in Afghani bank accounts in 
some third world country, or as the general just relayed to me 
this morning, there are a lot of very big houses around the 
Ministry of Agriculture in the Bagram area, so I mean, we knew 
that money was diverted where it shouldn't have been.
    Mr. Kelly. And again, I thank all you gentlemen for your 
service, both in agriculture and in the military. I actually 
said it on the 4th of July this year. One percent of our nation 
serves in our military forces, and you guys said two percent, 
but it is between and one and two percent farm, and so you are 
in both of those categories and that is very important to me.
    One of the things I want to focus on is the National Guard. 
Mississippi has a partnership with Uzbekistan. Each day, it has 
a partnership program with the states. Many times, we focus on 
the military training aspect of that. Have we looked at or do 
you think there is potential to use that same program to help 
them set up systems and co-ops and those things with those 
state partnerships with the National Guards to help them set up 
a working----
    Mr. Owens. Mr. Kelly, thank you for your service, and yes, 
sir, the State Partnership Program is very unique. General 
Ahlness would probably let you know that it was a Mississippi 
security detail that provided security for that Minnesota ag 
development team in Zabul Province, and Mississippi was gladly 
one of those states that helped us deploy Agribusiness 
Development Teams.
    The State Partnership Program is limited today to military 
to military relationships. There is a potential in those areas 
such as Africa and other places where we have state partners 
for military and civilian relationships, and I would encourage 
the Committee to really look at how do we get to a point where 
we can have military to civilian that then can translate to 
civilian to civilian. Because right now, it is military to 
military and then you don't go to the civilians, and that state 
partnership gives you a lot of capability and reach-back to 
those individual states with those state partners, and they 
develop such an important relationship. And you will know that 
in Mississippi, they bring our partners over and train them in 
Mississippi, and Mississippi National Guardsmen go and train 
them, and we have a great potential in the conduct of what we 
would call stability operations, either the phase 4 of a 
conflict or even after a total conflict, or maybe in prevention 
of a conflict in places that the State Partnership Program, if 
it was expanded to allow for military to civilian engagements, 
could use things like the Agribusiness Development Teams.
    But I will tell you that a whole brigade combat team like 
the 155th in Mississippi brings a whole community of civilian 
skills to the table that have the potential to, we were able to 
fix a factory in Afghanistan that was a furniture factory 
because we had a mechanical engineer and a furniture design 
engineer that were Calvary scouts.
    Mr. Kelly. Let me real quickly, General. Stability is based 
on food sources in many cases. Is there any statutory 
prevention that keeps the partnership program from being used 
like that.
    Mr. Owens. There is a statutory prohibition of the military 
to civilian engagements at work.
    Mr. Kelly. I yield back, Mr. Chairman.
    The Chairman. The gentleman's time has expired. Mr. 
Ashford, for 5 minutes.
    Mr. Ashford. Thank you very much, Mr. Chairman. This is a 
very intriguing topic, and I know back in Nebraska and my 
district I am always kidded because Omaha, and for being on the 
Agriculture Committee, because we only have one farm in Douglas 
County. We actually have ten, not one, but we obviously are 
exceedingly interested in agriculture. It is our number one 
industry.
    This concept that you are talking about, Major General 
Owens, and everyone is talking about where the veteran National 
Guard member or veteran comes back to Nebraska and wants to go 
into farming or agriculture is very compelling. And when we 
talk to our veterans, without a question, it is one of the top 
two or three professions that these veterans want to get in. No 
question about it. And we have our veterans job fair type 
things or meetings, we talk about entrepreneurship and starting 
your own business and so forth, it comes back to agribusiness 
in some way, or agriculture.
    I am very interested in your comment about how someone 
comes back from service, leaves the military, gets into 
agriculture. They would be a fabulous ambassador to go back 
dealing with other civilians--not with military, necessarily, 
in those countries, but civilians, and that is what you are 
referring to. Is that essentially what you are talking about, 
Major General?
    Mr. Owens. What we are referring to is we have many 
veterans which have come back and have served on active duty 
and then joined the National Guard returned home, and those 
National Guard units have developed partnerships with states 
and countries all over the world and those partners right now 
are limited to military to military engagements and training 
and development. There is no potential to use those civilian 
skills that they have within those National Guard units in 
those individual states like Nebraska, and work with their 
partners to train on a civilian side and then be able to hand 
that off at some point to a civilian.
    Mr. Ashford. Right, that is an excellent idea, but in 
addition, and we have our partner countries as well as you 
suggested, and the National Guard does engage in those military 
to military collaborations, but it would be an excellent idea 
to expand that.
    But also as an opportunity for veterans who aren't in the 
National Guard who have served in these countries, and whether 
it is in Africa, for example in some of our industries in 
Nebraska are engaged in a single pivot farm operation in Africa 
where you can do a single pivot valley irrigation, Valmont 
single pivot irrigation system, and have ten or 12 small farms 
that actually are starting to produce and distribute food in 
those countries, and mostly in east Africa. But those people 
that are coming back, going to work for Valmont, let's say, can 
go back to Africa as part of these kinds of programs, even 
though they have left the service. I see that as an opportunity 
as well as your example. I don't know if you have any other 
comment. Colonel, do you have thoughts?
    Mr. Ahlness. Yes, thank you, Congressman, and that is one 
of the reasons that I ended up at Cargill is that Cargill 
recognizes the value proposition of hiring veterans, and so I 
bring to that force and we joined American corporate partners 
where we help mentor veterans as they are considering their 
transition about how do they make it to corporate America, and 
in our case specifically, in the agribusiness realm. And then 
we are also looking at how can we go to the bases or posts 
where service members are being discharged as they transition 
out of active duty, and they want to come back home. And of 
course, our company, Cargill, is across the nation, 750 
locations, so we want them to come back and work for us. Those 
are the value propositions veterans make, and we are trying to 
bring them into the business.
    Mr. Ashford. And you are doing an excellent job in Nebraska 
at Cargill, and thank you for that. Near my district, the 
Cargill plant there is a major employer of veterans, and then 
actually exchanging those people going back. Let's say they are 
working for Cargill and 6 months leave from Cargill and go back 
and work with a National Guard unit, even. A lot of flexibility 
could be built into that.
    Mr. Ahlness. Yes, Congressman. We are full engaged or 
signed on to the ESGR Statement of Support, so we fully support 
that above and beyond the legal requirements.
    Mr. Ashford. Thank you, Mr. Chairman.
    The Chairman. The gentleman yields back. Mr. Newhouse, 5 
minutes.
    Mr. Newhouse. Thank you very much, Chairman Conaway, for 
holding this hearing. I want to thank all three of you 
gentlemen for being here, and thank you for your service, both 
in the military as well as your work helping other nations 
rebuild their infrastructure.
    I couldn't help but remember something I heard a long time 
ago. Former Secretary of Agriculture, Earl Butz said something 
like you can't talk politics to a starving man, which if you 
think about that, it is a lot about what we are talking about 
here, how important food stability is in a peaceful world that 
certainly all of us are striving to achieve. I appreciate all 
of your work in helping people be more sustainable in their 
food supply.
    I did have a couple of questions that I wanted to talk 
about or ask you about. In my former life, I was the Director 
of Agriculture for the State of Washington, and I had the 
opportunity and privilege of going on several trade missions to 
help increase international trade. And I realize that some of 
the work that you folks have been involved with, trade means 
different things. It may not be across the ocean, it may be 
just a few miles down the road. But I wondered if you could 
talk about the importance that trade, it sounds to me like that 
you have worked on that, Colonel, and both Major Generals have 
as well, increasing the people's ability to produce a little 
extra to augment their income. Could you talk about how 
important that is in building relationships? We are engaged in 
a lot of discussions right now concerning international trade, 
increasing partnerships aboard, and is that something that you 
saw as important in helping a country or a people better 
themselves? Colonel or Major General, whoever would like to 
start.
    Dr. Sholar. Let me just, Congressman, start by correcting 
the record just a bit. I am an Army Reservist, not a National 
Guardsman, with deference to my colleagues to my left. We work 
close together----
    Mr. Newhouse. I am sorry if I made that mistake.
    Dr. Sholar. No, that is okay. I just would be remiss if I 
didn't point that out.
    I will say that my convoy security guard when I was in 
Afghanistan was from the 45th Infantry Brigade, Oklahoma 
National Guard, and I was proud to have them.
    At one time, Afghanistan was noted for the high quality of 
several of their fruit and nut products for export, world 
renowned, and now we have broken infrastructure, broken 
production, broken export, broken everything. They can't 
produce for themselves. That is how quickly things can 
deteriorate when there is not a focus on doing things right.
    And so I will pass the baton to my colleagues here, but at 
one time they were so much better than they are now.
    Mr. Newhouse. That is interesting. Thank you.
    Mr. Ahlness. Yes, Congressman, I do that too. Everyone 
talks about the great raisins that came from Afghanistan in 
1973, and how they used to be in the stores here in America, 
but as was said, 30 years of war has destroyed the 
infrastructure and a lot of the knowledge around that.
    What we tried to do is work how could we demonstrate? I 
talked about pomegranates. We worked with the Department of 
State so that they could use excess air capacity that came in 
and actually to pay for that and ship over to the Mideast so 
they could see that what is in the realm of possible. We 
demonstrated the realm of possible, and then helped them 
develop slowly the infrastructure so they could do it 
themselves.
    Mr. Newhouse. I appreciate that.
    Major General Owens, as a fellow ag economics major from 
Washington State University, you are Texas A&M. I just wanted 
to let you talk a little bit about the work that you have done 
with land-grant universities and maybe give us some examples of 
some of the things that you saw as important there.
    Mr. Owens. Well thank you, Mr. Newhouse. What was important 
is, as I mentioned earlier, we fielded 52 different 
Agribusiness Development Teams from 17 different states, and 
that didn't mean that only 17 states contributed. For instance, 
Colonel Ahlness had a member, that was part of his team, was 
from North Dakota. They trained with North Dakota State 
University. The land-grant universities were essential to build 
as partners with each of the Agribusiness Development Teams. 
The land-grant universities provided the reach-back capability 
to the right technical experts that could help. We didn't know 
about pomegranates, we didn't know about grapes, but Fresno 
State knew about it or UC Davis knew about it, or Purdue knew 
about it, or University of Nebraska. Somebody knew.
    Mr. Newhouse. Or Washington State, maybe.
    Mr. Owens. Or Washington State knew. Washington State was 
actually beneficial in a lot of the wheat work that we did with 
their great wheat growing regions in Washington. But the land-
grant universities freely opened up and provided that reach-
back capability and a partnership. For instance, Texas 
Extension Service put an Afghan county on their website that 
allowed the Agribusiness Development Teams from Texas to have 
the exact same reach-back as any extension agent anywhere. And 
some of the states even offered us through VTC training for 
Afghan ministers and extension agents by VTC, and to their 
universities or local high schools. It was a great partnership 
that we could reach back and forth between the land-grant 
universities and the Agribusiness Development Teams.
    Mr. Newhouse. I appreciate that a lot. Our land-grant 
universities do so much for us here nationally, and it is good 
to hear that they are working so hard internationally as well.
    I appreciate your indulgence, Mr. Chairman, and I yield 
back.
    The Chairman. The gentleman yields back. Mr. Yoho, for 5 
minutes.
    Mr. Yoho. Thank you, Mr. Chairman. Gentlemen, I appreciate 
your being here, and again, I appreciate your service as 
everybody else has said. What you are doing is so important, 
and as one person said that you can't talk politics with 
somebody that has an empty belly. And George Washington always 
stated that to have national security, you have to have a 
national food security, too. And so what you are doing is so 
important.
    Major General Sholar, you were talking about the GMOs. How 
well are they received in other countries? I know you talked a 
little bit about that, and then you quoted that article which 
is so important that we and the USDA get out there as a policy, 
a public awareness, and then there was the article that just 
came out with the 100 Nobel laureates all in agreement on the 
safety, the effectiveness of the GMOs. My question for you 
would be what would you recommend on a policy to get the 
benefit of these products out there, knowing the success of 
them, the safety, the effectiveness, and the efficiency of 
growing them?
    Dr. Sholar. Well thank you for the question, Congressman. I 
believe we just have to stay the course. This has not been an 
easy road to get the adoption of GM crops or GE crops that we 
have. There is still confusion out there in some parts of our 
culture, but there is among certain elements of our society, 
that will always be the case. There will be people who are 
arguing against certain foods, even if they are not GE. So 
there is something to overcome there.
    It is important for us to have as unified a voice as we 
possibly can, though. At the same time, we lament the fact that 
they are unaware of where that steak on their plate or where 
the food on their plate comes from, and yet, we have a part of 
our society that is more linked to where that food is coming 
from than ever before. We have to take advantage of that. We 
have to educate one side and be sure that the side that is 
engaged in understanding their food has the right information.
    And so to put a bow on it, we have to have a unified voice.
    Mr. Yoho. Okay, I appreciate that, and I agree 100 percent 
with you. And that is one of my goals out of our office to go 
ahead and do that.
    Major General Owens, you were talking about the land-grant 
universities, and I come from the University of Florida and I 
have to give a shout out to them, so go Gators. They have done 
so much work on those, extending the production of agriculture. 
We have a great food animal production program that is going on 
in northern Africa.
    But you were talking about going into these countries. How 
do you go into a country when you have the whole continent of 
Africa has 1.11 billion people on the continent, 650 million 
don't have electricity, to go in there and develop an 
agricultural product or market or sector, and you are talking 
about the corruption that is going on. We were in the Congo, 
the President of the Congo and his twin sister are 
billionaires, and we give millions of dollars, over the years 
billions of dollars, when you have the corruption that is going 
on in there. Do you work closely with MCC, the Millennium 
Challenge Corporation, and do you put metrics in place that you 
grade these countries, and if they don't meet those metrics on 
corruption, on infrastructure, the rule of law, do you pull out 
or are you guys willing to do that? Or are there waivers 
through the military? I know you are trying to do other things 
to get that assistance in there.
    Mr. Owens. Well one of the things we learned by the work 
that we have done in some of these other nations on ag 
development is that large scale projects that spend a lot of 
money, it is very hard to control and sustain those. We even 
found that in small scale projects. For instance, some of the 
Agribusiness Development Teams in the protection of watersheds 
began to build check dams, the old-fashioned, just small check 
dams, to preserve the watersheds and reduce erosion. What we 
found is when you built something for individual people, then 
they came back and expected you to pay to maintain, to pay to 
continue and sustain it. We had to find innovative ways to 
bring in some type of ownership.
    Unfortunately, I would say in some of those projects, due 
to corruption 40 or 50 percent sometimes of the money just gets 
skimmed off somewhere in the process. And unfortunately, it is 
very difficult to sustain. Our long-term development projects 
sometimes turn into a series of 1 year projects rather than a 
10 or 12 year program like the ADTs put in place to make things 
happen.
    Mr. Yoho. All right, thank you. My time has expired, but 
again, I appreciate the work you guys do. Thank you.
    The Chairman. The gentleman's time has expired. Mr. Lucas, 
for 5 minutes.
    Mr. Lucas. Thank you, Mr. Chairman, and I can't help but 
think for a moment about the comments from my colleague in 
Georgia, Mr. David Scott, about the unique and wondrous nature 
of the land-grant system. And sometimes, we forget in this 
country, and even occasionally in this Congress, how wondrous 
it was that since the 1862 Morrill Act that a university 
education has been available to virtually every American, and 
prior to 1862 that was not the case. This was the first country 
in the world to make that possible. And in the 1890s it came 
into the system, in the 1994, the creation of the land-grant 
system, followed by the Hatch Act and the Agricultural Research 
Service and all of those things, and the Smith Lever Act in 
1914. The ability to train professionals, scientists, and 
actual technicians; the ability to research and to disseminate 
that information.
    I turn first to you, Major General Sholar. You commented 
earlier about land ownership patterns in various countries, so 
obviously in your career as an agronomist, in your 39 years as 
a military officer, you spent a lot of time in and out of the 
country. I will then ask the rest of the panel to follow on 
this, if you would, but are there any other systems around the 
world that are comparable to our land-grant, ARS extension 
service model, and if so, since there is always room for 
improvement everywhere, does anybody on the planet do it in a 
way that maybe we should think about enhancing this combination 
of resources that we have employed for a century plus?
    The floor is yours, Major General.
    Dr. Sholar. Thank you, Congressman, for the question. 
Obviously, I am a strong, strong advocate of the land-grant 
system, having spent more than 40 years of my life working in 
it. Western Europe models our system some, but not the intense 
local help that we provide with our extension system. One of 
the major differences, and of course, it is a common issue with 
our commodity groups in our country, is the incentives that 
those countries provide directly to their producers.
    But I recall, very briefly, during the floods in New 
Orleans and discussions about how that could have happened, how 
we let that infrastructure decline, degrade to where that could 
happen, and they were talking to a gentleman from the 
Netherlands, and he said we have a way of life that we like. We 
are willing to invest in our infrastructure to live below sea 
level. I am not suggesting that we attempt to live below sea 
level, but to have this to continue the preeminence that we 
have had, we have to continue to invest. And we have taken a 
knee just a bit. We are not investing at the level we were, 
either at the state or the Federal level. I know the fierce 
competition for those dollars, but Congress and all of our 
leaders in the country have a some tough decisions to make to 
maintain where we are.
    Mr. Lucas. It is still fair to say, General, that our land-
grant and Agricultural Research Service extension service model 
is still the best in the world?
    Dr. Sholar. Absolutely, absolutely. There is none that even 
comes close, Congressman.
    Mr. Lucas. My other two friends on the panel, any 
observations from your experiences in other countries or in 
other parts of the United States along this line?
    Mr. Ahlness. Yes, Congressman, I don't have experience in 
other parts of the world, but I can say that as I was training 
up for the mission and during the mission, any state that I 
reached back to, they freely gave the information. And when we 
had issues, the network of the different state extension 
services, they would talk to one another to get us the answers 
we needed. It was a tremendous resource that was much 
appreciated and made a huge difference.
    Mr. Lucas. As this Committee went through the last farm 
bill process, I was amazed occasionally by the observations of 
some people about why do we spend the money on our land-grant 
colleges? Why do we spend money on research? Why do we do 
extension? An occasional refrain from some of my idealistic 
colleagues was let corporate America do it. But the fact of the 
matter is, the land-grants train the scientists, you gentlemen, 
provide the basic skills, create the pool then that the rest of 
the market economy uses to perfection, and in all fairness, the 
Agricultural Research Service provides a balance with corporate 
America to make sure that we all have access to technology in 
affordable ways, and in the extension service, disseminating 
that information. I mean, just disseminating that information 
so critically important.
    Again, sometimes we in this Congress and in this country 
overlook what works so well, so efficiently, to our detriment, 
and I hope that is never the case, and I appreciate the efforts 
that you all have provided with all of the systems we have, and 
why it is important to keep it.
    And with that, I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back. Mr. LaMalfa, for 5 
minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. Major General, Major 
General, Colonel, welcome. Thank you for serving.
    Following back up on the GE crops and such, Mr. Davis 
talked about that and Mr. Yoho and others, I am sure, before I 
was able to arrive. Again, in a growing population, it is 
expected to hit nine billion by 2050, that it would be a very 
strong tool to have available. Food insecurity, a possibility 
to increase production. We control better nutritional aspects 
of the food itself. But again, there is skepticism. We talked 
about it here domestically. What level do you find that 
skepticism in other countries and other continents? Is it a big 
deal like it can be here so much? Is it something that we need 
to work and develop more confidence in this as a tool on that, 
especially if the alternative is going to be malnutrition? All 
three of you on the panel, please, if you wish to.
    Mr. Ahlness. Congressman, I will just start first. Sorry, 
Major Generals. I only have Afghanistan to look at, and we 
distributed Ug99 rust resistant and drought resistant wheat to 
the farmers, and that is what they relied on for their 
subsistence. The other crops tend to be test crops that they 
sold for profit. They had no issue. In fact, the grain they saw 
was Ug99, they were relieved because they knew that they would 
be able to plant more and harvest more for their families, and 
there would be less food insecurity. I saw absolutely no 
problem with using that type of genetically modified seed for 
their crops.
    Mr. LaMalfa. Was that more third world or westernized?
    Mr. Ahlness. Again, that is my experience in Afghanistan 
only. That is all I can speak to.
    Mr. Owens. I would say in our developing countries there 
was not the resistance to the GMOs. The biggest problems we had 
with GMOs was the affordability of the technical fees and 
affordability of those crops, and being able to sustain any 
utilization of the technology.
    The other thing I will say is that when you have people 
that are malnourished and there is food insecurity, they don't 
seem to worry about a lot of those other issues.
    Dr. Sholar. And I would just add, one of the things we have 
not mentioned this morning is stress tolerant crops. We have 
talked about disease resistant, insect resistant, but the 
tolerance to stress, and part of the reason for that is it is 
so difficult to get at. We have had work on drought stress on 
crops forever, or for a long time, but we have not made the 
progress we have in other areas. But that is an unfulfilled 
dream or wish. We will not get more water. Water tables are 
declining precipitously here in our country and around the 
world. I read where the water table in one area is dropping by 
25 per year. That is mind boggling. We are going to have to 
have more progress with drought or stress tolerant crops.
    Mr. LaMalfa. What more should the United States, either in 
the private-sector or the Federal Government, be doing to help 
with promoting this GE science, or do you think we are doing 
enough? What do you think on that?
    Dr. Sholar. Well, Congressman, one of the things that is 
really interesting to me, the ag research leader of Bayer 
Company recently had an article in Seed World Magazine, and the 
gist of it was how we as a people should be investing more 
heavily into public research. Now this is one of the largest 
companies in the world not exactly clobbering us.
    Mr. LaMalfa. U.S. investment or international?
    Dr. Sholar. U.S. investment, because we have let that 
decline some, and we are not going to maintain our position----
    Mr. LaMalfa. Do you see international investment as being a 
part of that, too?
    Dr. Sholar. Absolutely, and of course, part of the problem 
is the consolidation of the big players. That is going to be an 
issue, what will they be interested in? The public-sector has 
to maintain the role that they have, because the private-sector 
will be interested in some things, and not everything.
    Mr. LaMalfa. What can the developing countries be doing 
more so?
    Dr. Sholar. Pardon me?
    Mr. LaMalfa. What can developing countries be doing more 
so, either in that directly, or what would you say in general?
    Dr. Sholar. Well, I would just say that this engagement 
that we have at all levels, both at the government level, at 
the education level, what these gentlemen's areas of expertise, 
because there is so much bureaucracy, so much corruption. Some 
of the support is going to drift away, and so it is just such a 
complex unsophisticated world in some ways, but we have to 
remain engaged.
    Mr. LaMalfa. Maybe us as an outside source might be better 
to help protect that until it is more ready for----
    Dr. Sholar. Absolutely.
    Mr. LaMalfa. Okay, thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. Mr. Allen, 
do you have questions? Go ahead and start the clock. No, I was 
teasing. Reset it. I was teasing.
    Mr. Allen. No, go ahead.
    The Chairman. Mr. Allen is recognized for 5 minutes.
    Mr. Allen. I apologize. There is a lot going on this 
morning here in this town, but my main reason for getting back 
here is I wanted to thank you for your service. I am from 
Augusta, home of the Cyber Center of Excellence at Fort Gordon, 
and I do appreciate your service, not only to this country, of 
course, agriculture is the largest industry in our district, 
largest industry in our state. I am a farm boy, and so it is 
very dear to my heart.
    What I wanted to do, Colonel Ahlness, you had mentioned in 
your testimony due to the 30 years of ongoing war, much of the 
agriculture practices that would normally have been passed down 
generation by generation were lost because of family members 
being away at war. My dad was actually drafted in 1942 and 
served to 1945. You also said that 30 years of war had changed 
the alfalfa crop, among others, and can you expand on how a 
prolonged war in the region affected their ability to grow a 
sufficient food supply?
    Mr. Ahlness. Yes, Congressman. It is very simple that a lot 
of people with the knowledge were killed because of the war, or 
taken away from the business of growing crops. We would see 
that we could increase production of almond trees by up to 30 
percent by just teaching them again how to properly prune the 
tree. Now that is real basic stuff, what is a proper way to use 
an integrated pest management plan to help make sure that they 
reduce the pest impact on their grape crop, and by doing that, 
it could increase the production by ten percent. Replacement of 
root stock, they were so concerned about losing the production 
capability that they would not remove old trees from their 
orchards, they would welcome us giving them new trees, but they 
wouldn't take the other ones out, and we are trying to help 
them understand that you have to remove those things to move 
forward. Things that they had understood in the past, but they 
just forgot that because they are fighting. How can I make sure 
me and my family survive? We are going to hold on to what we 
have and not try to do the right type of practices to advance 
their needs.
    Mr. Allen. Well, that is the biggest responsibility I see 
of this Committee, because our farmers are aging out, like many 
of our skilled workforce, and so we need to get young people 
engaged. Any ideas that you may have talked about this morning, 
when our veterans who come back and they are looking for 
something to do? And I will tell you, there is nothing better 
for the mind than nature and the farm, in my opinion. In fact, 
my dad used to have to take long walks when things weren't 
going just right, but he would come back from that long walk 
and he would have a new idea, and he would be invigorated, 
being out there on that farm. But is there any idea out there 
about how we can get our veterans coming back home that maybe 
have not had farm experience that are looking for a great 
industry to get involved in that we can promote here on this 
Committee as far as our veterans are concerned? I will leave 
that to any of you to answer that question.
    Mr. Ahlness. All right, Congressman, I will give it a 
start.
    Mr. Allen. Okay.
    Mr. Ahlness. Since I am working in the corporate world now 
and one of my missions is to help bring veterans on board, we 
are looking out there and we see a lot of good things out 
there.
    First of all, there are 45,000 nonprofits that are oriented 
on veterans, and a number of those nonprofits, I got that from 
the U.S. Army Soldier for Life Program. There are a lot of good 
nonprofit groups out there that are helping veterans say how 
can I make this transition into something that I like? And 
there are a number of those focused on agriculture. Now what I 
would say is how can we help them find their footing and get 
the word out to the veterans or to the transition posts, the 
transition programs, so that people can learn about that?
    As I stated earlier in my testimony, I didn't know all that 
was available in the agribusiness realm, so I went in the Army, 
but if I would have known about some of those other 
opportunities, it would be a great opportunity for a lot of 
these veterans to find their new passion once they leave their 
service.
    Mr. Allen. Any other comments on that as far as engaging 
our vets in this industry?
    Dr. Sholar. Well, I am aware, Congressman, that this 
Committee has engaged the veterans and heard from the veterans 
and it is about engagement. These things aren't going to solve 
themselves, and I would applaud the work that this Committee 
and others in Congress are doing. These individuals deserve 
everything we can do for them.
    Mr. Allen. You better believe it. Yes, sir.
    Mr. Owens. Yes, sir, engagement and education and the 
ability to find a financial means to get into agriculture, any 
of those areas would be beneficial for our returning veterans.
    Mr. Allen. Well, you have my support. Thank you very much, 
and I yield back, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Well, gentlemen, thank you very much for the testimony this 
morning and answering our questions. This hearing on the 
interconnectedness between national security and agriculture is 
one of a series we have done. This has been really terrific 
information this morning to see your firsthand experience in 
other parts of the world where it is clearer the connectedness 
between feeding folks, hunger, and the agriculture industry, 
the impact it has in the economy and their own national 
security.
    We have taken our advantages for granted for way too long, 
and part of our role on this Committee is to try to help point 
out to everyday Americans that having not only the most 
abundant and safest but affordable food and fiber supply is not 
accidental, and they have a vested interest in maintaining a 
strong, vibrant production agriculture industry and the impact 
that has on rural America couldn't be more important, and then 
the link to national security, of course.
    I was privileged to spend one Sunday afternoon in Jalalabad 
before the Agribusiness Development Teams came into existence, 
and I was with a group of 101st Airborne warriors sitting 
around a table, basically having a Chamber of Commerce meeting 
because they were trying to figure out how to use the 
agriculture assets there in and around Jalalabad. You mentioned 
pomegranates. That was one of their products as well. How they 
could get it to Kuwait, because they thought they had some 
contracts in Kuwait to export this stuff, but they need 
electricity and they need refrigeration, and these are 
warriors. They didn't know ``come here'' from ``sic `em'' about 
any of this stuff, but they were fully engaged trying to figure 
it out on behalf of the Afghans.
    The day before, the Saturday before, they had been in an 8 
hour running gunfight with bad guys. They took that hat off, 
and put the Chamber of Commerce hat on. They were really 
excited about a group of National Guardsmen who were also 
warriors but were farmers from Missouri that were coming in a 
couple of months, because they were exited about some real-life 
agricultural experts who made a living doing it were on the way 
to help them with that. This was maybe the forerunner to the 
Agribusiness Development Teams, and I got to see that for 
myself, and I was really impressed.
    You all served for a long, long time. We ask our military 
to do a lot of things. Many times, we ask them to do stuff they 
are not qualified to do. That never stops them, never hinders 
them. They just go get the job done, so thank you for your long 
service. I appreciate that.
    As our nation sets priorities for resources, against a 
backdrop of $19 trillion in debt and growing, I guess all the 
competing issues that are out there, this hearing and your 
testimony will help us convince our colleagues on both sides of 
the aisle how important the resource allocation that we do wind 
up with that goes to ag education and ag research and the 
safety net that underpins the production agriculture system in 
this country that it is one of those priorities that we need to 
work on and protect as we try to cope with both the struggle of 
limited resources and continued challenge we have, moving 
forward.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplemental written responses from the 
witnesses to any questions posed by a Member.
    This hearing of the Committee on Agriculture is adjourned. 
Thank you.
    [Whereupon, at 11:55 a.m., the Committee was adjourned.]

                                  [all]
</pre></body></html>
